<html>
<title> - ASSESSING FEMA'S READINESS FOR FUTURE DISASTERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


            ASSESSING FEMA'S READINESS FOR FUTURE DISASTERS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2019

                               __________

                           Serial No. 116-26

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                      

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                 U.S. GOVERNMENT PUBLISHING OFFICE                    
38-302 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Michael Guest, a Representative in Congress From 
  the State of Mississippi:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Peter T. Gaynor, Acting Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Chris P. Currie, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                             For the Record

The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey:
  Article........................................................    49
The Honorable Michael Guest, a Representative in Congress From 
  the State of Mississippi:
  Chart..........................................................    78
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Letter, Oxfam..................................................    79
  Article, Oxfam.................................................    82
  Statement of Ami Gadhia, Chief of Policy, Research, and 
    Programs, Child Care Aware of America.......................    83

                                Appendix

Questions From Chairman Bennie G. Thompson for Peter T. Gaynor...    89
Questions From Honorable James R. Langevin for Peter T. Gaynor...    96
Questions From Honorable Lauren Underwood for Peter T. Gaynor....    99
Questions From Honorable Michael Guest for Peter T. Gaynor.......   100

 
            ASSESSING FEMA'S READINESS FOR FUTURE DISASTERS

                              ----------                              


                        Wednesday, June 12, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room 310, Cannon House Office Building, Hon. Bennie G. Thompson 
(Chairman of the committee) presiding.
    Present: Representatives Thompson, Jackson Lee, Richmond, 
Payne, Rice, Rose, Underwood, Slotkin, Green of Texas, Clarke, 
Watson Coleman, Barragan, Demings, King, McCaul, Katko, Walker, 
Lesko, Taylor, Joyce, Crenshaw, and Guest.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on 
assessing FEMA's readiness for future disasters.
    Good morning. Before we begin, I want to observe that today 
marks the third anniversary of the tragic shooting at the Pulse 
nightclub in Orlando, Florida. Our thoughts remain with the 
victims and their families on this solemn day.
    I would like to welcome our witnesses, Acting Federal 
Emergency Management Agency Administrator Pete Gaynor and Mr. 
Christopher Currie of the Government Accountability Office.
    The committee is meeting today to assess FEMA's readiness 
for future disasters. The Federal response to Hurricane Maria 
nearly 2 years ago was an abject failure. Slow response for the 
Federal Government, FEMA staff and challenges, and botched 
contracts left millions of our fellow Americans in Puerto Rico 
to respond to the devastating storm without the help they 
desperately needed from FEMA and other Federal agencies. We may 
hear some revisionist history about the response today, but the 
fact remains that FEMA and its Federal partners were not ready 
to respond to consecutive major storms in 2017.
    Unfortunately, Puerto Rico continues to pay the price. 
People there are also still suffering from disparate treatment 
by the President, who continues to tweet his disdain for Puerto 
Ricans working to help their communities recover.
    Politicizing disasters or treating communities differently 
based on their political persuasion should be beneath any 
President. All Americans deserve the unwavering support of 
their President and the Federal Government in times of crisis, 
regardless of their political persuasion, economic status, skin 
color, or where they live. We need to restore the American 
people's confidence that they will have that support.
    Those of us who went to Puerto Rico both in the immediate 
aftermath of the storm and more recently as Puerto Rico 
continues to recover, know first-hand more remains to be done. 
As Chairman of this committee, I am committed to continuing 
oversight of recovery there.
    Meanwhile, as recovery from the 2017 hurricane continues, 
the 2019 hurricane season got underway June 1. Many of us are 
concerned whether FEMA has learned the lessons of the 2017 
season and will apply those lessons in response to future 
disasters. Is FEMA more ready to respond today than it was 
nearly 2 years ago? What more remains to be done? How can we 
ensure FEMA addresses persistent challenges and future risk? I 
hope to engage with our witnesses to help answer those 
questions today.
    Fortunately, the Government Accountability Office is 
working on a series of audits related to these questions at my 
request and that of several Congressional colleagues. Their 
work so far has found it is imperative FEMA improve its 
disaster resilience response recovery and work force management 
efforts. FEMA's own after-action report on the 2017 hurricane 
season acknowledges many of those concerns. I am particularly 
interested in how FEMA will address its persistent disaster 
work force shortages. Without having the right people in place, 
trained, and ready to respond, FEMA cannot carry out its 
mission.
    This is particularly concerning to me because, in my own 
State, we have experienced severe storms, flooding, and 
tornadoes already this season. I want to express my sincere 
appreciation to employees of FEMA who work hard on behalf of 
our disaster survivors.
    Also, I remain concerned about a recently discovered FEMA 
data breach that exposed the personal addresses and banking 
information of more than 2 million U.S. disaster survivors. I 
hope the acting administrator can share with us the plan for 
helping those whose privacy has been compromised and preventing 
other similar incidents.
    Finally, I want to express my strong opposition to the 
President's proposal to slash Homeland Security and first 
responder grants by more than $600 million for fiscal year 
2020. These draconian cuts would undermine our Nation's 
security and preparedness. Congress must reject the President's 
proposal and ensure State and local partners and our first 
responders receive the funding necessary to secure our 
communities.
    Before closing, I want to note that the President's nominee 
for FEMA administrator will have a confirmation hearing before 
the Senate later today. I look forward to the Department 
filling one of its many vacancies and to engaging a confirmed 
administrator on the issues facing the agency.
    Again, I thank the Members and witnesses for joining us, 
and look forward to a productive discussion about FEMA's 
readiness to respond to future disasters.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             June 12, 2019
    The committee is meeting today to assess FEMA's readiness for 
future disasters.
    The Federal response to Hurricane Maria nearly 2 years ago was an 
abject failure. Slow response from the Federal Government, FEMA 
staffing challenges, and botched contracts left millions of our fellow 
Americans in Puerto Rico to respond to the devastating storm without 
the help they desperately needed from FEMA and other Federal agencies. 
We may hear some revisionist history about that response today, but the 
fact remains that FEMA and its Federal partners were not ready to 
respond to consecutive major storms in 2017.
    Unfortunately, Puerto Rico continues to pay the price. People there 
are also still suffering from disparate treatment by the President who 
continues to tweet his disdain for Puerto Ricans working to help their 
communities recover.
    Politicizing disasters or treating communities differently based on 
their political persuasion should be beneath any President. All 
Americans deserve the unwavering support of their President and the 
Federal Government in times of crisis, regardless of their political 
persuasion, economic status, skin color, or where they live. We need to 
restore the American people's confidence they will have that support.
    Those of us who went to Puerto Rico both in the immediate aftermath 
of the storm and more recently as Puerto Rico continues to recover know 
first-hand much more remains to be done. As Chairman of this committee, 
I am committed to continued oversight of recovery there.
    Meanwhile, as recovery from the 2017 hurricanes continues, the 2019 
hurricane season got under way June 1. Many of us are concerned whether 
FEMA has learned the lessons of the 2017 season and will apply those 
lessons in its response to future disasters. Is FEMA more ready to 
respond today than it was nearly 2 years ago? What more remains to be 
done? How can we ensure FEMA addresses persistent challenges and future 
risks? I hope to engage with our witnesses to help answer these 
questions here today.
    Fortunately, the Government Accountability Office is working on a 
series of audits related to these questions at my request and that of 
several Congressional colleagues. Their work so far has found it is 
imperative FEMA improves its disaster resilience, response, recovery, 
and workforce management efforts. FEMA's own After-Action Report on the 
2017 Hurricane Season acknowledges many of these concerns.
    I am particularly interested in how FEMA will address its 
persistent disaster workforce shortages. Without having the right 
people in place, trained, and ready to respond, FEMA cannot carry out 
its mission. This is particularly concerning to me because in my own 
State, we have experienced severe storms, flooding, and tornadoes 
already this year.
    I want to express my sincere appreciation to the employees at FEMA 
who work hard on behalf of disaster survivors. Also, I remain concerned 
about a recently-discovered FEMA data breach that exposed the personal 
addresses and banking information of more than 2 million U.S. disaster 
survivors. I hope the acting administrator can share with us the plan 
for helping those whose privacy has been compromised and preventing 
another similar incident.
    Finally, I want to express my strong opposition to the President's 
proposal to slash homeland security and first responder grants by more 
than $600 million for fiscal year 2020. These draconian cuts would 
undermine our Nation's security and preparedness. Congress must reject 
the President's proposal and ensure State and local partners and our 
first responders receive the funding necessary to secure our 
communities.
    Before closing, I want to note that the President's nominee for 
FEMA administrator will have a confirmation hearing before the Senate 
later today. I look forward to the Department filling one of its many 
vacancies and to engaging a confirmed administrator on the issues 
facing the agency.

    Mr. Thompson. The Chair now recognizes the gentleman from 
Mississippi, Mr. Guest, for an opening statement.
    Mr. Guest. Thank you, Mr. Chairman.
    With the 2019 hurricane season officially under way, the 
resilience of FEMA and the American people will once again be 
tested. FEMA's mission is to help people before, during, and 
after a natural disaster.
    Over the last 2 years, FEMA has led the response of an 
unprecedented set of disasters. Hurricanes leveled large swaths 
of the country. Catastrophic wildfires destroyed over 1 million 
acres. Large floods inundated millions of homes, farms, and 
businesses. Tornadoes ripped a path of destruction through 
dozens of communities. So far this year, 28 major disaster 
declarations have been declared.
    As a Mississippian, I share the State with the Chairman 
that is prone to natural disasters, and I am familiar with the 
devastations of hurricanes, floodings, and tornadoes. In fact, 
as recently as this week, Mississippi's Governor, Phil Bryant, 
requested a major disaster declaration for the State of 
Mississippi for severe storms, floodings, and tornadoes that 
hit our State.
    This request marks the third major disaster declaration 
inquiry from Governor Bryant this year. In each of these 
disasters, first responders and community officials worked 
hand-in-hand with FEMA on response and recovery efforts. It is 
the strength of this Federal-State partnership that is key to 
successful disaster preparation, response, and recovery.
    I look forward to hearing from our witnesses on the 
resilience of that partnership in the wake of such large-scale 
disasters that we have recently witnessed.
    I am also interested in hearing about the progress FEMA is 
making in implementing the Disaster Recovery Reform Act. It is 
my understanding that last year, the Republican Majority 
enacted DRRA as the first major reform to the Stafford Act in 
over a decade.
    In addition to helping to expedite assistance to survivors 
and increasing State flexibilities, DRRA established a new 
predisaster mitigation fund to help communities preempt the 
damage that results from disasters. Mitigation continues to be 
our best defense against natural disasters. For every dollar we 
spend on mitigation, we save between $4 and $8 on recovery. The 
more we can help our communities mitigate disasters, the less 
they rely on Federal assistance when disasters strike.
    Finally, this committee has exclusive jurisdiction over 
preparedness and response to acts of terrorism. I am interested 
in hearing from our witnesses their perspective on how prepared 
the Federal-State partnership is to respond to a terrorist 
attack on American soil. As the threats to our Nation 
continually evolve, it is critical that Congress continue to 
make robust investments in FEMA's preparedness grants. States 
and communities rely on these grants to build, sustain, and 
enhance their capabilities to protect the public from acts of 
terrorism.
    I thank the witnesses for appearing today, and I look 
forward to hearing their testimony.
    Mr. Chairman, I yield back.
    [The statement of Ranking Member Guest follows:]
                  Statement of Honorable Michael Guest
                             June 12, 2019
    Thank you, Mr. Chairman.
    With the 2019 hurricane season officially under way, the resilience 
of FEMA and the American people will once again be tested. FEMA's 
mission is to help people before, during, and after a disaster.
    Over the last 2 years, FEMA has led the response to an 
unprecedented set of disasters. Hurricanes leveled large swaths of the 
country; catastrophic wildfires destroyed over 1 million acres; large 
floods inundated millions of homes, farms, and businesses; and 
tornadoes ripped a path of destruction through dozens of communities.
    So far this year, 28 major disaster declarations have been 
declared.
    As a Mississippian, I share a State with the Chairman that is prone 
to natural disasters and am familiar with how devastating hurricanes, 
tornadoes, and flooding can be. In fact, as recently as Monday, 
Mississippi Governor Phil Bryant requested a major disaster declaration 
for the State of Mississippi for severe storms, flooding, and tornadoes 
that hit our State in April. This request marked the third major 
disaster declaration inquiry from Governor Bryant since February of 
this year. In each of these disasters, first responders and community 
officials worked hand-in-hand with FEMA on response and recovery 
efforts.
    It's the strength of this Federal-State partnership that is the key 
to successful disaster preparedness, response, and recovery. I look 
forward to hearing from our witnesses on the resilience of that 
partnership in the wake of the large-scale disasters we've recently 
witnessed.
    I am also interested in hearing about the progress FEMA is making 
in implementing the Disaster Recovery Reform Act. It's my understanding 
last year, the Republican Majority enacted DRRA as the first major 
reform of the Stafford Act in over a decade.
    In addition to helping to expedite assistance to survivors and 
increasing State flexibilities, DRRA established a new pre-disaster 
mitigation fund to help communities pre-empt the damage that results 
from disasters.
    Mitigation continues to be our best defense against natural 
disasters. For every dollar we spend on mitigation, we save between $4 
and $8 on recovery.
    The more we can help our communities mitigate disasters, the less 
they must rely on Federal assistance when disasters strike.
    Finally, this committee has exclusive jurisdiction over 
preparedness and response to acts of terrorism. I am interested in 
hearing our witness' perspective on how prepared the Federal-State 
partnership is to respond to a terrorist attack on American soil.
    As the threats to our Nation continually evolve, it is critical 
that Congress continues to make robust investment in FEMA preparedness 
grants. States and communities rely on these grants to build, sustain, 
and enhance their capabilities to protect the public from acts of 
terrorism.
    I thank the witnesses for appearing today and look forward to 
hearing their testimony.
    I yield back.

    Chairman Thompson. Thank you very much.
    Other Members of the committee are reminded that, under the 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                             June 12, 2019
    Thank you Chairman Thompson for holding today's hearing on 
``Assessing FEMA's Readiness for Future Disasters.''
    The purpose of this hearing is to examine FEMA's management of 
recent disasters to assess its readiness for future disasters.
    I look forward to hearing from today's witness's testimony on 
preventing unlawful profiling:
  <bullet> Peter Gaynor, acting administrator, Federal Emergency 
        Management Agency (FEMA); and
  <bullet> Chris Currie, director, Homeland Security and Justice 
        Division, Government Accountability Office (GAO).
    For 39 years, FEMA's mission remains: To lead America to prepare 
for, prevent, respond to, and recover from disasters with a vision of 
``A Nation Prepared.''
    On April 1, 1979, President Jimmy Carter signed the Executive Order 
that created the Federal Emergency Management Agency (FEMA).
    From Day 1, FEMA has remained committed to protecting and serving 
the American people.
    The FEMA coordinates the Federal Government's role in preparing 
for, preventing, mitigating the effects of, responding to, and 
recovering from all domestic disasters, whether natural or man-made, 
including acts of terror.
    The Robert T. Stafford Disaster Relief and Emergency Assistance Act 
(Public Law 100-707), signed into law on November 23, 1988, amended the 
Disaster Relief Act of 1974 (Public Law 93-288).
    The Stafford Act constitutes the statutory authority for most 
Federal disaster response activities especially as they pertain to the 
Federal Emergency Management Agency (FEMA) and FEMA programs.
    The work of the FEMA Office of Disaster Recovery and the Office of 
Disaster Recovery are critical when disaster strikes and for this 
reason they should be a permanent part of the agency.
    These are the offices responsible for the Federal-wide coordination 
of disaster response and recovery efforts.
    Disaster response and recovery has taken on a new urgency because 
of the frequency and furiousness of extreme weather events.
    Climate change finally has a face and a new name--extreme weather.
    Extreme weather includes unexpected, unusual, unpredictable, 
severe, or unseasonal weather.
    Often, extreme events are based on a location's recorded weather 
history and defined as lying in the most unusual 10 percent.
    Extreme weather is becoming the new normal.
    The question is ``Can we be prepared for success extreme weather 
events occurring nearly simultaneously?'', as was the case in 2017, 
when Hurricanes Harvey, Jose, and Maria hit within days of each other, 
while wildfires burned in California.
    GAO estimates that extreme weather costs the United States over 
$300 billion in 2017 alone.
    In the past the tools and resources available to FEMA to support 
disaster response and recovery have been limited to meals, water, tarp.
    Local, Tribal, territorial, and State governments had to make 
request for aid to be provided.
    For more substantial assistance, Government contracting and awards 
must be put into place, which can take months and in some cases years 
to get resources to victims.
    This is too much time for survivors to have to wait for help.
         extreme weather event--hurricane harvey by the numbers
    The 9-county Houston metro area impacted by Hurricane Harvey covers 
9,444 square miles, an area larger than 5 States, including New 
Hampshire, New Jersey, and Connecticut.
    Harris County covers 1,778 square miles, enough space to fit New 
York City, Philadelphia, Boston, Chicago, Seattle, Austin, and Dallas, 
with room still to spare.
    There was over 41,500 square miles of land mass impacted by 
Hurricane Harvey and the subsequent flooding that covered an area 
larger than the States of Connecticut, Massachusetts, New Hampshire, 
Rhode Island, and Vermont combined.
    Hurricane Harvey dropped 21 trillion gallons of rainfall on Texas 
and Louisiana, most of it on the Houston Metroplex.
    Nederland, Texas, recorded 60.58 inches of rainfall making Harvey 
the highest storm total rainfall. Rainfall within a tenth of an inch of 
that total was recorded in Groves, a neighboring community.
    Both these totals exceed the previous U.S. rainfall record of 52 
inches, set by Hurricane Hiki in Hawaii in 1950.
    At its peak on September 1, 2017, one-third of Houston was 
underwater.
    Over 300,000 structures flooded in southeastern Texas, where 
extreme rainfall hit many areas that are densely populated.
    Hurricane Harvey is the largest housing disaster to strike the 
United States in our Nation's history.
    Hurricane Harvey damaged 203,000 homes, of which 12,700 were 
destroyed.
    There was no way to pre-prepare for Hurricanes Harvey, Jose, Maria 
or any of the other major disaster events in 2017.
    What we can do is learn as much as possible and apply those lessons 
to future disaster response and recovery efforts.
    When there is an event, like Hurricane Harvey, there are important 
and valuable lessons that can help us to meet future challenges.
    It must be the duty of this Congress to make sure that FEMA is 
prepared to meet the challenge.
    For this reason, I introduced, H.R. 3060, a bill providing for 
reform and reorganization of the Federal Emergency Management Agency.
    Extreme weather events mean that we must be able to respond to the 
need wherever it is with the support required as quickly as possible 
and do so in way that will support response to multiple catastrophic 
events nearly simultaneously.
    H.R. 3060:
  <bullet> makes permanent the FEMA Office of Disaster Response and the 
        FEMA Office of Disaster Recovery;
  <bullet> creates an ombudsman for each office to assist survivors and 
        victims;
  <bullet> establishes a new National Disaster Medical Triage Capacity 
        and an Incident Medical Recovery Management Team to determine 
        best practices for implementing Advanced Trauma Life Support 
        capabilities, effecting medical evaluations, and to assess 
        health impacts that result from Federal disasters;
  <bullet> establishes a program to provide education and job training;
  <bullet> provides for accurate reporting on deaths and missing 
        persons; and
  <bullet> collects data and reports on effective casework management 
        for the provision of survivor benefits and services.
    Under H.R. 3060, homeowners who in the past were left out of the 
full benefit of Federal Government disaster recovery assistance, will 
have access to the help they need.
    The bill establishes a Disaster Emergency Housing Assistance Grant 
Program that allows the FEMA administrator to authorize the Secretary 
of HUD under Section 408 of the Stafford Act to provide immediate 
housing and urban development assistance that meets the housing needs 
of survivors of a Federally-declared disaster event, which shall 
include condominiums designated as such by local tax records.
    The bill does not require all substantial housing assistance to 
victims to wait for new legislation.
    This bill provides a report on options on creating a single 
National Disaster Insurance Program to ensure that every property owner 
will have the opportunity to purchase disaster policies when purchasing 
property insurance to bring stability and ensure that proactive steps 
to address disasters victims being underinsured or without insurance.
    I look forward to working with the committee on a FEMA bill that 
incorporates much of the hard lessons learned for disaster season 2017.
    I yield back the balance of my time.
    Thank you.

    Chairman Thompson. I welcome our panel of witnesses. First, 
I would like to welcome Peter Gaynor, the acting administrator 
at FEMA. Mr. Gaynor was confirmed by the Senate in October 2018 
as FEMA's deputy administrator, and has been serving as the 
acting administrator since March of this year. Prior to FEMA, 
Mr. Gaynor served as director of Rhode Island's Emergency 
Management Agency, and has a long history in public service and 
emergency management.
    Next, I would like to welcome Mr. Chris Currie, director of 
the Government Accountability Office of Homeland Security and 
Justice team. Mr. Currie leads GAO's work on National 
preparedness and emergency management, and has been at GAO 
since 2002.
    Without objection, the witnesses' full statement will be 
inserted in the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Mr. Gaynor.

  STATEMENT OF PETER T. GAYNOR, ACTING ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Gaynor. Good morning, Chairman Thompson, Representative 
Guest, and Members of the committee. My name is Pete Gaynor. I 
am the acting administrator for FEMA. On behalf of the 
Department of Homeland Security, Acting Secretary McAleenan, I 
would like to thank you for the opportunity to provide this 
committee with an update on the agency's readiness for future 
disasters.
    First, thank you for the support over the past few years. 
Congress passed and the President signed into law the Disaster 
Recovery Reform Act on October 5, 2018. We are grateful for the 
passage of this important measure. It will assist the Nation in 
reducing disaster risk and it will increase preparedness.
    I would also like to recognize the work of the committee 
and our partners at the Government Accountability Office for 
their oversight of this agency. Your efforts provide 
opportunities to advance our work and the emergency management 
profession. Having partners with the same goal of helping 
people before, during, and after disasters helps us 
continuously improve and adapt as a Nation.
    Since 2017, FEMA has supported 179 major and emergency 
disaster declarations and 114 fire management assistant grants. 
As of June 1, the first day of hurricane season, we have more 
than 5,700 employees deployed to support 52 active disaster 
declarations. I am proud of the agency's efforts and our staff 
who work tirelessly to carry out our mission.
    Even in this environment of unprecedented disaster 
workload, we have made substantial strides in achieving the 
agency's strategic goals and addressing areas for improvement 
identified in our own 2017 after-action report and our GAO 
partner recommendations.
    The scale and rapid succession of disasters in recent years 
has stretched response recovery capabilities at all levels of 
government. Following a disaster, FEMA serves as a lead 
coordinator for Federal assistance. But the emergency 
management process breaks down when the agency is expected to 
assume a first responder role.
    Through our experiences, we have learned that success and 
emergency response is locally executed, State-managed, and 
Federally-supported. FEMA's role is the coordinator supporting 
the recovery efforts of State and local elected officials, 
while ensuring we execute the laws passed by Congress to 
dispense Federal dollars in a responsible way.
    Our 2017 hurricane after-action report outlined key 
findings and made recommendations for improvement. The report 
also highlighted the importance of building a community-based 
response capacity. Eighty percent of all declared disasters 
incurred obligations of $41 million or less. Disasters below 
that amount have cost FEMA, on average, $100 million total per 
year in administrative costs.
    Aligned with the key focus areas in the after-action 
report, the agency's strategic plan goes on existing best 
practices and identifies new initiatives geared toward 
achieving three overarching goals. First, to build a culture of 
preparedness. Second, to ready the Nation for catastrophic 
disasters. Third, to reduce the complexity of FEMA.
    As part of our initiative to ready the Nation for 
catastrophic disasters, FEMA is emphasizing stabilization of 
community lifelines. Lifelines provide indispensable services 
that enable continuous operation of critical functions that, if 
not properly restored, would risk health, safety, or economic 
security.
    In addition to the lifeline's construct, FEMA has taken 
considerable steps to prepare for the 2019 hurricane season. 
First, enhancing our logistics management. FEMA has 
significantly increased our commodity stock at strategic 
locations across the continental United States and island 
States and territories. In Puerto Rico alone, we have more than 
6 times the stocks on hand on the island that we did before 
Irma and Maria made landfall.
    Since 2017, FEMA has increased incident management work 
force strength by more than 20 percent, even despite normal 
attrition rates, and hired more than 1,500 local hires who 
support their communities. We have also increased the number of 
staff roster through the DHS surge capacity force to augment 
FEMA assets when needed. We have made strides specifically 
aimed at survivor assistance. We have increased investments in 
urban search-and-rescue capabilities, and increased our call 
center capability to better serve disaster survivors.
    We continue to embrace lessons learned and best practices 
in our planning and exercises. For example, we revised a 
National response framework to improve other private-sector 
coordination. Additionally, last week, we conducted Shaken 
Fury, an exercise based on a catastrophic earthquake in the 
central United States.
    Today, nearly 2 weeks into the 2019 Atlantic hurricane 
season, the disasters to our Nation have never been higher. 
Given the historic magnitude of disasters over the past 2 
years, if a hurricane makes landfall this year, it will likely 
hit an area that is still working to recover from a prior 
disaster. That means this year, even smaller and less severe 
storms could have a larger impact.
    By utilizing best practices, adopting response concepts, 
and increasing predisaster investments to reduce risk, we can 
achieve the goals of building a culture of preparedness and 
readying the Nation for catastrophic disasters.
    Thank you for the opportunity to testify, and I look 
forward to any questions you may have.
    [The prepared statement of Mr. Gaynor follows:]
                 Prepared Statement of Peter T. Gaynor
                             June 12, 2019
                              introduction
    Good afternoon, Chairman Thompson, Ranking Member Rogers, and 
Members of the committee. My name is Peter Gaynor and I am the acting 
administrator of the Federal Emergency Management Agency (FEMA). On 
behalf of Acting U.S. Department of Homeland Security Secretary 
McAleenan, I'd like to thank you for the opportunity to discuss FEMA's 
readiness for future disasters.
    I am proud to continue to be part of an agency that, every day, 
helps communities before, during, and after disasters. The historic 
disaster seasons over the last 2 years were a true test of the Nation's 
ability to respond to and recover from multiple concurrent disasters.
    Two years later, FEMA remains steadfast in its commitment to 
support the needs of disaster survivors. We continue to work tirelessly 
to support State, local, Tribal, and territorial (SLTT) partners to 
respond to and recover from disasters and to mitigate against future 
disasters. We overcame many challenges, and we have gained invaluable 
knowledge which we have incorporated into our strategy going forward, 
but we are not finished. We will continue to adapt and expand our 
understanding of emergency management to ensure that we can best 
support our partners' ability to build more resilient communities, 
lessen the impacts of disasters, and ultimately help individuals get 
back on their feet quickly.
    On February 9, 2018, the President signed into law the Bipartisan 
Budget Act of 2018. Thanks to the authority that Congress has given to 
FEMA in this law, FEMA may, in Puerto Rico and the U.S. Virgin Islands, 
provide Public Assistance funding for critical services to replace or 
restore the function of a facility or system to industry standards 
without restrictions based on their pre-disaster condition. The law 
further allows FEMA to provide assistance for critical services to 
replace or restore components of the facility or system that are not 
damaged by the disaster when it is necessary to fully effectuate the 
replacement or restoration of disaster-damaged components to restore 
the function of the facility or system to industry standards.
    In Puerto Rico, we are facing many unique challenges throughout the 
long-term recovery process. We continue to work with our partners in 
the Commonwealth, other Federal agencies, and Congress to find joint, 
outcome-driven solutions to: (1) Develop cohesive, solutions-oriented 
strategies to maximize Federal funding while building a more resilient 
Puerto Rico; (2) build Puerto Rico's capacity to manage the incoming 
tens of billions of dollars in grant funding; and (3) continue internal 
controls to ensure appropriate use of taxpayer funding.
                      key themes & lessons learned
    Hurricanes Harvey, Irma, and Maria caused a combined $265 billion 
in damage and were each among the top 5 costliest hurricanes on record. 
In response, FEMA coordinated large deployments of Federal personnel, 
both before and after the hurricanes' landfalls, to support response 
and initial recovery efforts across 270,000 square miles. These 
deployments included more than 17,000 FEMA and Federal Surge Capacity 
Force personnel, and nearly 17,000 personnel from various offices of 
the Department of Defense. FEMA facilitated logistics missions that 
moved more than $2 billion worth of commodities and supplies across 
several States and territories, using multiple modes of transportation. 
FEMA Urban Search and Rescue Task Forces, comprised of State and local 
emergency responders, saved or assisted nearly 9,500 lives across the 3 
hurricanes. In total, the hurricanes and California wildfires affected 
more than 47 million people--nearly 15 percent of the Nation's 
population. FEMA registered nearly 4.8 million households for 
assistance.
    The unprecedented scale, scope, and impacts of the complex 
combination of disasters tested the improved capabilities that were 
developed as a result of lessons learned from Hurricanes Katrina and 
Sandy.
    Following the 2017 and 2018 disasters, FEMA thoroughly reviewed 
preparations for the immediate response and initial recovery operations 
with the goal of identifying lessons learned which collectively benefit 
future operations undertaken by FEMA, the emergency management 
community, and the Nation. Key themes which emerged include:
  <bullet> Sustained Whole Community Logistics Operations.--The scale 
        and duration of life-saving and sustainment operations showed 
        that FEMA must be ready to support logistics missions that span 
        weeks or months, particularly in remote locations where 
        commodities and equipment are transported by non-traditional 
        methods. Plans and procedures for resource movement, sequencing 
        and transportation logistics, including the last mile of 
        delivery when requested, must be effectively coordinated and 
        prioritized with the supported State, territory, or Tribe, 
        other Government agencies, non-profit organizations, and the 
        private-sector supply chain.
  <bullet> Locally-Executed, State-Managed, and Federally-Supported.--
        FEMA's ability to provide support in disasters builds on, and 
        is subject to, the capacity of SLTT governments. If these 
        governments are well-resourced, well-trained, and well-
        organized, the effectiveness of FEMA's assistance is enhanced. 
        If the SLTT government's ability to respond--for example, the 
        ability to provide law enforcement, medical support, or 
        commodity distribution--is diminished, then FEMA and its 
        partners must find ways to deliver and support these critical 
        services. FEMA is not traditionally a first response 
        organization but had to play a more direct response role 
        following Hurricane Maria.
  <bullet> Staffing for Concurrent, Complex Incidents.--When Hurricane 
        Harvey made landfall in Texas, FEMA had staff deployed to 32 
        Presidentially-declared disasters across 19 field offices. By 
        the time Maria made landfall following Harvey and Irma, 
        decisions regarding personnel made in support of one incident 
        impacted on-going disaster operations. FEMA and our Federal 
        Government partners rapidly surged and deployed personnel to 
        support immediate response operations. FEMA also relied on 
        mission assignments and the Surge Capacity Force to supplement 
        our existing disaster workforce, pulling resources and 
        personnel from across Federal Government departments and 
        agencies.
  <bullet> Survivable and Redundant Communications.--Following 
        Hurricane Maria, Puerto Rico's communications infrastructure 
        was so devastated that assessing the needs and the capability 
        of the Commonwealth and its municipalities proved extremely 
        difficult. FEMA provided satellite phones to each of the 78 
        municipalities in Puerto Rico to gather information on 
        municipality impacts and critical needs. However, this short-
        term solution had limited success in addressing overall 
        communications challenges. The private sector played a key role 
        in restoring communications, including cell towers and allowing 
        open roaming services, and remains a critical partner for 
        restoration of communications.
  <bullet> Responding During Long-Term Infrastructure Outages.--Too 
        often, we assume the loss of power, communications, and water 
        infrastructure following disasters will be limited in duration. 
        The extreme degradation of critical infrastructure in Puerto 
        Rico and the U.S. Virgin Islands created significant 
        challenges. We need to be prepared for long-term outages of 
        these critical systems, while our SLTT and private-sector 
        partners work to mitigate future damages to these vital 
        systems.
  <bullet> Disaster Sheltering and Housing.--Providing housing for 
        survivors following the 2017 and 2018 disasters was a 
        challenge, especially when a disaster devastates a community 
        that already had limited affordable housing. Regardless of the 
        readiness of a SLTT government, when dealing with the 
        displacement of tens of thousands of survivors from their 
        homes, there is no easy or one-size-fits-all solution. FEMA has 
        authorities to provide sheltering options including 
        Transitional Sheltering Assistance (TSA) that provides 
        assistance to SLTT governments for survivors to stay in hotel 
        rooms, as well as a program that provides for basic and 
        temporary home repairs to make a home safe to live in while the 
        survivor makes arrangements for more permanent repairs.
    Any sheltering option is, by design, a temporary and short-term 
        solution, designed to be a bridge to middle- and longer-term 
        solutions. We have other programs and authorities that assist 
        with housing, including rental assistance, repair assistance, 
        multi-family lease and repair, and manufactured housing units. 
        With all of these options, we partner with our SLTT 
        stakeholders to identify the sheltering and housing solutions 
        that make the most sense for each State, each event, each 
        community, and each survivor.
    States have a much better familiarity with the needs of their 
        residents, the local laws and ordinances that can impact some 
        of the FEMA housing options, and are better situated to design 
        and administer to the survivors in their communities. 
        Regardless of the tools we are able to provide, however, 
        permanent housing solutions and full recovery needs are best 
        addressed by insurance. FEMA assistance programs are not 
        designed to return a survivor's home to its pre-disaster 
        condition. As we know, though, there are too many people in our 
        Nation that are underinsured or not insured at all.
                    fema's 2018-2022 strategic plan
    Incorporating the knowledge gained from the 2017 disaster season, 
FEMA's strategic plan builds on existing best practices and identifies 
new initiatives geared toward achieving three overarching goals. The 
three main goals of FEMA's Strategic Plan are to: (1) Build a Culture 
of Preparedness; (2) Ready the Nation for Catastrophic Disasters; and 
(3) Reduce the Complexity of FEMA.
Build a Culture of Preparedness
    FEMA is just one part of the team. During a disaster, citizens in 
the impacted communities also become the first responders. Do they know 
how to shut off water and gas? Do they check on their neighbors? Do 
they know CPR? Are they financially prepared to deal with the impacts 
of disasters in their communities, including having the right insurance 
for the specific threats they face, including flooding, earthquakes, 
and tornadoes? Do they have some modest level of savings to allow them 
to miss a few days of work without ending up in financial ruin? We need 
to empower individuals to help speed the response and recovery efforts.
    Developing resilient communities before an incident occurs reduces 
loss of life and economic disruption. When communities are impacted, 
they should ensure that they rebuild infrastructure better, tougher, 
and stronger to protect taxpayer investment and promote economic 
stability. FEMA is exploring ways to encourage additional investments 
in mitigation that reduce risk, including pre-disaster mitigation, to 
help reduce disaster costs at all levels.
    While we will never be able to eliminate all risk, we must mitigate 
the known risks as much as possible. FEMA will work with communities 
and insurers to close the insurance gap across the Nation. Managing 
risk through insurance, including the National Flood Insurance Program, 
helps communities to recover faster following disasters and reduces 
overall costs for taxpayers.
Ready the Nation for Catastrophic Disasters
    As this past year has shown, communities must increase their 
capacity to respond to smaller-scale disasters on a local level. We 
continue to work with our SLTT partners to increase their capacities to 
respond to and recover from smaller-scale disasters so FEMA and its 
Federal partners can focus more on readiness and support for 
catastrophic events.
    No level of government can continue to plan, train, and exercise 
for what is easy. We need to prepare for catastrophic events that 
stress our capabilities. In 2017, FEMA announced our intent to embed 
FEMA staff within SLTT partner offices to help provide a continuous and 
more coordinated FEMA presence to improve customer service and provide 
targeted technical assistance to help build capacity and address 
capability gaps. The first FEMA Integration Team (FIT) was placed in 
North Carolina in 2018. Prior to Hurricane Florence, the North Carolina 
FIT developed an understanding of the State's capabilities, gaps, and 
processes, and helped to develop and share potential needs. Because of 
the team's proximity and co-location, the FIT began incident 
preparations for Hurricane Florence much sooner and with a better 
understanding of issues, prior to landfall. Currently, FEMA has FITs 
embedded in 22 States with more to follow.
    As part of FEMA's initiative to ready the Nation for catastrophic 
events, FEMA is emphasizing the stabilization of critical lifelines and 
coordination across critical infrastructure sectors. Lifelines provide 
indispensable services that enable the continuous operation of critical 
business and Government functions, and that would risk health and 
safety or National economic security if not promptly restored. 
Solutions to stabilize lifelines do not fit within a single construct 
(i.e. an Emergency Support Function [ESF] or Recovery Support Function 
[RSF]), so we must provide cross-sector coordination to effectively 
stabilize critical lifelines. For example, the critical lifeline of 
food, water, and sheltering crosses many agencies, community partners, 
and ESFs, but must be addressed holistically in order to support a 
community's recovery. Focusing on these lifelines and related impacts 
will allow decision makers to move rapidly and will allow better 
utilization of limited resources to target toward the restoration of 
critical functions.
Reduce the Complexity of FEMA
    FEMA is committed to simplifying our processes and putting 
survivors first. We are looking at ways we can streamline our 
assistance programs to make FEMA's programs as clear and easy as 
possible for survivors and grantees to navigate.
    Reducing administrative and bureaucratic burdens will allow 
survivors and communities to receive Federal assistance quicker. 
Throughout the Federal Government, there are a number of programs that 
offer assistance to survivors. We are working with our partners to 
improve some of these activities to ensure survivors can better 
navigate these various programs. For example, FEMA is consolidating and 
updating all FEMA Individual Assistance (IA) policies and program 
guidance to simplify and streamline information about IA programs.
    FEMA employees must have transparency and clarity in the processes 
and resources they deal with. We cannot implement any of these 
priorities and initiatives without ensuring that they meet the needs of 
our survivors. We also need to make sure that we continue to capture 
lessons learned by FEMA and our partners to meet the needs of survivors 
with disabilities and others with access and functional needs.
    These are the priorities and vision of this agency. As we examine 
and further develop these initiatives, we will find that some can be 
accomplished by existing authorities Congress has already provided to 
us. There will be some challenges that cannot be solved by 
administrative action alone. As we identify these challenges, we will 
work with this committee and the rest of Congress to ensure we move 
forward in close partnership. I look forward to working with you on our 
shared goal to help people before, during, and after disasters.
     preparing for the 2019 hurricane season & on-going initiatives
    The 2017 Hurricane Season FEMA After-Action Report (AAR) outlined 
18 key findings across 5 focus areas, and it made recommendations for 
improvement moving forward. In 2018, Congress took significant steps to 
help FEMA pursue many of the changes recommended by the AAR when it 
passed transformational legislation in the Disaster Recovery Reform 
Act. The law represents the most comprehensive emergency management 
reform since the Post-Katrina Emergency Management Reform Act, and will 
meaningfully assist the Nation in reducing risks and increasing 
preparedness.
    The 2017 AAR also discussed the need to improve FEMA's ability to 
respond to catastrophic events while simultaneously building partner 
response capacity. Eighty percent of all declared disasters are small 
(meaning total obligations of $41 million or less). During the past 15 
years, FEMA has spent more than $1.8 billion on administrative costs 
for these small disasters--more than $120 million per year. FEMA's 
focus needs to be building the capabilities of our partners to manage 
smaller disasters so that the agency can improve our capabilities to 
respond to the larger and potentially catastrophic disasters our Nation 
faces.
    As we continue with recovery operations, FEMA is also focused on 
making sure we are as prepared as possible for this year's hurricane 
season. Combining the lessons learned from 2017, as well as the goals 
outlined in FEMA's Strategic Plan, the agency took immediate actions to 
prepare for the 2018 hurricane season. These steps will continue to 
prepare the agency for the 2019 hurricane season. These steps included:
  <bullet> Updating Plans.--FEMA has updated hurricane plans, annexes, 
        and procedures for many States and territories.
  <bullet> Maturing the National Response Framework (NRF).--FEMA 
        updated the NRF to incorporate community lifelines construct, 
        enhanced coordination with the private sector, and other best 
        practices and lessons learned.
  <bullet> Staff Movement Prior to & During Responses.--To improve 
        staffing for incidents, FEMA created Standard Operating 
        Procedures for a Personnel Mobilization Center (PMC), a central 
        location for equipping and training staff prior to disaster 
        deployments. To support the PMC, FEMA is also establishing 
        three permanent PMC core teams in its Field Operations 
        Directorate and training regional personnel on PMC operations.
  <bullet> Logistical Improvements.--FEMA made improvements in 
        logistics operations in preparation for the 2018 and 2019 
        hurricane seasons, including increasing disaster stocks and 
        supplies for the Pacific and Caribbean such as meals, water, 
        tarps, sheeting, cots, blankets, infant and toddler kits, 
        durable medical kits, consumable medical kits, and generators. 
        FEMA is also adding 352 new emergency generators to the 
        inventory in the coming months.
  <bullet> National-Level Contracts.--FEMA updated high-priority 
        National-level contracts, including the National Evacuation 
        Contract, Caribbean Transportation Contract, and National 
        Ambulance Contract.
  <bullet> Disaster Communications.--FEMA Disaster Emergency 
        Communications is refining tactical and long-haul 
        communications, from land mobile radios to satellite 
        communications. We're working to update emergency 
        communications support plans for each State, incorporating 
        best-practices and lessons learned across both the Government 
        and private sector based on each State's unique geographic, 
        infrastructure, and operational requirements or risks to 
        provide the Nation with an accessible, modern, reliable, and 
        resilient communications infrastructure.
    FEMA installed new FEMA National Radio System (FNARS) high-power 
        stations on Guam, Saipan, and American Samoa, and refreshed the 
        FNARS high frequency antenna farm at the FEMA Alternate 
        Operations Center to increase resiliency and survivability. 
        FEMA added more than 200 agencies to the list of State, local, 
        territorial, and Tribal authorities with access and ability to 
        use the Integrated Public Alert and Warning System (IPAWS) to 
        send emergency alerts and warnings to the public. We also 
        provided technical alert and warning assistance and support to 
        multiple State and local agencies including for wildfires in 
        California and for hurricanes and volcano in Hawaii, and live 
        public alert tests for the Navaho Nation.
    FEMA assisted Puerto Rico Emergency Management Bureau to restore 
        the territory's capability to send alerts and warnings by 
        installing and training staff to use an IPAWS compatible alert 
        origination system, conducting two live tests of the system 
        distributing test messages to the public through radio, 
        television, and cellular phone, and installing a new IPAWS 
        compatible siren system at the Guajataca Dam to warn people 
        below the dam of flood emergencies.
  <bullet> Housing Inspection Process.--FEMA will modernize housing 
        inspections to improve the survivor experience and streamline 
        the process to lessen the inspection burden for the disaster 
        survivor and better leverage similar efforts across the Federal 
        Government.
  <bullet> Exercises and Training.--In May 2018, FEMA sponsored 
        National-Level Exercise (NLE) 2018, based on a scenario of a 
        Category 4 hurricane on the mid-Atlantic coast. This exercise 
        brought together more than 12,000 individuals across the whole 
        community to examine the ability of all levels of Government, 
        private industry, and non-Governmental organizations while 
        testing and validating plans and initial lessons learned from 
        last year. FEMA also coordinated with the Commonwealth of 
        Puerto Rico on a series of workshops, seminars, and functional 
        exercises in June to prepare for this hurricane season.
    On October 5, 2018, the President signed the Disaster Recovery 
Reform Act into law. Key provisions in this law enable greater 
investment in pre-disaster mitigation; support efforts to reduce risks 
from future disasters after fires; increase State capacity to manage 
disaster recovery; and provide greater flexibility to survivors with 
disabilities. FEMA looks forward to continuing to work with our 
Federal, SLTT, and private-sector partners as we continue to implement 
this legislation.
                               conclusion
    The 2017 and 2018 hurricane and wildfire season continue to shape 
the future of FEMA and emergency management. By utilizing best 
practices, adopting new response concepts, and training all emergency 
management partners to the same standards, we can achieve the goals of 
building a culture of preparedness and readying the Nation for 
catastrophic disasters. Thank you for the opportunity to testify, and I 
look forward to any questions you may have.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Currie to summarize his statement for 5 
minutes.

 STATEMENT OF CHRIS P. CURRIE, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Chairman Thompson, Mr. Ranking 
Member, other Members of the committee. It is an honor to be 
here today to talk about GAO's past work on disaster 
preparedness, response, and also recovery.
    In the years since Hurricane Katrina, GAO has evaluated 
almost every aspect of FEMA's mission. What we found is that 
there has been major progress in a number of areas, but there 
continue to be major challenges in a number of other areas. 
Unfortunately, the challenges we face as a country and the risk 
we face aren't going to make those challenges get any easier 
for the agency.
    The 2017 disasters were a historic year in terms of cost 
and damage and impact on our citizens. But I think it would be 
a big mistake to look at that as a one-time event. Whether it 
is 500-year floods, tornadoes like we have never seen before, 
and huge wildfires, these events are happening every year. It 
is important that we figure out how to address these things.
    I also think it is important to say that--and not forget 
that it is important that we are preparing to respond and 
recover from acts of terrorism too, which are even more 
unpredictable than natural disasters too.
    On top of that, State and local expectations are also 
increasing for Federal support as these disasters overwhelm 
their capacity. We have found, since 2005, we have spent, as a 
Federal Government, approaching half a trillion dollars on 
disaster response and recovery in this country. That is just 
not a sustainable path moving forward, given our Federal 
deficit and budget issues.
    Now, in terms of response, it is the first thing I would 
like to talk about. The 2017 disasters, the work we have done 
in that area shows a positive story, but also a number of 
lessons learned, and some not-so-good news as well.
    In Texas and Florida and California, what we saw was that 
years of preparedness and relationship building really helped 
to address some of the massive challenges we saw in Hurricane 
Harvey, Irma, and the California wildfires. It helped us to 
quickly evacuate people in California. It helped us to restore 
power to 6 million people quickly in Florida. Helped us to 
evacuate hundreds of flood survivors in south Texas too. That 
is the good news, not that there weren't major challenges.
    In Hurricane Maria, although FEMA provided historic levels 
of support, what we saw is that everybody was overwhelmed in 
that case, both Puerto Rico and FEMA. FEMA has already provided 
almost $15 billion in support for Puerto Rico, but it is going 
to provide many billion dollars more. So it is important also 
to focus on the recovery aspects.
    Regarding the work force at FEMA, 2017 also highlighted and 
exposed many challenges that we have identified over the years 
and exacerbated those challenges. Lack of training, retention 
problems really caused problems when FEMA was stretched thin. 
So I continue to be concerned about their ability to handle a 
really major catastrophic incident, given what Mr. Gaynor said 
about currently managing hundreds of active disasters.
    On recovery, Members of this committee that have had a 
disaster in their jurisdiction know that these recovery 
programs can be complex and, frankly, very frustrating for 
State and local governments to deal with. We continue to see 
challenges in the recovery area. We just issued a report last 
week that showed that FEMA could do a much better job of 
helping elderly individuals and those with disabilities to get 
assistance. In Puerto Rico, we continue to see confusion and 
challenges with implementing public assistance grants. Lack of 
guidance and procedures on how the program is being implemented 
is causing a lot of problems, which is delaying longer-term 
recovery projects from being implemented and not as quick as I 
think everybody, including FEMA, would want to see them 
implemented.
    To their credit, I think FEMA has been very careful, 
particularly in Puerto Rico, with the concerns about fraud, 
waste, and abuse, and has implemented additional controls to 
try to avoid those situations too. That is part of what is 
going on there as well.
    Last, I would just like to talk about where we go from here 
moving forward. Mr. Guest--Congressman Guest mentioned--talked 
about resilience a lot. I think GAO and many others have proven 
and shown that investments and resilience work, they buy down 
risk over the long haul. You know, what we found over the years 
is that the Federal Government has invested only in resilience 
typically after a disaster strikes. What that means is that it 
only--the monies for that only typically go to disaster 
locations too, which means that Mother Nature really dictates 
where we spend our disaster resilience funding.
    We have tried to move that needle to be a little bit 
different and recommended that FEMA develop a disaster 
mitigation investment strategy so we can know where best to 
invest those dollars when we get them. Also, Congress has moved 
that needle forward too by--with the DRRA, as was mentioned, in 
providing additional funding before a disaster strikes so we 
can make smarter investment decisions as well.
    Thank you very much. That concludes my statement, and I 
look forward to questions.
    [The prepared statement of Mr. Currie follows:]
                 Prepared Statement of Chris P. Currie
                             June 12, 2019
                             gao highlights
    Highlights of GAO-19-594T, a testimony before the Committee on 
Homeland Security, House of Representatives.
Why GAO Did This Study
    Recent hurricanes, wildfires, and flooding have highlighted the 
challenges the Federal Government faces in responding effectively to 
natural disasters. The 2017 and 2018 hurricanes and wildfires affected 
millions of individuals and caused billions of dollars in damages. In 
March 2019, the Midwest experienced historic flooding that affected 
millions of acres of agriculture and damaged significant 
infrastructure. Since 2005, Federal funding for disaster assistance is 
at least $450 billion. Increasing reliance on Federal help to address 
natural disasters is a key source of Federal fiscal exposure, 
particularly as certain extreme weather events become more frequent and 
intense due to climate change.
    This statement discusses, among other things, FEMA's progress and 
challenges related to disaster resilience, response, recovery, and 
workforce management. This statement is based on GAO reports issued 
from March 2011 through May 2019, and also includes preliminary 
observations from on-going GAO reviews of FEMA operations. For on-going 
work, GAO reviewed Federal laws; analyzed documents; interviewed agency 
officials; and visited disaster damaged areas in California, Florida, 
South Carolina, North Carolina, Puerto Rico, Texas, and the U.S. Virgin 
Islands, where GAO also interviewed FEMA and local officials.
What GAO Recommends
    GAO has made numerous recommendations in its prior reports to FEMA 
designed to address the challenges discussed in this statement. As of 
May 2019, FEMA has addressed about half of these recommendations and 
GAO is monitoring FEMA's on-going efforts.
   emergency management.--fema has made progress, but challenges and 
       future risks highlight imperative for further improvements
What GAO Found
    GAO's issued and on-going work identified progress and challenges 
in the Federal Emergency Management Agency's (FEMA) disaster 
resilience, response, recovery, and workforce management efforts, as 
discussed below.
    Disaster Resilience.--GAO found that Federal and local efforts to 
improve resilience can reduce the effects and costs of future 
disasters. FEMA has made progress in this area, but in July 2015, GAO 
found that States and localities faced challenges using Federal funds 
to maximize resilient rebuilding following a disaster. GAO recommended 
that the Mitigation Framework Leadership Group--an interagency body 
chaired by FEMA--create a National strategy to better plan for and 
invest in disaster resilience. FEMA is working to address this 
recommendation and plans to publish the strategy by July 2019.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Response and Recovery.--In September 2018, GAO reported that the 
response to the 2017 disasters in Texas, Florida, and California showed 
progress since Hurricane Katrina in 2005. Specifically, FEMA and State 
officials' pre-existing relationships and exercises aided the response 
and helped address various challenges. However, GAO and FEMA identified 
challenges that slowed and complicated FEMA's response to Hurricane 
Maria, particularly in Puerto Rico. GAO's issued and on-going work also 
identified challenges in implementing FEMA Public Assistance grants. 
For example, FEMA and Puerto Rico officials identified challenges with 
Public Assistance policies and guidance that have complicated and 
slowed the recovery. GAO did not make recommendations, but continues to 
evaluate recovery efforts and will report its findings later this year.
    FEMA Workforce Management.--GAO has previously reported on long-
standing workforce management challenges, such as ensuring an 
adequately staffed and trained workforce. For example, GAO reported in 
September 2018 that the 2017 disasters overwhelmed FEMA's workforce and 
a lack of trained personnel with program expertise led to complications 
in its response efforts, particularly after Hurricane Maria. While FEMA 
has taken actions to address several of GAO's workforce management-
related recommendations since 2016, a number of recommendations remain 
open as the 2019 hurricane season begins. Also, GAO is currently 
reviewing FEMA's workforce management efforts and lessons learned from 
the 2017 disasters and will report its findings early next year.
    Chairman Thompson, Ranking Member Rogers and Members of the 
committee: Thank you for the opportunity to discuss our work on the 
Federal Emergency Management Agency's (FEMA) disaster preparedness, 
response, and recovery operations. Recent hurricanes, wildfires, and 
other events have highlighted the challenges the Federal Government 
faces in responding effectively to natural disasters--both in terms of 
immediate response and long-term recovery efforts. According to FEMA's 
2017 after-action report, the 2017 hurricanes and wildfires 
collectively affected 47 million people, and Hurricanes Harvey, Irma, 
and Maria all rank among the top 5 costliest hurricanes on record.\1\ 
The 2018 hurricane season followed with Hurricanes Florence and 
Michael, causing nearly $50 billion of damage, according to the 
National Oceanic and Atmospheric Administration. Furthermore, the 
deadly and destructive wildfires continued into 2018, including the 
Camp Fire in northern California, which destroyed more than 18,500 
buildings and was the costliest and deadliest wildfire in the State's 
history.\2\ In March 2019, the Midwest experienced historic flooding 
that affected millions of acres of agriculture, numerous cities and 
towns, and caused wide-spread damage to public infrastructure. 
Collectively, these extreme weather events have stretched and strained 
Federal response and recovery efforts and staff.
---------------------------------------------------------------------------
    \1\ According to the 2017 Hurricane Season FEMA After-Action 
Report, the National Oceanic and Atmospheric Administration identified 
the 5 costliest hurricanes on record being Hurricane Katrina at $161 
billion, Hurricane Harvey at $125 billion, Hurricane Maria at $90 
billion, Hurricane Sandy at $71 billion, and Hurricane Irma at $50 
billion.
    \2\ NOAA, National Centers for Environmental Information (NCEI) 
U.S. Billion-Dollar Weather and Climate Disasters (2019). https://
www.ncdc.noaa.gov/billions/
---------------------------------------------------------------------------
    The rising number of natural disasters and increasing State, local, 
and Tribal reliance on Federal disaster assistance is a key source of 
Federal fiscal exposure--which can come from Federal responsibilities, 
programs, and activities, such as National flood insurance, that may 
legally commit or create the expectation for future spending.\3\ Since 
2005, Federal funding for disaster assistance is at least $450 
billion,\4\ most recently for catastrophic hurricanes, flooding, 
wildfires, and other losses in 2017 and 2018.\5\ Disaster costs are 
projected to increase as extreme weather events become more frequent 
and intense due to climate change--as observed and projected by the 
U.S. Global Change Research Program and the National Academies of 
Sciences, Engineering, and Medicine.\6\
---------------------------------------------------------------------------
    \3\ GAO, Fiscal Exposures: Improving Cost Recognition in the 
Federal Budget, GAO-14-28 (Washington, DC: Oct. 29, 2013).
    \4\ This total includes, for fiscal years 2005 through 2014, $278 
billion that GAO found that the Federal Government had obligated for 
disaster assistance. See GAO, Federal Disaster Assistance: Federal 
Departments and Agencies Obligated at Least $277.6 Billion During 
Fiscal Years 2005 through 2014, GAO-16-797 (Washington, DC: Sept. 22, 
2016). It also includes, for fiscal years 2015 through 2018, $124 
billion in select supplemental appropriations to Federal agencies for 
disaster assistance, approximately $7 billion in annual appropriations 
to the Disaster Relief Fund (a total of $28 billion for the 4-year 
period). For fiscal years 2015 through 2018, it does not include other 
annual appropriations to Federal agencies for disaster assistance. 
Last, on June 6, 2019, the Additional Supplemental Appropriations for 
Disaster Relief Act of 2019 was signed into law, which provides 
approximately $19.1 billion for disaster assistance. H.R. 2157, 116th 
Cong. (2019) (enacted).
    \5\ GAO, High-Risk Series: Substantial Efforts Needed to Achieve 
Greater Progress on High-Risk Areas, GAO-19-157SP (Washington, DC: Mar. 
6, 2019).
    \6\ GAO, Climate Change: Information on Potential Economic Effects 
Could Help Guide Federal Efforts to Reduce Fiscal Exposure, GAO-17-720 
(Washington, DC: Sept. 28, 2017). Managing fiscal exposure due to 
climate change has been on our high-risk list since 2013, in part, 
because of concerns about the increasing costs of disaster response and 
recovery efforts. See GAO-19-157SP; also http://www.gao.gov/highrisk/
limiting_federal_government_fiscal_exposure/why_did_study.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    One way to save lives, reduce future risk to people and property, 
and minimize Federal fiscal exposure from natural hazards is to enhance 
disaster resilience. For example, in September 2018, we reported that 
elevated homes and strengthened building codes in Texas and Florida 
prevented greater damages during the 2017 hurricane season.\7\ 
Furthermore, in October 2018, the DRRA was enacted, which focuses on 
improving preparedness, mitigation, response and recovery.\8\ 
Specifically, the DRRA contains provisions that address many areas of 
emergency management, including wildfire mitigation, public assistance, 
and individual assistance, among others.
---------------------------------------------------------------------------
    \7\ GAO, 2017 Hurricanes and Wildfires: Initial Observations on the 
Federal Response and Key Recovery Challenges, GAO-18-472 (Washington, 
DC: Sept. 4, 2018).
    \8\ Pub. L. No. 115-254, div. D, 132 Stat. 3186, 3438-70 (2018).
---------------------------------------------------------------------------
    My testimony today discusses our prior and on-going work on FEMA's 
progress and continued challenges in 4 key areas: (1) Resilience and 
preparedness, (2) response, (3) recovery, and (4) selected FEMA 
management issues. My statement today is based on products we issued 
from March 2011 through May 2019, along with preliminary observations 
from our on-going reviews on Federal disaster preparedness, response, 
recovery, and FEMA management issues for a number of Congressional 
committees and subcommittees.\9\ To perform our prior work, we reviewed 
Federal laws related to emergency management, analyzed FEMA 
documentation, and interviewed relevant agency officials. More detailed 
information on the scope and methodology for our prior work can be 
found in each of the issued reports listed in Enclosure I. To develop 
our preliminary observations from on-going work, we reviewed Federal 
laws such as the DRRA, and analyzed FEMA documents, including policies, 
procedures, and guidance specific to emergency management. Moreover, we 
conducted site visits to areas throughout the Nation that were affected 
by disasters in 2017, 2018, and 2019, including California, Florida, 
North Carolina, South Carolina, Puerto Rico, Texas, and the U.S. Virgin 
Islands (USVI). During these visits, we met with Federal, State, 
territorial, and local government and emergency management officials to 
discuss disaster response and recovery efforts for Hurricanes Harvey, 
Irma, and Maria in 2017, the California wildfires, and Hurricanes 
Florence and Michael in 2018. See the list of our on-going reviews in 
Enclosure II.
---------------------------------------------------------------------------
    \9\ Our on-going work is for the House Committee on Homeland 
Security, House Committee on Oversight and Government Reform, the 
Senate Homeland Security and Governmental Affairs Committee, and 7 
additional committees and subcommittees, and 4 individual members.
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
      fema has taken steps to strengthen disaster resilience and 
    preparedness, but additional steps are needed to fully address 
                          remaining challenges
    We have previously reported on various aspects of National 
preparedness, including examining the extent to which FEMA programs 
encourage disaster resilience and identifying gaps in Federal 
preparedness capabilities. We have found that when Federal, State, and 
local efforts aligned to focus on improving disaster resilience and 
preparedness, there was a noticeable reduction in the effects of the 
disaster. However, our prior and on-going work also highlight 
opportunities to improve disaster resilience and preparedness Nation-
wide.\10\
---------------------------------------------------------------------------
    \10\ For example, see: GAO, Hurricane Sandy: An Investment Strategy 
Could Help the Federal Government Enhance National Resilience for 
Future Disasters, GAO-15-515 (Washington, DC: July 30, 2015); Emergency 
Preparedness: Opportunities Exist to Strengthen Interagency Assessments 
and Accountability for Closing Capability Gaps, GAO-15-20 (Washington, 
DC: Dec. 4, 2014); and GAO-18-472.
---------------------------------------------------------------------------
Disaster Resilience
    Hazard mitigation is a key step in building resilience and 
preparedness against future disasters.\11\ In July 2015, we found that 
States and localities experienced challenges when trying to use Federal 
funds to maximize resilient rebuilding in the wake of a disaster.\12\ 
In particular, they had difficulty navigating multiple Federal grant 
programs and applying Federal resources toward their most salient risks 
because of the fragmented and reactionary nature of the funding.\13\ In 
our 2015 report, we recommended that the Mitigation Framework 
Leadership group--an interagency body chaired by FEMA--create a 
National Mitigation Investment Strategy to help Federal, State, and 
local officials plan for and prioritize disaster resilience. As of May 
2019, according to FEMA officials, the Mitigation Framework Leadership 
group is on track to address the recommendation, and they expect the 
strategy to be published by July 2019.
---------------------------------------------------------------------------
    \11\ FEMA's 2018-2022 Strategic Plan States that the most 
successful way to achieve disaster resilience is through preparedness, 
including mitigation.
    \12\ GAO-15-515.
    \13\ GAO-15-515. A provision of DRRA also created a grant in the 
Disaster Relief Fund for pre-disaster hazard mitigation. DRRA 
authorized the President to set aside 6 percent of the total grant 
awards for the Individual Assistance and Public Assistance programs 
(each discussed later in this statement) for each declared disaster to 
be used for pre-disaster hazard mitigation. From May 20 through July 
15, 2019, FEMA is collecting public comment on the implementation of 
this provision through a program it has named the Building Resilient 
Infrastructure and Communities grant. 42 U.S.C.  5133(i).
---------------------------------------------------------------------------
    In September 2017, we reported that the methods used to estimate 
the potential economic effects of climate change in the United States--
using linked climate science and economics models--could inform 
decision makers about significant potential damages in different U.S. 
sectors or regions, despite the limitations.\14\ For example, for 2020 
through 2039, one study estimated between $4 billion and $6 billion in 
annual coastal property damages from sea-level rise and more frequent 
and intense storms. We found that the Federal Government has not 
undertaken strategic Government-wide planning on the potential economic 
effects of climate change to identify significant risks and craft 
appropriate Federal responses. As a result, we recommended the 
Executive Office of the President, among others, should use information 
on the potential economic effects of climate change to help identify 
significant climate risks facing the Federal Government and craft 
appropriate Federal responses, such as establishing a strategy to 
identify, prioritize, and guide Federal investments to enhance 
resilience against future disasters; however, as of June 2019, 
officials have not taken action to address this recommendation.
---------------------------------------------------------------------------
    \14\ GAO-17-720.
---------------------------------------------------------------------------
    In November 2017, we found that FEMA had taken some actions to 
better promote hazard mitigation as part of its Public Assistance grant 
program.\15\ However, we also reported that more consistent planning 
for, and more specific performance measures related to, hazard 
mitigation could help ensure that mitigation is incorporated into 
recovery efforts.\16\ We recommended, among other things, that FEMA: 
(1) Standardize planning efforts for hazard mitigation after a disaster 
and (2) develop performance measures for the Public Assistance grant 
program to better align with FEMA's strategic goal for hazard 
mitigation in the recovery process. FEMA concurred with our 
recommendations, and as of March 2019, officials have reported taking 
steps to increase coordination across its Public Assistance, 
mitigation, and field operations to ensure hazard mitigation efforts 
are standardized and integrated into the recovery process. 
Additionally, FEMA officials reported taking actions to begin 
developing disaster-specific mitigation performance measures. However, 
FEMA has yet to finalize these actions, such as by proposing 
performance measures to FEMA senior leadership. As such, we are 
continuing to monitor FEMA's efforts to address these recommendations.
---------------------------------------------------------------------------
    \15\ In addition to rebuilding and restoring infrastructure to its 
pre-disaster state, the Public Assistance program, under Section 406 of 
the Stafford Act, funds mitigation measures that will reduce future 
risk to the infrastructure in conjunction with the repair of disaster-
damaged facilities. 42 U.S.C.  5172.
    \16\ GAO, Disaster Assistance: Opportunities to Enhance 
Implementation of the Redesigned Public Assistance Grant Program, GAO-
18-30 (Washington, DC: Nov. 8, 2017).
---------------------------------------------------------------------------
Disaster Preparedness
    In March 2011, we reported that FEMA had not completed a 
comprehensive and measurable National preparedness assessment of 
capability gaps--for example the amount of resources required to save 
lives, protect property and the environment, and meet basic human needs 
after an incident has occurred.\17\ Developing such an assessment would 
help FEMA to identify what capability gaps exist and what level of 
resources are needed to close such gaps. Accordingly, we suggested that 
FEMA complete a National preparedness assessment to evaluate capability 
requirements and gaps at each level of Government to enable FEMA to 
prioritize grant funding.\18\ As of December 2018, FEMA had efforts 
under way to assess urban area, State, territory, and Tribal 
preparedness capabilities to inform the prioritization of grant 
funding; however, the agency had not yet completed a National 
preparedness assessment with clear, objective, and quantifiable 
capability requirements against which to assess preparedness. We are 
continuing to monitor FEMA's efforts to complete such an assessment.
---------------------------------------------------------------------------
    \17\ GAO, Opportunities to Reduce Potential Duplication in 
Government Programs Save Tax Dollars and Enhance Revenue, GAO-11-318SP 
(Washington, DC: Mar. 1, 2011).
    \18\ GAO-11-318SP.
---------------------------------------------------------------------------
    Furthermore, in March 2015, we reviewed selected States' approaches 
to budgeting for disaster costs to help inform Congressional 
consideration of the balance between Federal and State roles in funding 
disaster assistance. Specifically, we reported that none of the 10 
States in our review maintained reserves dedicated solely for future 
disasters, and some State officials reported that they could cover 
disaster costs without dedicated disaster reserves because they 
generally relied on the Federal Government to fund most of the costs 
associated with disaster response and recovery.\19\
---------------------------------------------------------------------------
    \19\ GAO, Budgeting for Disasters: Approaches to Budgeting for 
Disasters in Selected States, GAO-15-424 (Washington, DC: Mar. 26, 
2015). The 10 States in our review were Alaska, California, Florida, 
Indiana, Missouri, New York, North Dakota, Oklahoma, Vermont, and West 
Virginia.
---------------------------------------------------------------------------
    In response to the 2017 disasters, we also have on-going work to 
review National preparedness capabilities to assist communities in 
responding to and recovering from disasters. Based on our preliminary 
observations, some States and localities we interviewed reported that 
while they are prepared to deal with immediate response issues in the 
aftermath of a disaster, gaps exist in their capacity to support 
longer-term recovery. One reason for this, according to these State and 
local officials, is because Federal preparedness grant funds are 
largely dedicated to maintaining response capabilities and sustaining 
personnel costs for local emergency management officials. While these 
preparedness grants fund critical elements of the National preparedness 
system, there are some limitations to using them. Specifically, some 
State and local officials told us that the preparedness grant 
activities are generally focused on terrorism issues rather than all-
hazards. In addition, they reported that the preparedness grants are 
generally spent on maintaining response capabilities rather than to 
enhance their capacity for disaster recovery--such as additional 
training and exercises. In addition to the State, territory, and urban 
region assessments that FEMA is conducting, FEMA is currently in the 
process of developing the first National Threat and Hazard 
Identification and Risk Assessment. This National assessment may help 
FEMA and policy makers better understand how to target Federal 
resources in a way that enhances the Nation's capacity to respond and 
recover from future catastrophic or sequential disasters. We are 
continuing to evaluate National preparedness efforts and plan to report 
on FEMA's Threat and Hazard Identification and Risk Assessment process 
in January 2020.
    fema's response to the 2017 disasters highlighted some areas of 
          progress, but also identified significant weaknesses
FEMA's Response to the 2017 Disasters
    In September 2018, we reported that the response to the 2017 
hurricanes and wildfires in Texas, Florida, and California showed 
progress made since the 2005 Federal response to Hurricane Katrina.\20\ 
We also found that FEMA coordinated closely with Texas, Florida, and 
California emergency management officials and other Federal, local, and 
volunteer emergency partners to implement various emergency 
preparedness actions prior to the 2017 disasters in each State, and to 
respond to these disasters. According to FEMA and State officials, 
these actions helped officials begin addressing a number of challenges 
they faced such as meeting the demand for a sufficient and adequately 
trained disaster workforce and complex issues related to removing 
debris in a timely manner after the hurricanes and wildfires.
---------------------------------------------------------------------------
    \20\ GAO-18-472.
---------------------------------------------------------------------------
    In contrast, we also reported in September 2018, that in Puerto 
Rico and the USVI a variety of challenges--such as the far distance of 
the territories from the U.S. mainland, limited local preparedness for 
a major hurricane, and outdated local infrastructure--complicated 
response efforts to hurricanes Irma and Maria. Many of the challenges 
we identified are also described in FEMA's 2017 Hurricane Season FEMA 
After-Action Report, including:
  <bullet> the sequential and overlapping timing of the 3 hurricanes--
        with Maria being the last of the 3--caused staffing shortages 
        and required FEMA to shift staff to the territories that were 
        already deployed to other disasters;
  <bullet> the far distance of both territories from the U.S. mainland 
        complicated efforts to deploy Federal resources and personnel 
        quickly; and
  <bullet> the incapacitation of local response functions due to wide-
        spread devastation and loss of power and communications, and 
        limited preparedness by Puerto Rico and the USVI for a category 
        5 hurricane resulted in FEMA having to assume response 
        functions that territories would usually perform themselves.
    We also reported that FEMA's 2017 Hurricane Season FEMA After-
Action Report noted that FEMA could have better leveraged information 
from preparedness exercises in the Caribbean, including a 2011 exercise 
after-action report for Puerto Rico which indicated that the territory 
would require extensive Federal support during a large-scale disaster 
in moving commodities from the mainland to the territory and to 
distribution points throughout.
    In our September 2018 report, we also found that FEMA's efforts in 
Puerto Rico after Hurricane Maria were the largest and longest single 
response in the agency's history. According to FEMA, the agency's 
response included, among other things, bringing in approximately $1 
billion in food and supplies; and distributing food, commodities, and 
medicine via approximately 1,400 flights, which constituted the longest 
sustained air operations in U.S. disaster history.\21\ FEMA officials 
explained that the agency essentially served as the first responder in 
the early response efforts in Puerto Rico, and many of services FEMA 
provided--such as power restoration, debris removal, and commodity 
distribution--were typically provided by territorial or local 
governments.
---------------------------------------------------------------------------
    \21\ GAO-18-472.
---------------------------------------------------------------------------
    We also reported in September 2018, that in the USVI, recent 
disaster training and the pre-positioning of supplies due to the 
anticipated impact of Hurricane Irma facilitated the response efforts 
for Hurricane Maria, which made landfall less than 2 weeks later. 
According to FEMA's Federal coordinating officer, the lead Federal 
official in charge of response for the USVI, the Federal Government 
deployed assets, including urban search-and-rescue teams and medical 
assistance teams. In addition, due to the sequence of Hurricane Irma 
hitting the USVI immediately before Hurricane Maria, the Department of 
Defense (DOD) already had personnel and resources (i.e., ships) 
deployed to the area, which enabled DOD to respond to Hurricane Maria 
faster than it otherwise would have.
    Additional challenges we have reported on regarding response 
operations have included providing short-term housing and sheltering 
for disaster survivors. The Department of Homeland Security's (DHS) 
2017 National Preparedness Report states that providing effective and 
affordable short-term housing for disaster survivors has been a long-
standing and continuing challenge.\22\ For example, following the 
California wildfires, local officials faced challenges identifying 
shelter for displaced survivors, in part due to a housing shortage that 
existed before the wildfires. Federal, State, and local officials 
formed housing task forces which facilitated a joint decision making 
approach to address these challenges.
---------------------------------------------------------------------------
    \22\ Department of Homeland Security (DHS), National Preparedness 
Report (Washington, DC: Aug. 28, 2017).
---------------------------------------------------------------------------
    While this approach has enabled the State to meet its most pressing 
short-term housing needs, according to FEMA officials, the State faces 
other challenges in the long term.\23\ For example, FEMA officials in 
the region covering California told us that because of the nature of 
damage following a wildfire and because of housing shortages in 
California, some of FEMA's forms of housing assistance have been less 
relevant in the wake of the California wildfires than for other 
disasters. We will continue to evaluate these and other challenges and 
plan to report in fall 2019.
---------------------------------------------------------------------------
    \23\ GAO-18-472.
---------------------------------------------------------------------------
    We also have on-going work to review efforts to provide mass care--
which includes sheltering, feeding, and providing emergency supplies--
following the 2017 hurricanes. Our preliminary observations indicate 
that during and immediately following the hurricanes, the number of 
people seeking public shelters outpaced the capacity. In Texas and 
Florida, emergency managers we spoke with described having 
unprecedented numbers of residents needing shelters but not always 
enough staff initially to operate the shelters. In Texas, Puerto Rico, 
and the USVI, Hurricanes Harvey, Irma, and Maria flooded or destroyed 
many buildings planned for use as shelters, according to emergency 
management and local Government officials in these areas. As a result, 
some remaining shelters were at maximum capacity. In the USVI, 
residents of some public housing units that had sustained significant 
damages sought help at the territory's Department of Human Services 
because there was no more space in the shelters, according to local 
Government officials. While they were turned away from the shelters, 
these families were able to take refuge in the lobby of the Department 
of Human Services building. We will continue to evaluate these and 
other challenges and plan to report in summer 2019.
FEMA Disaster Contracting
    In December 2018 \24\ and April 2019,\25\ we reported that, in 
response to Hurricanes Harvey, Irma, and Maria, as well as the 2017 
California wildfires, FEMA and other Federal partners relied heavily on 
advance contracts--which are established before a disaster to provide 
for life-sustaining goods and services such as food, water, and 
transportation typically needed immediately after a disaster--and post-
disaster contracts--which can be used for various goods and services, 
such as debris removal and installation of power transmission 
equipment.
---------------------------------------------------------------------------
    \24\ GAO, 2017 Disaster Contracting: Action Needed to Better Ensure 
More Effective Use and Management of Advance Contracts, GAO-19-93, 
(Washington, DC: Dec. 6, 2018).
    \25\ GAO, 2017 Disaster Contracting: Actions Needed to Improve the 
Use of Post-Disaster Contracts to Support Response and Recovery, GAO-
19-281, (Washington, DC: April 24, 2019). The post-disaster contracts 
discussed in this report may support both response and early recovery 
activities.
---------------------------------------------------------------------------
    FEMA is required to coordinate with States and localities and 
encourage them to establish their own advance contracts with 
vendors.\26\ In December 2018, we reported on inconsistencies we found 
in that coordination and in the information FEMA used to coordinate 
with States and localities on advance contracts. As a result of this 
and other challenges identified, we made 9 recommendations to FEMA, 
including that it update its strategy and guidance to clarify the use 
of advance contracts, improve the timeliness of its acquisition 
planning activities, revise its methodology for reporting disaster 
contracting actions to Congress, and provide more consistent guidance 
and information for contracting officers in coordinating with States 
and localities to establish advance contracts. FEMA concurred with all 
of these recommendations, and we are continuing to monitor its efforts 
to implement each recommendation.
---------------------------------------------------------------------------
    \26\ The Post-Katrina Emergency Management Reform Act of 2006 
(Post-Katrina Act) required FEMA to establish advance contracts Pub. L. 
No. 109-295,  691, 120 Stat. 1355 (codified at 6 U.S.C.  791).
---------------------------------------------------------------------------
    Furthermore, in April 2019, we reported on challenges that we found 
in the Federal Government's use of post-disaster contracts. These 
challenges included a lack of transparency about contract actions, 
challenges with requirements development, and with interagency 
coordination. In our report, we found that FEMA had begun taking some 
steps to address the consistency of post-disaster contract requirements 
with contracting officers, but that inaccurate or untimely estimates in 
the contracts we reviewed sometimes resulted in delays meeting the 
needs of survivors. As a result of our findings in this report, we made 
10 recommendations to FEMA and other Federal agencies that use these 
post-disaster contracts related to improving the management of such 
contracts. FEMA and other agency officials concurred with 9 of the 
recommendations and have reported taking actions to begin implementing 
them.\27\ We will continue to monitor FEMA's progress in fully 
addressing these recommendations.
---------------------------------------------------------------------------
    \27\ DHS did not concur with our recommendation that DHS reopen the 
National interest action codes used to track data on post-disaster 
contracts involved in responding to the 2017 and 2018 hurricanes. These 
codes can provide Government-wide insight into response and recovery 
efforts; however, DHS closed the codes for Hurricanes Harvey and Irma 
less than a year after the hurricanes hit. In contrast, the codes for 
prior hurricanes were open for at least 5 years, with the code for 
Hurricane Katrina remaining open for 13 years. We continue to believe 
DHS should implement our recommendation, to the extent practicable, as 
discussed in the report.
---------------------------------------------------------------------------
fema provides long-term disaster recovery support, but state and local 
    officials cited continued challenges managing complex recovery 
                          assistance programs
    FEMA provides multiple forms of disaster recovery assistance after 
a major disaster has been declared, including Public Assistance and 
Individual Assistance.\28\ Through these grant programs, FEMA obligates 
billions of dollars to State, Tribal, territorial, and local 
governments, certain nonprofit organizations, and individuals that have 
suffered injury or damages from major disaster or emergency incidents, 
such as hurricanes, tornados, or wildfires. In September 2016, we 
reported that, from fiscal years 2005 through 2014, FEMA obligated 
almost $46 billion for the Public Assistance program and over $25 
billion for the Individual Assistance program.\29\ According to FEMA's 
May 2019 Disaster Relief Fund report, total projected obligations 
through fiscal year 2019 for the Public Assistance and Individual 
Assistance programs for just the 2017 hurricanes--Harvey, Irma, and 
Maria--are roughly $16 billion and $7 billion, respectively.\30\ Given 
the high cost of these programs, it is imperative that FEMA continue to 
make progress on the challenges we have identified in our prior and on-
going work regarding its recovery efforts.
---------------------------------------------------------------------------
    \28\ In addition, FEMA's Hazard Mitigation Grant Program provides 
additional funds to States to assist communities in implementing long-
term measures to help reduce the potential risk of future damages to 
facilities.
    \29\ GAO-16-797.
    \30\ DHS, FEMA, Disaster Relief Fund: Monthly Report as of April 
30, 2019 (May 8, 2019).
---------------------------------------------------------------------------
FEMA Public Assistance Grants for Disaster Recovery
    FEMA's Public Assistance program provides grants to State, Tribal, 
territorial, and local governments for debris removal; emergency 
protective measures; and the repair, replacement, or restoration of 
disaster-damaged, publicly-owned facilities. It is a complex and multi-
step program administered through a partnership among FEMA, the State, 
and local officials. Prior to implementing the Public Assistance 
program, FEMA determines a State, territorial, or Tribal government's 
eligibility for the program using the per capita damage indicator.\31\ 
In our September 2018 report on Federal response and recovery efforts 
for the 2017 hurricanes and wildfires, we reported on FEMA's 
implementation of the Public Assistance program, which has recently 
undergone significant changes as a result of Federal legislation and 
agency initiatives. Specifically, we reported on FEMA's use of its 
redesigned delivery model for providing grants under the Public 
Assistance program, as well as the alternative procedures for 
administering or receiving such grant funds that FEMA allows States, 
territories, and local governments to use for their recovery.\32\ Our 
prior and on-going work highlights both progress and challenges with 
FEMA's Public Assistance program, including the agency's methodology 
for determining program eligibility, the redesigned delivery model, and 
the program's alternative procedures.
---------------------------------------------------------------------------
    \31\ The per capita indicator is a set amount of funding, $1.50 per 
capita in fiscal year 2019, that is multiplied by the population of the 
jurisdiction (for example, State) for which the Governor is requesting 
a disaster declaration for Public Assistance, to arrive at a threshold 
amount, which is compared with the estimated amount of damage done to 
public structures.
    \32\ GAO-18-472. The Sandy Recovery Improvement Act of 2013 amended 
the Stafford Act by adding Section 428, which authorized FEMA to 
approve Public Assistance program projects under the alternative 
procedures provided by that section for any Presidentially-declared 
major disaster or emergency. This section further authorized FEMA to 
carry out the alternative procedures as a pilot program until FEMA 
promulgates regulations to implement this section. Pub. L. No. 113-2, 
div. B,  1102(2), 127 Stat. 39, amending Pub. L. No. 93-288, tit. IV, 
 428 (codified as amended at 42 U.S.C.  5189f).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Criteria for Determining Public Assistance Eligibility
    In September 2012, we found that FEMA primarily relied on a single 
criterion, the per capita damage indicator, to determine a 
jurisdiction's eligibility for Public Assistance funding.\33\ However, 
because FEMA's current per capita indicator, set at $1 in 1986, does 
not reflect the rise in: (1) Per capita personal income since it was 
created in 1986 or (2) inflation from 1986 to 1999, the indicator is 
artificially low. Our analysis of actual and projected obligations for 
508 disaster declarations in which Public Assistance was awarded during 
fiscal years 2004 through 2011 showed that fewer disasters would have 
met either the personal income-adjusted or the inflation-adjusted 
Public Assistance per capita indicators for the years in which the 
disaster was declared.\34\ Thus, had the indicator been adjusted 
annually since 1986 for personal income or inflation, fewer 
jurisdictions would have met the eligibility criteria that FEMA 
primarily used to determine whether Federal assistance should be 
provided, which would have likely resulted in fewer disaster 
declarations and lower Federal costs.
---------------------------------------------------------------------------
    \33\ GAO, Federal Disaster Assistance: Improved Criteria Needed to 
Assess a Jurisdiction's Capability to Respond and Recover on Its Own, 
GAO-12-838 (Washington, DC: Sept. 12, 2012).
    \34\ Specifically, our analysis showed that 44 percent of the 508 
disaster declarations would not have met the Public Assistance per 
capita indicator if adjusted for the change in per capita personal 
income since 1986. Similarly, our analysis showed that 25 percent of 
the 508 disaster declarations would not have met the Public Assistance 
per capita indicator if adjusted for inflation since 1986.
---------------------------------------------------------------------------
    We recommended, among other things, that FEMA develop and implement 
a methodology that that more comprehensively assesses a jurisdiction's 
capacity to respond to and recover from a disaster without Federal 
assistance, including fiscal capacity and consideration of response and 
recovery capabilities. DHS concurred with our recommendation and, in 
January 2016, FEMA was considering establishing a disaster deductible, 
which would have required a predetermined level of financial or other 
commitment before FEMA would have provided assistance under the Public 
Assistance program. In August 2018, FEMA told us that it was no longer 
pursuing its proposed disaster deductible due to concerns about the 
complexity of the proposal. FEMA is considering options that leverage 
similar approaches, but does not have an estimated completion date for 
implementation. In addition, the DRRA requires FEMA to initiate 
rulemaking to: (1) Update the factors considered when evaluating 
requests for major disaster declarations, including reviewing how FEMA 
estimates the cost of major disaster assistance, and (2) consider other 
impacts on the capacity of a jurisdiction to respond to disasters, by 
October 2020. Until FEMA implements a new methodology, the agency will 
not have an accurate assessment of a jurisdiction's capabilities and 
runs the risk of recommending that the President award Public 
Assistance to jurisdictions that have the capacity to respond and 
recover on their own.
            Redesigned Public Assistance Delivery Model
    Prior to our September 2018 report, we had previously reported on 
the Public Assistance program in November 2017. Specifically, we 
reported that FEMA redesigned the delivery model for providing grants 
under the Public Assistance program.\35\ As part of the redesign 
effort, FEMA developed a new, web-based case management system to 
address past challenges, such as difficulties in sharing grant 
documentation among FEMA, State, and local officials and tracking the 
status of Public Assistance projects. Both FEMA and State officials 
involved in testing of the redesigned delivery model stated that the 
new case management system's capabilities could lead to greater 
transparency and efficiencies in the program. However, we found that 
FEMA had not fully addressed two key information technology management 
controls that are necessary to ensure systems work effectively and meet 
user needs. We recommended, among other things, that FEMA: (1) 
Establish controls for tracking the development of system requirements, 
and (2) establish system testing criteria, roles and responsibilities, 
and the sequence and schedule for integration of other relevant 
systems. FEMA concurred with these recommendations and has fully 
implemented the first recommendation. Regarding the second 
recommendation, FEMA has not yet finalized its decision on whether to 
integrate its new case management system with its current grants 
management system. As of March 2019, we are awaiting a final decision 
from officials to determine whether their actions fully address our 
recommendation.
---------------------------------------------------------------------------
    \35\ GAO, Disaster Assistance: Opportunities to Enhance 
Implementation of the Redesigned Public Assistance Grant Program, GAO-
18-30 (Washington, DC: Nov. 8, 2017).
---------------------------------------------------------------------------
    FEMA's original intention was to implement the redesigned delivery 
model for all future disasters beginning in January 2018. However, in 
September 2017, FEMA expedited full implementation of the redesigned 
model shortly after Hurricane Harvey made landfall. In September 2018, 
we reported that local officials continued to experience challenges 
with using the new Public Assistance web-based, case management system 
following the 2017 disasters, such as not having sufficient guidance on 
how to use the new system and delays with FEMA's processing of their 
projects.\36\
---------------------------------------------------------------------------
    \36\ GAO-18-472.
---------------------------------------------------------------------------
            Public Assistance Alternative Procedures in the United 
                    States Virgin Islands and Puerto Rico
    In February 2019, we also reported that FEMA and the USVI were 
transitioning from using the standard Public Assistance program to 
using Public Assistance alternative procedures.\37\ FEMA and USVI 
officials stated that the alternative procedures will give the USVI 
more flexibility in determining when and how to fund projects and allow 
the territory to use any excess funds for cost-effective hazard 
mitigation measures, among other uses. Further, when using the 
alternative procedures, the Bipartisan Budget Act of 2018 allows FEMA, 
the USVI and Puerto Rico to repair and rebuild critical services 
infrastructure--such as medical and education facilities--so it meets 
industry standards without regard to pre-disaster condition (see Figure 
1).\38\
---------------------------------------------------------------------------
    \37\ Under the standard Public Assistance program, FEMA will fund 
the actual cost of a project. However, the Public Assistance 
alternative procedures allow recipient governments to choose to receive 
awards for permanent work projects based on fixed cost estimates, which 
can provide financial incentives for the timely and cost-effective 
completion of work. GAO, U.S. Virgin Islands Recovery: Status of FEMA 
Public Assistance Funding and Implementation, GAO-19-253 (Washington, 
DC: Feb. 25, 2019).
    \38\ The Bipartisan Budget Act of 2018 authorized FEMA, when using 
the Public Assistance alternative procedures, to provide assistance to 
fund the replacement or restoration of disaster-damaged infrastructure 
that provide critical services to industry standards without regard to 
pre-disaster condition. Pub. L. No. 115-123,  20601(1), 132 Stat. 64 
(2018). Critical services include public infrastructure in the 
following sectors: Power, water, sewer, wastewater treatment, 
communications, education, and emergency medical care. See 42 U.S.C.  
5172(a)(3)(B). Section 20601 applies only to assistance provided 
through the Public Assistance alternative procedures program for the 
duration of the recovery for the major disasters declared in Puerto 
Rico and the USVI following hurricanes Irma and Maria. Further, the 
Additional Supplemental Appropriations for Disaster Relief Act of 2019, 
which was signed into law on June 6, 2019, provides additional 
direction to FEMA in the implementation of section 20601. See H.R. 
2157, 116th Cong.  601 (2019) (enacted). For the purposes of our 
report, discussion of the Bipartisan Budget Act of 2018 refers 
specifically to section 20601.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Regarding the implementation of the Public Assistance program in 
Puerto Rico, in March 2019, we reported that Puerto Rico established a 
central recovery office to oversee Federal recovery funds and was 
developing an internal controls plan to help ensure better management 
and accountability of the funds.\39\ In the interim, FEMA instituted a 
manual process for reviewing each reimbursement request before 
providing Public Assistance funds to mitigate risk and help ensure 
financial accountability. We also reported that officials we 
interviewed from FEMA, Puerto Rico's central recovery office, and 
municipalities said they experienced initial challenges with the 
recovery process, including concerns about lack of experience and 
knowledge of the alternative procedures; concerns about missing, 
incomplete, or conflicting guidance on the alternative procedures; and 
concerns that municipalities had not been fully reimbursed for work 
already completed after the hurricanes, causing financial hardships in 
some municipalities.\40\ FEMA officials stated that the agency is 
taking actions to address reported recovery challenges, such as 
additional training for new FEMA employees and drafting supplemental 
guidance for the alternative procedures process. We continue to monitor 
FEMA's efforts in our on-going work.
---------------------------------------------------------------------------
    \39\ GAO, Puerto Rico Hurricanes: Status of FEMA Funding, 
Oversight, and Recovery Challenges, GAO-19-256 (Washington, DC: March 
14, 2019).
    \40\ GAO-19-256.
---------------------------------------------------------------------------
    As part of our on-going work, we are continuing to examine 
hurricane recovery efforts in the USVI and Puerto Rico. Our preliminary 
observations indicate that the USVI plans to take a cautious approach 
in pursuing permanent work projects using the Public Assistance 
alternative procedures program, which requires the use of fixed-cost 
estimates. Specifically, USVI officials we interviewed told us that 
developing such fixed-cost estimates that accurately incorporate the 
future impact of inflation and increases in materials and labor costs 
for certain projects was difficult. Further, these officials stated 
that since the territory is financially responsible for any costs that 
exceed these fixed-cost estimates, the USVI plans to pursue projects 
that do not include high levels of complexity or uncertainty to reduce 
the risk of cost overruns.\41\
---------------------------------------------------------------------------
    \41\ Under the standard Public Assistance program, FEMA will 
reimburse the USVI for the actual cost of completed work for any given 
project.
---------------------------------------------------------------------------
    From our on-going work on Puerto Rico's recovery efforts, we have 
learned that, in March 2019, Puerto Rico's central recovery office 
released the Disaster Recovery Federal Funds Management Guide, 
including an internal controls plan for the operation of the recovery 
office. On April 1, 2019, FEMA removed the manual reimbursement process 
and began a transition to allow the central recovery office to take 
responsibility for review and reimbursement approval of Federal 
recovery funds. We will review this transition process as a part of our 
on-going work. Our preliminary observations also indicate that some of 
the challenges we reported in our March 2019 report continue. For 
example, officials from Puerto Rico's central government agencies told 
us they did not feel they had sufficient guidance on the FEMA Public 
Assistance program and where they did, written and verbal FEMA guidance 
was inconsistent or conflicting. For example, officials from one agency 
expressed their desire for more FEMA guidance communicated in writing 
as it frequently happened that different FEMA officials would interpret 
existing guidance differently. Similarly, officials from two agencies 
described situations where they had initially been directed to follow 
one interpretation of a policy, only to be directed to follow a 
different, conflicting interpretation in the subsequent months. Puerto 
Rico agency officials also stated that the lack of sufficient 
instruction led to a ``back and forth'' with FEMA for clarifications, 
which led to delays in the phases of project development. FEMA 
officials in Puerto Rico stated that the agency has developed specific 
guidance for disaster recovery in Puerto Rico and that there are 
various ways, such as in-person meetings, where officials from Puerto 
Rico can obtain clarification. We are continuing to examine this issue 
as part of our on-going review of Puerto Rico's recovery.
    In addition, our preliminary observations from our on-going work 
for both the USVI and Puerto Rico indicate that FEMA, USVI, and Puerto 
Rico officials have reported challenges with the implementation of the 
flexibilities authorized by section 20601 of the Bipartisan Budget Act. 
This section of the Act allows for the provision of assistance under 
the Public Assistance alternative procedures to restore disaster-
damaged facilities or systems that provide critical services to an 
industry standard without regard to pre-disaster condition. Officials 
from Puerto Rico's central government stated that they disagreed with 
FEMA's interpretation of the types of damages covered by section 20601 
of the Bipartisan Budget Act of 2018. In response, FEMA officials in 
Puerto Rico stated they held several briefings with Puerto Rico's 
central recovery office to explain FEMA's interpretation of the 
section.\42\ Further, FEMA officials in the USVI told us that 
initially, they had difficulty obtaining clarification from FEMA 
headquarters regarding how to implement key components of section 20601 
of the Act. As of May 2019, FEMA officials in the USVI stated that they 
continue to move forward with developing alternative procedures 
projects. USVI officials also told us that FEMA had been responsive and 
helpful in identifying its options for using the new authorities the 
Act provides. We will continue to evaluate these identified challenges 
and any efforts to address them, as well as other aspects of recovery 
efforts in the USVI and Puerto Rico, and plan to report our findings in 
late 2019 and early 2020, respectively.
---------------------------------------------------------------------------
    \42\ In September 2018, FEMA issued guidance for implementing 
section 20601 of the 2018 Bipartisan Budget Act of 2018 through the 
Public Assistance alternative procedures program.
---------------------------------------------------------------------------
            FEMA Individual Assistance
    The Individual Assistance program provides financial and direct 
assistance to disaster victims for expenses and needs that cannot be 
met through other means, such as insurance. In May 2019, we reported on 
FEMA's effort to provide disaster assistance under the Individual 
Assistance program to older adults and people with disabilities 
following the 2017 hurricanes.\43\ We found that aspects of the 
application process for FEMA assistance were challenging for older 
individuals and those with disabilities. Further, according to 
stakeholders and FEMA officials, disability-related questions in the 
Individual Assistance registration materials were confusing and easily 
misinterpreted. While FEMA had made some efforts to help registrants 
interpret the questions, we recommended, among other things, that FEMA: 
(1) Implement new registration-intake questions that improve FEMA's 
ability to identify and address survivors' disability-related 
needs,\44\ and (2) improve communication of registrants' disability-
related information across FEMA programs. DHS concurred with the first 
recommendation and described steps FEMA plans to take, or is in the 
process of taking, to address it. However, DHS did not concur with the 
second recommendation, noting that it lacks specific funding to augment 
its legacy data systems. FEMA officials stated that they began a long-
term data management improvement initiative in April 2017, which they 
expect will ease efforts to share and flag specific disability-related 
data. While we acknowledge FEMA's concerns about changing legacy 
systems when it has existing plans to replace those systems, we 
continue to believe there are other cost-effective ways that are likely 
to improve communication of registrants' disability-related information 
prior to implementing the system upgrades. For example, FEMA could 
revise its guidance to remind program officials to review the survivor 
case file notes to identify whether there is a record of any 
disability-related needs.
---------------------------------------------------------------------------
    \43\ GAO, Disaster Assistance: FEMA Action Needed to Better Support 
Individuals Who Are Older or Have Disabilities, GAO-19-318 (Washington, 
DC: May 14, 2019).
    \44\ For the purposes of this report, we used the term 
``disability-related needs'' broadly to include all needs individuals 
may have that are related to a disability or access or functional need. 
For example, this may include replacement of a damaged wheelchair or 
other durable medical equipment, fixing an accessible ramp to a house, 
or any needed assistance to perform daily activities--such as 
showering, getting dressed, walking, and eating.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We also have work under way to assess FEMA's Individuals and 
Households Program, a component program of Individual Assistance. 
Through this program, as of April 2019, FEMA had awarded roughly $4.7 
billion in assistance to almost 1.8 million individuals and households 
for Federally-declared disasters occurring in 2017 and 2018. 
Specifically, we are analyzing Individuals and Households Program 
expenditures and registration data for recent years; reviewing FEMA's 
processes, policies, and procedures for making eligibility and award 
determinations; and examining survivors' reported experiences with this 
program, including any challenges, for major disaster declarations 
occurring in recent years. We plan to report our findings in early 
2020.
     long-standing workforce management and information technology 
 challenges exacerbate key issues with response and recovery operations
FEMA Workforce Management Challenges
    FEMA's experiences during the 2017 disasters highlight the 
importance of continuing to make progress on addressing the long-
standing workforce management challenges we have previously reported on 
and continue to observe in our on-going work. In September 2018, we 
reported that the 2017 disasters--Hurricanes Harvey, Irma, and Maria, 
as well as the California wildfires--resulted in unprecedented FEMA 
workforce management challenges, including recruiting, maintaining, and 
deploying a sufficient and adequately-trained FEMA disaster 
workforce.\45\ FEMA's available workforce was overwhelmed by the 
response needs caused by the sequential and overlapping timing of the 3 
hurricanes. For example, at the height of FEMA workforce deployments in 
October 2017, 54 percent of staff were serving in a capacity in which 
they did not hold the title of ``Qualified''--according to FEMA's 
qualification system standards--a past challenge we identified. FEMA 
officials noted that staff shortages, and lack of trained personnel 
with program expertise led to complications in its response efforts, 
particularly after Hurricane Maria.
---------------------------------------------------------------------------
    \45\ GAO-18-472.
---------------------------------------------------------------------------
    In February 2016, we reported on, among other things, FEMA's 
efforts to implement, assess, and improve its Incident Management 
Assistance Team program.\46\ We found that while FEMA used some leading 
practices in managing the program, it lacked a standardized plan to 
ensure that all National and regional Incident Management Assistance 
Team members received required training. Further, we found that the 
program had experienced high attrition since its implementation in 
fiscal year 2013. We recommended, among other things, that FEMA 
develop: (1) A plan to ensure that Incident Management Assistance Teams 
receive required training, and (2) a workforce strategy for retaining 
Incident Management Assistance Team staff. DHS concurred with the 
recommendations. FEMA fully implemented our first recommendation by 
developing an Incident Management Assistance Team Training and 
Readiness Manual and providing a training schedule for fiscal year 
2017. In response to the second recommendation, FEMA officials stated 
in July 2018 that they plan to develop policies that will provide 
guidance on a new workforce structure, incentives for Incident 
Management Assistance Team personnel, and pay-for-performance and all 
other human resource actions. We are continuing to monitor FEMA's 
efforts to address this recommendation.
---------------------------------------------------------------------------
    \46\ The 3 National and 13 regional Incident Management Assistance 
Teams are comprised of FEMA emergency management staff in areas such as 
operations, logistics, planning, and finance and administration. These 
teams are among the first FEMA officials to arrive at the affected 
jurisdiction and provide leadership to identify what Federal support 
may be required to respond to the incident, among other things. GAO, 
Disaster Response: FEMA Has Made Progress Implementing Key Programs, 
but Opportunities for Improvement Exist, GAO-16-87, (Washington, DC: 
Feb. 5, 2016).
---------------------------------------------------------------------------
    In November and December 2017, we reported on staffing challenges 
in FEMA's Public Assistance program. In November 2017, we reported on 
FEMA's efforts to address past workforce management challenges through 
its redesigned Public Assistance delivery model.\47\ As part of the 
redesign effort, FEMA created consolidated resource centers to 
standardize and centralize Public Assistance staff responsible for 
managing grant applications, and new specialized positions to ensure 
more consistent guidance to applicants. However, we found that FEMA had 
not assessed the workforce needed to fully implement the redesigned 
model, such as the number of staff needed to fill certain new 
positions, or to achieve staffing goals. Further, in December 2017, we 
reported on FEMA's management of its Public Assistance appeals process, 
including that FEMA increased staffing levels for the appeals process 
from 2015 to 2017.\48\ However, we found that FEMA continued to face a 
number of workforce challenges, such as staff vacancies, turnover, and 
delays in training, which contributed to processing delays.
---------------------------------------------------------------------------
    \47\ GAO-18-30.
    \48\ GAO, Disaster Recovery: Additional Actions Would Improve Data 
Quality and Timeliness of FEMA's Public Assistance Appeals Processing, 
GAO-18-143, (Washington, DC: Dec. 15, 2018).
---------------------------------------------------------------------------
    Based on our findings from our November and December 2017 reports, 
we recommended, among other things, that FEMA: (1) Complete workforce 
staffing assessments that identify the appropriate number of staff 
needed to implement the redesigned Public Assistance delivery model, 
and (2) document steps for hiring, training, and retaining key appeals 
staff, and address staff transitions resulting from deployments to 
disasters. FEMA concurred with our recommendations to address workforce 
management challenges in the Public Assistance program and have 
reported taking some actions in response. For example, to address the 
first recommendation, FEMA officials have developed preliminary models 
and estimates of staffing needs across various programs, including 
Public Assistance, and plan to reevaluate the appropriate number of 
staff needed and present recommendations to senior leadership by the 
end of June 2019. To address the second recommendation, FEMA has 
collected information on the amount of time regional appeals analysts 
spend on appeals, and the inventory and timeliness of different types 
of appeals. FEMA officials stated in September 2018 that they plan to 
assess this information to prepare a detailed regional workforce plan. 
As of June 2019, we are evaluating plans and documents provided by FEMA 
to determine whether they have fully addressed this recommendation.
    In our March 2019 report on the status of recovery efforts in 
Puerto Rico, we also reported Puerto Rico officials' concerns about 
FEMA staff turnover and lack of knowledge among FEMA staff about how 
the Public Assistance alternative procedures are to be applied in 
Puerto Rico.\49\ As part of our on-going work, we are continuing to 
examine recovery efforts in Puerto Rico. Our preliminary observations 
indicate that the concerns we reported on in our March 2019 report 
continue. For example, Puerto Rico agency officials said that the lack 
of continuity in FEMA personnel has been a challenge for communication 
and project development. Further, officials from all 7 Puerto Rico 
government agencies we interviewed felt that the FEMA staff they 
interacted with did not have a complete understanding of FEMA processes 
and policies. We are continuing to evaluate FEMA's recovery efforts in 
Puerto Rico and plan to issue our findings in late 2019.
---------------------------------------------------------------------------
    \49\ GAO-19-256.
---------------------------------------------------------------------------
    In April 2019, we reported on the Federal Government's contracting 
efforts for preparedness, response, and recovery efforts related to the 
2017 hurricanes and California wildfires.\50\ We found, among other 
things, that contracting workforce shortages continue to be a challenge 
for disaster response and recovery. Further, although FEMA's 2017 
after-action report recommended increasing contract support capacities, 
it did not provide a specific plan to do so. We also found that while 
FEMA evaluated its contracting workforce needs in a 2014 workforce 
analysis, it did not specifically consider contracting workforce needs 
in the regional offices or address Disaster Acquisition Response Team 
employees.\51\ In our April 2019 report, we recommended, among other 
things, that FEMA assess its workforce needs--including staffing 
levels, mission needs, and skill gaps--for contracting staff, to 
include regional offices and Disaster Acquisition Response Teams, and 
develop a plan, including time lines, to address any gaps. FEMA 
concurred with this recommendation and estimates that it will implement 
it in September 2019.
---------------------------------------------------------------------------
    \50\ GAO-19-281.
    \51\ The primary purpose of Disaster Acquisition Response Team 
employees is to support contract administration for disasters.
---------------------------------------------------------------------------
    In our May 2019 report on FEMA disaster assistance to older adults 
and people with disabilities following the 2017 hurricanes, we found 
that FEMA began implementing a new approach to assist individuals with 
disabilities in June 2018, which shifted the responsibility for 
directly assisting individuals with disabilities from Disability 
Integration Advisors--which are staff FEMA deploys specifically to 
identify and recommend actions needed to support survivors with 
disabilities--to all FEMA staff.\52\ To implement this new approach, 
FEMA planned to train all of the agency's deployable staff and staff in 
programmatic offices on disability issues during response and recovery 
deployments. According to FEMA, a number of Disability Integration 
Advisors would also deploy to advise FEMA leadership in the field 
during disaster response and recovery. We found that while FEMA has 
taken some initial steps to provide training on the changes, it has not 
established a plan for delivering comprehensive disability-related 
training to all staff who will be directly interacting with individuals 
with disabilities. We recommended, among other things, that FEMA 
develop a plan for delivering training to FEMA staff that promotes 
competency in disability awareness and includes milestones and 
performance measures, and outlines how performance will be monitored. 
DHS concurred with this recommendation; however, officials stated that 
FEMA is developing a plan to include a disability integration 
competency in the guidance provided for all deployable staff, rather 
than through training. We will monitor FEMA's efforts to develop this 
plan and fully address our recommendation.\53\
---------------------------------------------------------------------------
    \52\ GAO-19-318.
    \53\ We continue to believe that FEMA should develop a plan that 
includes how it will deliver training to promote competency in 
disability awareness among its staff. The plan for delivering such 
training should include milestones, performance measures, and how 
performance will be monitored.
---------------------------------------------------------------------------
    In addition to our prior work on FEMA's workforce management 
challenges related to specific programs and functions, we are 
continuing to evaluate FEMA's workforce capacity and training efforts 
during the 2017 and 2018 disaster seasons. Our preliminary observations 
indicate that there were challenges in FEMA's ability to deploy staff 
with the right kinds of skills and training at the right time to best 
meet the needs of various disaster events. For example, according to 
FEMA field leadership we interviewed, for some of the functions FEMA 
performs in the field, FEMA had too few staff with the right technical 
skills to perform their missions--such as inspections of damaged 
properties--efficiently and effectively. For other functions, these 
managers also reported that they had too many staff in the early stages 
of the disaster, which created challenges with assigning duties and 
providing on-the-job training. For example, some managers reported that 
they were allocated more staff than needed in the initial phases of the 
disaster, but many lacked experience and were without someone to 
provide direction and mentoring to ensure they used their time 
efficiently and gained competence more quickly. Groups of FEMA field 
managers we interviewed told us that difficulties deploying the right 
mix of staff with the right skills led to challenges such as making 
purchases to support FEMA operations, problems with properly 
registering applicants for FEMA programs, or poor communication with 
non-Federal partners. Nonetheless, FEMA staff have noted that, despite 
any suboptimal circumstances during disaster response, they aimed to 
and have been able to find a way to deliver the mission.
    As part of this on-going work, FEMA field leadership and managers 
also reported challenges using agency systems to ensure the 
availability of the right staff with the right skills in the right 
place and time. FEMA uses a system called the Deployment Tracking 
System to, among other things, help identify staff available to be 
deployed and activate and track deployments. To help gauge the 
experience level and training needs of its staff, the agency 
established the FEMA Qualification System (FQS), which is a set of 
processes and criteria to monitor staff experience in competently 
performing tasks and completing training that correspond to their job 
titles. According to the FQS guidance, staff who have been able to 
demonstrate proficient performance of all the relevant tasks and 
complete required training receive the designation ``qualified,'' and 
are expected to be ready and able to competently fulfill their 
responsibilities. Those who have not, receive the designation 
``trainee,'' and can be expected to need additional guidance and on-
the-job training. FQS designations feed into the Deployment Tracking 
System as one key variable in how the tracking system deploys staff. 
Among other challenges with FEMA's Deployment Tracking System and 
Qualification System, FEMA managers and staff in the field told us an 
employee's recorded qualification status was not a reliable indicator 
of the level at which deployed personnel would be capable of performing 
specific duties and responsibilities or their general proficiency in 
their positions, making it more difficult for managers to know the 
specialized skills or experience of staff and effectively build teams. 
We are continuing to assess these and other reported workforce 
challenges and plan to report our findings in January 2020.
FEMA Information Technology Challenges
    In April 2019, we reported on FEMA's Grants Management 
Modernization program, which is intended to replace the agency's 10 
legacy grants management systems and modernize and streamline the 
grants management environment.\54\ We found that, of 6 important 
leading practices for effective business process reengineering and 
information technology requirements management, FEMA fully implemented 
4 and partially implemented 2 for the Grants Management Modernization 
program. The 2 partially-implemented leading practices were: (1) 
Establishing plans for implementing new business processes and (2) 
establishing complete traceability of information technology 
requirements.
---------------------------------------------------------------------------
    \54\ GAO, FEMA Grants Modernization: Improvements Needed to 
Strengthen Program Management and Cybersecurity, GAO-19-164 
(Washington, DC: April 9, 2019).
---------------------------------------------------------------------------
    In addition, we found that the program's initial May 2017 cost 
estimate of about $251 million was generally consistent with leading 
practices for a reliable, high-quality estimate; however, it no longer 
reflected the current assumptions about the program at the time of our 
review. Moreover, the program's schedule--specifically its final 
delivery date of September 2020--did not reflect leading practices for 
project schedules, as the date was not informed by a realistic 
assessment of development activities. Last, we found that FEMA fully 
addressed 3 and partially addressed 2 of 5 key cybersecurity 
practices.\55\ The 2 partially-addressed practices were: (1) Assessing 
security controls, and (2) obtaining an authorization to operate the 
system. We made 8 recommendations to FEMA to implement leading 
practices related to reengineering processes, managing information 
technology requirements, scheduling system development activities, and 
implementing cybersecurity. DHS concurred with all of our 
recommendations and provided estimated completion dates for 
implementing each of them through July 2020.
---------------------------------------------------------------------------
    \55\ To conduct these analyses, we assessed FEMA documentation 
against our Business Process Reengineering Assessment Guide, Cost 
Estimating and Assessment Guide, and Schedule Assessment Guide, as well 
as the National Institute of Standards and Technology's risk management 
framework and identified key cybersecurity practices, among other 
leading practices and guidance.
---------------------------------------------------------------------------
    Thank you, Chairman Thompson, Ranking Member Rogers, and Members of 
the committee. This concludes my prepared statement. I would be happy 
to respond to any question you may have at this time.

    Chairman Thompson. I thank the witnesses for their 
testimony.
    I remind each Member that he or she will have 5 minutes to 
question the panel.
    I now recognize myself for questions.
    Mr. Administrator, do you have the staff necessary at FEMA 
at this point to respond to the disasters for this hurricane 
season?
    Mr. Gaynor. Yes, sir. We are ready every day of the year. 
We believe we need, not only be ready for hurricane season, but 
we are ready every day for what we like to call earthquake 
season, earthquakes can happen every day, to include a whole 
host of all hazards that we are prepared for.
    Chairman Thompson. So you are fully staffed at this point 
today?
    Mr. Gaynor. When it comes to incident work force----
    Chairman Thompson. No. No, no, no. Full-time FEMA 
employees. Are you fully staffed?
    Mr. Gaynor. For full-time employees?
    Chairman Thompson. Yes.
    Mr. Gaynor. Yes, sir.
    Chairman Thompson. What about the part-time?
    Mr. Gaynor. So the incident work force, we have improved 
staffing of that 20 percent since 2017. We continue to make 
improvements. It has been a struggle for FEMA to make sure that 
we have enough disaster responders in reserve or----
    Chairman Thompson. So how short are you?
    Mr. Gaynor. Excuse me, sir?
    Chairman Thompson. How short are you?
    Mr. Gaynor. We are probably short a few thousand employees 
when it comes to reserve.
    Chairman Thompson. How do you plan to close the gap?
    Mr. Gaynor. So we just concluded a coordinated work force 
review to look at where we recruit, reservists in this case, 
how we on-board them, how we train them. This past spring, we 
trained a thousand new reservists to be ready for hurricane 
season. It is a--it is a continuing improvement process. We 
know it is one of our struggles, but we have a plan to get 
there.
    One of the issues has been how we qualify these new 
employees. We are trying to streamline that whole process so it 
makes more sense for us, we can on-board quicker, and employees 
can get to the field faster.
    Chairman Thompson. So you have 2,000 vacancies as of now in 
that area?
    Mr. Gaynor. It probably exceeds 2,000, yes, sir.
    Chairman Thompson. Mr. Currie, what is your analysis of 
that shortfall?
    Mr. Currie. I think two challenges here, sir. One is how 
many total people does FEMA need to be ready for whatever can 
happen? Frankly, I am not sure that number is completely 
knowable, not knowing what is going to happen. But what we have 
said over the years is that FEMA needs to do a gap analysis to 
figure out what that number is. I am not certain that that has 
been done. We found in the past it hasn't been done.
    The second issue, though, is for the people you have, who 
are those people? Are they trained? FEMA employs people with 
backgrounds and expertise in hundreds of different backgrounds, 
from incident response to engineers. So the challenge we found 
in the past is that they lack certain numbers, particularly in 
some areas. It is not just people responding in the weeks 
after; it is people long-term that need to be in those 
locations helping them recover too.
    So it is total numbers, and it is then who is trained in 
what skills?
    Chairman Thompson. So give the committee what skills you 
see FEMA lacking in that area.
    Mr. Currie. So a great example is in long-term recovery 
projects and programs. Frankly, this is the part of disasters 
that often gets forgotten long after the media has left the 
response, is the day-to-day back-and-forth on response--on 
recovery projects, such as I mentioned in Puerto Rico, on 
public assistance. Those are the engineers, the site 
inspectors, the people that are doing the calculations, the 
cost estimators. Frankly, the less glamorous jobs that are 
hardest to fill, and FEMA has struggled to fill over the years. 
Those lead to delays and challenges in those recovery programs.
    Chairman Thompson. Speaking of Puerto Rico, Mr. Gaynor, are 
you aware that there are a number of mayors in Puerto Rico who 
have submitted reimbursements to FEMA that are substantially 
outstanding?
    Mr. Gaynor. Yes, sir. In general terms, we are. But I would 
like to point out that we--our program--recovery program, 
Public Assistance Program, is a reimbursement program. We work 
closely with COR3, who is our recovery partner in Puerto Rico. 
We share the same office space. They are responsible for making 
sure that, whether it is a local official or vendors, get paid. 
Once they submit the proper paperwork and it is validated, we 
send the money off.
    But I think the disconnect is between the COR3 who manages 
all the work. We don't directly pay contractors. We don't 
directly pay our locals. It really is the COR3 that owns that 
responsibility.
    Chairman Thompson. Are you aware that a number of 
municipalities in Puerto Rico have not been reimbursed for 
monies they have already spent?
    Mr. Gaynor. I think in general terms there is always a lag 
between work done, the proper processing of the paperwork to 
make sure we don't pay for something that we----
    Chairman Thompson. I understand. But do you--do you also 
understand that they don't have any more money to spend to do 
any work in their municipalities until they get reimbursed?
    Mr. Gaynor. Yes, sir, we do understand that. Liquidity is a 
problem in Puerto Rico and the U.S. Virgin Islands. I think 
that is why we want to be extra careful. You know, Puerto Rico 
is $70 billion in debt. We want to make sure that--and what 
typically happens after a long disaster, long recovery is, 
years after, when you try to rectify the records and make sure 
all the payments are correct, you have to do clawback. What we 
don't want to do, because we are committed to building Puerto 
Rico back better, what we don't want to do is claw back money 
because we had----
    Chairman Thompson. I understand that. But I have been a 
mayor involved in a disaster of a small town. If I expend all 
of my funds helping my citizens waiting on reimbursement, the 
comment you gave me doesn't give me any solace if I were one of 
those mayors in Puerto Rico waiting on reimbursement.
    Mr. Gaynor. Yes, sir.
    Chairman Thompson. What I would like for you to do for the 
committee is to have your staff prepare the reimbursement 
requests that have come in from Puerto Rico and give us the age 
of those reimbursement requests.
    Mr. Gaynor. We would be happy to work with your staff, sir.
    Chairman Thompson. So are you aware that cities have to 
have two inspections before they get reimbursed once?
    Mr. Gaynor. So there is a process, and we actually 
established a new process, validate as you go, to make sure, 
again, that the paperwork is proper and that those payments are 
legitimate. We work through that.
    Chairman Thompson. I understand. I appreciate it. But the 
same people come back and look at it the second time. The same 
people. So the mayors are saying, why can't you just come once 
and say it is OK or it is not?
    Mr. Gaynor. So there may be different levels of validation, 
depending on who validates and whether it is FEMA or COR3. We 
will be happy to get with your staff on a list of delinquent or 
unpaid vouchers.
    Chairman Thompson. OK. We will get through some other 
questions.
    I yield to the Ranking Member for some questions.
    Mr. Guest. Thank you, Mr. Chairman.
    Gentlemen, I want to first thank both of you for being here 
today. I want to thank your agencies for the help that you 
provide our communities as they seek to recover and prepare for 
disasters.
    As I mentioned earlier, Mississippi, the State that both I 
and Chairman Thompson call home, we appreciate the support of 
your agencies over the years as we have sought to recover from 
natural disasters, particularly Katrina that was so devastating 
to the Mississippi Gulf Coast.
    Acting Administrator Gaynor, I want to ask you a question. 
In 2017, we had Hurricanes Harvey, Irma, and Maria. They 
presented FEMA with a challenge that has not been seen before 
and hopefully will never be seen again as it related to timing, 
to scale, and to the location of these 3 disasters.
    With respect to Hurricane Maria, could you please indicate 
to us how the response and the recovery process has been more 
challenging to meet this disaster than others?
    Mr. Gaynor. Yes, sir. So I think everyone stipulates that 
this is a disaster like we have never seen. Combined with other 
disasters, you know, 2017 was a challenge for everyone. 
Specifically for Puerto Rico, Irma, a Cat 3 on September 10, 
and then Maria 10 days later, a Cat 5, really, again, stretched 
the limits of what we--what the challenges were.
    If I can share just some of the things that we did to 
support Puerto Rico, because I am not sure that many have 
really realized how much effort, not just FEMA put into 
recovery and response, but, really, all of Government.
    It was really one of the largest responses from DOD. Sixty-
seven thousand DOD personnel and Guard personnel responded to 
Maria. It was the largest domestic air mission of food and 
water in U.S. history. Approximately 62 days of moving food and 
water to Puerto Rico. It was the largest air--disaster air 
mission in U.S. history. Four thousand six hundred sorties from 
DOD and our private-sector partners that flew more than 3,200 
missions transporting urban search-and-rescue teams, disaster 
medical teams, relief supplies and equipment, and evacuated 
residents and patients. It was the largest disaster commodity 
mission in U.S. history. Defense logistic agency delivered 
almost 4 million gallons of fuel and 106 million meals and 
gallons of potable water and other life-sustaining supplies to 
Puerto Rico.
    It was the largest generator mission in history. We 
delivered over 2,000 generators to the island. It was the 
largest disaster medical mission in history. Thirty-eight 
thousand patients cared for, to include deploying thousands of 
DOD medical providers, both on land and sea, treated on the 
USNS Comfort that rendered critical medical care to some of 
those patients. The largest request for assistance ever in any 
disaster that we have seen. The Navy's deployment of 11 ships 
that represented the largest naval flotilla to respond to 
civilian support operations in U.S. history. Corps of Engineers 
executed the largest temporary power mission in history.
    When it comes to how we deal with disaster in the United 
States, we have this thing called the Emergency Management 
Assistance Compact. Ninety-two EMAC requests from 27 States 
assisted Puerto Rico in response to recovery from Maria. Today, 
we have 2,500 FEMA employees on the island. We were committed 
to a response like we have never seen in U.S. history. Today, 
we are still committed to the recovery in Puerto Rico.
    Mr. Guest. Can you just expand a little bit on the on-going 
work that is occurring in Puerto Rico as we speak today?
    Mr. Gaynor. Yes, sir. As of today, we have expended about 
$15 billion. About $5 billion of that is in Public Assistance. 
Another $1.8 billion in individual assistance. We have repaired 
112 homes' roofs. The work goes on and on and on.
    Again, we are committed to the recovery of Puerto Rico, to 
build it back better. We are complete partners with the 
government of Puerto Rico. They are 50 feet from my leadership 
staff in Puerto Rico. There is not a day that goes by that we 
are not down there solving problems together.
    Mr. Guest. Thank you.
    Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much.
    Mr. Gaynor, the President said that we have spent $91 
billion in Puerto Rico. The numbers you quoted didn't add up to 
$91 billion.
    Mr. Gaynor. Yes, sir. I will let the President's comment 
stand on its own.
    So what I do know is, you know, that--I will let the 
President's comments stand on their own. But what I can tell 
you is what we are doing today.
    Again, 59--I mean----
    Chairman Thompson. No. Just--have we spent $91 billion? I 
am just trying to--that is what the President said.
    Mr. Gaynor. I think the--over the life of the disaster, 
that is what we estimate the cost could be for Hurricane Maria.
    Chairman Thompson. No.
    Put on the screen. That is what the President said: $91 
billion. Is that true or false?
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Gaynor. Again, I think it is an estimate about what 
could be spent in Puerto Rico. Right now, we have expended $15 
billion in--from FEMA and another $27 billion from all other 
Federal agencies. So----
    Chairman Thompson. So does this add up to 91--Mr. Gaynor, 
does it add up to $91 billion?
    Mr. Gaynor. I think when recovery complete, it could 
achieve that number, yes, sir.
    Chairman Thompson. But as of now, is it $91 billion?
    Mr. Gaynor. As of now, it is $42 billion.
    Chairman Thompson. Thank you.
    I yield to the gentleman from New York, Mr. Rose.
    Mr. Rose. Thank you, Mr. Chairman.
    Mr. Gaynor, thank you for being here and for your service.
    Recently, FEMA has announced on its website that it will 
be, in late 2020, initiating Risk Rating 2.0 for flood 
insurance. My understanding of this is that it will be a far 
more quantitative hypertargeted formula which will basically 
focus in potentially on individual homes rather than the entire 
country, entire regions, and so forth. Is this correct?
    Mr. Gaynor. In part, yes, sir. I think with--you know, NFIP 
needs to be overhauled. I think we all agree to that. Our goal 
with 2.0 is to make sure that customers better understand their 
flood risk based on where they live and to make sure that the 
rates that they pay reflect the risk that----
    Mr. Rose. Sure. Now, you can understand how this--
especially when all you have said to this matter is 221 words 
on your website, that this is starting to scare people.
    Would people be correct in their fear that they could start 
to pay upwards--or see upwards of 18 percent increases in their 
flood insurance bills annually as a consequence of them fully 
understanding their risk?
    Mr. Gaynor. So the cap is 18 percent, so you can't be past 
18 percent.
    Mr. Rose. Sure. But we could see, theoretically, people 
start to pay that 18 percent increase who were not formerly?
    Mr. Gaynor. Yes, sir. So, again, what we are doing is try 
to reevaluate and rebuild the program to better reflect risk. 
So in some cases, you know, those premiums do not reflect that. 
So we are doing modeling right now, so some premiums could go 
up and some premiums could go down.
    I don't know exactly what that looks like. But we--I 
think--you know, part of our duty as emergency managers is to 
make sure that if people live, you know--you know, you have to 
understand how to prepare yourself. If you don't understand 
risk, I am not sure how you can do that.
    Mr. Rose. I don't think I am not--we are not talking about 
an understanding of risk; we are talking about potential for a 
real affordability crisis.
    If you jack up someone's premium increases to 18 percent 
per year, roughly, that is doubling in 5 years, can you see how 
this could cause a massive affordability crisis for entire 
communities if this goes through?
    Mr. Gaynor. Yes, sir. I think we have an affordability 
issue today with NFIP. So we have been working with some of the 
staffers on the Hill on this. I think we are willing to work 
with any Member here about how we can minimize the impact, such 
a steep impact on maybe some of these premiums that will go up. 
So, again, a work in progress. I don't think we have all the 
answers just yet. But we believe that we need to overhaul the 
program to better reflect risk so people understand, you know, 
what is at risk when it comes to----
    Mr. Rose. I guess the point that I am making, and I do--I 
would like to formally accept your offer to work with you and 
your team on this, because this is amongst the important issues 
to me community. I represent an island in New York City and 
then a coastline in Brooklyn, that--and you say understanding 
of risk, they see affordability crisis. This will be a problem 
unless we address it.
    Mr. Gaynor. I think we want to achieve the same goal. We 
want to have a balance in both of those things. We don't want 
it to be completely unaffordable, because I think that goes 
against what we are trying to do is to close the insurance gap 
in the United States. So there is a balance there. Again, I 
think our staff is absolutely willing to work with Congress to 
make sure that we have a program that meets everyone's needs.
    Mr. Rose. OK. Now, with my limited time remaining, I wanted 
to talk just about counterterrorism. The President has 
proposed, or his administration, in their budget request a cut 
to overall counterterrorism related grants by $600 million.
    I wanted to just give you a moment to offer, from your 
perspective, the justification for that cut.
    Mr. Gaynor. Yes, sir. Just as context, I spent 7 years as a 
local emergency manager in a city working for a couple mayors. 
I was a State director in Rhode Island working for a Governor, 
so I understand how these things can hurt.
    First of all, I think the administration's budget reflects 
our priorities. We are struggling with lots of demand and 
finite resources. So those are hard choices that have to be 
made in any budget. When it comes to grants, you look back at 
how much we have invested, I think Chris has kind-of alluded to 
how much money we have invested in grants over the years. I 
think $50 billion since 2005 to build local and State 
capability. This is a shared responsibility between local, 
State, and the Federal system.
    I have--you know, again, success in this business is going 
to take the ability to--locals to execute, the States to manage 
it, and the----
    Mr. Rose. Of course, and the NYPD understands that. I am 
sure you know that. But I do just, in the last few seconds, 
want to make sure we are on the same page.
    So as a consequence of previous investments in 
counterterror screening, this administration is now saying that 
its greater priority are things like the border wall, not 
counterterrorism. I understand it is still a priority, but a 
greater priority.
    Mr. Gaynor. There are many different priorities. I think we 
are trying to do--I think one of the things we haven't kept up 
with is emerging threat. Some of the grants that were conceived 
after 
9/11 have really not changed in the way we look at threat. So 
we want to make sure that new grants or revisions to grants 
reflect the current environment. So a whole host of things that 
we are worried about. We are an all-hazards agency. We worry 
about everything.
    Mr. Rose. Sure.
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes the gentleman from New York, Mr. 
Katko.
    Mr. Katko. Thank you, Mr. Chairman.
    Thank you both for being here today.
    Mr. Currie, the report is very thorough, and I appreciate 
that.
    Mr. Gaynor, first off with you. I want to take a step back 
into kind-of a case analysis, if you will, and a little 
different aspect of FEMA, and that is the process by which you 
go about getting FEMA dollars.
    The Lake Ontario shoreline where my district lies has three 
counties in my district that have experienced severe flooding 2 
out of the last 3 years. We haven't gotten the FEMA 
designation, but I think this time it is most likely they are 
going to.
    So for the benefit of the record, for the benefit of my 
constituents back home, could you walk me through briefly how 
you go about getting the FEMA dollars to the people on the 
front lines? Then I might follow up with another question.
    Mr. Gaynor. Yes, sir. Are you talking about recovery 
dollars?
    Mr. Katko. Yes, sir. The flooding is at catastrophic levels 
right now. So explain the process how they go about getting 
those FEMA funding for a disaster relief.
    Mr. Gaynor. Yes, sir. So, typically, it starts with an 
assessment by the Governor or a local official that declares a 
disaster. There are certain criteria that has to be met when it 
comes to Public Assistance and individual assistance.
    Again, I worked for a Governor for 4 years, so there is a 
lot of process that has to be done to make sure you meet the 
criteria. The Governor submits that request. If it meets all 
the criteria to the regional administrator, whatever region 
that you are in in the United States, and then eventually to 
us, and then we forward it on to the President for approval.
    If approved, you are eligible for Public Assistance and 
individual assistance, depending on what you asked for. 
Typically, you get hazard mitigation dollars for the entire 
State, typically, to do predisaster mitigation. So there is a 
process. It can be very quick. Not all disasters are equal, so 
it depends what the particulars are of that particular city, 
town, or municipality. If there is a question about inability 
to get to a disaster dec, we would be happy to engage with your 
staff on how to help you get that.
    Mr. Katko. Actually, I know you have a very busy schedule. 
I would invite you to come up there to see, because it is a 
different type of disaster that we really--I think would help 
you in understanding the delay in getting dollars for these 
types of disasters are--compound the catastrophe.
    What I understand now is the water levels are already at 
all-time highs. Homes are ruined. Shorelines ruined. One of my 
counties relies on almost 50 percent of their tax revenue from 
the shoreline properties. It is going to have a devastating 
long-term effect. The longer it takes to get those dollars, the 
harder it is for them to recover and fully recover.
    One of the concerns I have been told that is happening is 
they have to wait till the water starts receding before they 
can start the process. It is a rather lengthy process before 
the Governor can issue the declaration, which then triggers 
asking the President to do it, so--could you just speak to that 
process for a minute, that part of the process?
    Mr. Gaynor. Yes, sir. Typically--and flooding is a good 
example, that, you know, it is hard to estimate damage while 
the floodwaters are up or the disasters still may be going on. 
So what we do as a joint effort between locals and State and 
the Federal Government, we do these preliminary damage 
assessments. We go there and get eyes on all the damage, 
calculate what that looks like in dollars and, again, submit 
that for the Governor for approval and submission to the 
President. Again, sometimes it is hard to estimate damage if 
there is still water or still on-going threat to that 
community.
    Again, we will be there in the community as long as it 
takes to make sure we understand what the damage is and to help 
local and State emergency managers and local officials get to 
their desired outcome.
    Mr. Katko. Thank you. You mentioned a disaster mitigation 
strategy. Mr. Currie needs to be addressed. I don't want you to 
comment on it. I just want to make a statement to both Mr. 
Gaynor and Mr. Currie.
    The disaster mitigation strategy is exactly why we have 
exponentially more damage this year than 2 years ago, because 
there wasn't enough disaster mitigation strategy going on. So 
going forward, I want to engage with you more on that.
    But I want to switch gears with you, if I can, Mr. Currie. 
Your report is very thorough, and I appreciate it. I was a 
former Federal organized crime prosecutor in Puerto Rico for 
several years, and locals called me fiscal, is what the term 
was.
    So I am well familiar with what the problems are in Puerto 
Rico. The infrastructure problems back in the mid-nineties were 
quite profound. But I was also cognizant of the fact that, even 
back then, when the Federal dollars came, they weren't always 
properly applied. They were always followed up by an awful lot 
of indictments of local officials on fraud.
    So you mentioned the fraud, waste, and abuse in your 
report. I am not trying to cast aspersion on anyone in Puerto 
Rico, but when you did this report, did you find any evidence 
or indications of fraud, waste, and abuse so far in the monies 
being sent to Puerto Rico?
    Mr. Currie. Not yet. To FEMA's credit, they have had to 
balance this--having to get money out quickly--they always do--
have to balance getting out money quickly but making sure it is 
spent right.
    In Puerto Rico, there clearly--they did not have the 
capacity to manage these Federal funds like States like Texas 
or Florida and California do who have years of----
    Mr. Katko. It is part of the problem, right?
    Mr. Currie. Yes. That had to be built. They have worked 
together to build that over time.
    Mr. Katko. I am very encouraged to hear that it is not 
there. I hope it stays away. I encourage both of you to keep a 
close eye on that and work closely with them. I think they need 
the assistance. I think the capacity issue is a big issue 
there.
    I thank you for your comments.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Illinois, Ms. 
Underwood, for 5 minutes.
    Ms. Underwood. Thank you, Mr. Chairman.
    Natural disasters and patterns of extreme weather events 
are happening more frequently and with greater intensity all 
over our country, including in my home State of Illinois.
    We know that human activity plays an indisputable role in 
climate change, which is linked to these extreme weather 
events. Ignoring that link is a direct threat to our National 
security. So knowing this, I am extremely concerned that FEMA 
has chosen to strip all mention of climate change from its 2018 
to 2022 strategic plan.
    Mr. Gaynor, the Department of Defense has reiterated the 
homeland security threats of climate change in reports 
published every year since 2007. So, Mr. Gaynor, why, to the 
best of your knowledge, did FEMA remove all mention of climate 
change from this document?
    Mr. Gaynor. Yes, ma'am. So I wasn't here for the 
construction of the plan in 2017, but what I can tell you about 
the plan, it doesn't mention anything about any hazards. It 
really is agnostic to any hazards. I go back to my original 
statement that we are an all-hazards agency. We are committed 
to preparing for and responding to any threats and hazards, 
regardless of the cause. That is how we approach it.
    So, you know, why it is not in there, I think, again, no 
hazard is mentioned in there to include any reference to 
climate change.
    Ms. Underwood. OK. Thanks.
    We know that previous iterations of the report have 
addressed climate change directly. So if we are going to have a 
proper level of preparedness in our country, I would hope that 
future iterations of the report would address specific hazards 
so we know that they have a disproportionate effect on our 
National security.
    In Illinois, we are seeing extreme weather events like the 
recent bomb cyclone, as well as periods of heavy rainfall 
causing record-level flooding in waterways across the Midwest. 
These events are threatening infrastructure, private property, 
and the lives of people in our communities. It is a timely 
issue. Every major monitoring station in Illinois along the 
Mississippi River reports current and forecasted water levels 
above the flood stage. The impact is being felt in my home 
district, the Illinois 14th, as the Fox River and the Des 
Plaines River have recently been swelling beyond flood stage 
and past record peaks.
    In preparation for this hearing, my office reached out to 
the Illinois Emergency Management Agency. Officials at that 
agency spoke highly of their good working relationship with 
FEMA and of FEMA's support overall. So, Mr. Gaynor, I want to 
take this opportunity to commend you and thank your staff at 
FEMA for their work.
    Mr. Gaynor, what resources does FEMA need from Congress to 
continue to support communities like mine that are impacted by 
increased flooding?
    Mr. Gaynor. Yes, ma'am. Thank you. Just a little bit about 
the spring flooding that we see. Really historic levels, not 
only for Illinois, but for many States, from the Canadian 
border to the Mexican border, from Kansas to Kentucky to 
Florida.
    Ms. Underwood. That is right.
    Mr. Gaynor. It has been a pretty busy season for us.
    I think we have all the tools necessary. I want to thank 
Congress for passing the DRRA. I think one of the things we are 
most excited about in that is predisaster mitigation. Six 
percent set-aside for all disasters. So we are going to set 6 
percent aside in the DRF. We are building a program called 
BRIC, Building Resilient Infrastructure and Communities. We 
want to really create a new smarter program than our current 
predisaster mitigation program. We have a program today. But 
with the new level of funding, we want to make sure that we 
really try to move the needle when it comes to predisaster 
mitigation across the Nation.
    So that program is being developed now. We are very excited 
about deploying that here in the next--I think by October 2020. 
We want to change the dynamic of how we prepare for disasters 
by investing in predisaster mitigation before the storm 
happens.
    We spend plenty of money postdisaster on trying to fix 
things after the storm hits. There is no way to do emergency 
management. I think this is really a transformational 
legislation that allows us to do that. So DRRA has really been 
helpful to us and the Nation.
    Ms. Underwood. So what improvements has FEMA made to 
address past capability gaps in order to better assist these 
areas impacted by flooding, right?
    So this new bill was authorized last year. I am assuming 
that you have made some internal improvements. Can you outline 
some of those?
    Mr. Gaynor. Yes, ma'am. So between the legacy program that 
we have now, predisaster mitigation, typically, we are 
authorized about $50 million a year. That is kind-of our 
average over the past 10 years across the Nation. Fifty million 
dollars across the Nation doesn't really go that far. You 
really can't do big--you know, high--projects to have a high 
return on investment.
    Congress provided some bridge money between the PDM legacy 
and BRIC, about $250 million. That money is available today. So 
that is how we are going to get from the legacy to the new. 
Again, I thank Congress for giving us that extra funding to 
make sure we can make a bigger difference when it comes to 
predisaster mitigation in the Nation.
    Ms. Underwood. Thanks.
    So the extreme weather in the Midwest has prevented farmers 
from planting their crops, and these next couple of weeks could 
be their last chance to plant at all. Right now, Illinois 
farmers have only been able to plant 73 percent of corn and 49 
percent of soybean acres, compared to this time last year. I 
know that FEMA works with the Department of Agriculture, and so 
we are going to be following up with you to understand exactly 
how you all are working to ensure that our farmers are given 
the appropriate assistance that they need.
    Thank you, sir.
    I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Arizona for 5 
minutes, Mrs. Lesko.
    Mrs. Lesko [off mic]. I think you heard me, but thank you 
for what you do.
    I want to thank the men and women that work for FEMA, and 
all the volunteers from all over the Nation that come and help 
out at disasters.
    I have a question for you, Mr. Gaynor, and you may have to 
follow up with me afterwards. But in April of this year, I led 
a bipartisan letter dated April 5, 2019, with other members of 
the Arizona delegation, to former Secretary Nielsen and 
yourself, a copy to yourself, regarding FEMA's formula for 
awarding Urban Area Security Initiative--I think you call it 
UASI--grants.
    Our three concerns outlined in this letter were that FEMA 
is not considering the complete or proper data from the FBI, 
the threat levels of Phoenix UASI special events are not 
properly ranked, and that Phoenix's proximity to the border 
with Mexico is not considered when determining the risk profile 
of the Phoenix-Mesa-Scottsdale UASI region, because you 
downgraded our threat level.
    So how does FEMA work with the FBI to determine risk 
profiles for UASI regions?
    Mr. Gaynor. Yes, ma'am. So I think it is about 32 UASI 
communities and multiple communities grouped--some of those 
that get the grant. So we have a risk formula that we use that 
considers the threat, the vulnerability of that community, and 
the consequences that could result from a number of different 
threats.
    As a former State director, it was part of my job to make 
sure that that formula was fully populated with all the factors 
that go into that, to include conversations with, not only the 
FBI, but other partners in public safety.
    You know, that formula generally informs the Secretary of 
Homeland Security about how to make awards on those grants. We 
actually had a conversation with Secretary Nielsen, the former 
Secretary, about how to improve that formula to make it more 
reflective. We had a chat about borders, how to, you know, 
strengthen the border score.
    We had made some changes. One of the things we want to 
focus on is emerging threat. We added some language in past 
UASI awards to recognize soft targets and events that have mass 
gathering. You know, the threat is evolving. We are always 
looking to make sure that we keep up with the threat. I would 
be happy to engage with you and your staff about, you know, how 
we can make that UASI award more--better informed for unique 
jurisdictions like yours.
    Mrs. Lesko. Yes. Thank you. I will take you up on that, 
because we are, you know, going to get--the Phoenix area is 
going to get less grant money, potentially, because of this 
lower rating. It doesn't really make sense to me.
    So here I looked over this SEER rating of different big 
events all over the Nation, right? To give you an example, 
Phoenix has the Phoenix Open, this huge golf competition, 
right, that attracts 700,000 attendees over a 5-day period. It 
got a lower rating, a SEER rating, than the Kumquat Festival, 
which only had 35,000 attendees over a weekend. So, to me, this 
makes absolutely no sense. The fact that our Phoenix region is 
only 30 miles away--the southern part of it is only 30 miles 
away from the Mexican border where we have this huge crisis 
going on right now, I really just don't understand it. I would 
like to work with you to try to perhaps make it more reflective 
of the actual threats.
    Mr. Gaynor. Yes, ma'am. We would be happy to kind-of go 
through what we receive from the State on some of those 
submissions and see what--you know, how it was calculated. I 
would be happy to show you how it was done.
    Mrs. Lesko. Mr. Gaynor, when you said you were the State 
director, do you mean the FEMA State director?
    Mr. Gaynor. I was a State director in Rhode Island, so yes, 
ma'am.
    Mrs. Lesko. The State director of what?
    Mr. Gaynor. Emergency management director. I am sorry.
    Mrs. Lesko. OK. I am sorry, what were you?
    Mr. Gaynor. I was the emergency management State director 
for the State of Rhode Island.
    Mrs. Lesko. So perhaps I should be talking also to the 
Arizona State manager as well, because that is the person that 
helps guide this UASI rating? Is that what you are saying?
    Mr. Gaynor. Typically, it is the State--either the homeland 
security adviser for the State or the emergency management for 
the State. I mean, it could be a group of different public 
safety professionals from the State.
    I don't think any State does it exactly the same, but I 
would bet that the public--or the emergency management 
director, the homeland security adviser, and those public 
safety partners are involved in how they calculate--what they 
submit to calculate for that formula.
    Mrs. Lesko. All right. Thank you, Mr. Gaynor.
    I yield back my time.
    Chairman Thompson. Mr. Gaynor, I thought the UASI 
designations were made at headquarters, based on what Mrs. 
Lesko was talking about.
    Mr. Gaynor. At FEMA headquarters?
    Chairman Thompson. Yes.
    Mr. Gaynor. No, sir. It is a DHS grant. We administer it 
for the Secretary.
    Chairman Thompson. Yes. But I am saying, it is made in 
Washington, not in Atlanta--I mean, not in Arizona.
    Mr. Gaynor. Yes, sir, but all the State----
    Chairman Thompson. So----
    Mr. Gaynor [continuing]. All the State----
    Chairman Thompson. Well, I just don't want you to give the 
impression that those decisions that impacted Arizona rest in 
Arizona when the decisions are made at headquarters at DHS.
    Mr. Gaynor. Alls I am saying, sir, the process is, 
typically, the headquarters puts out a solicitation for the 
grant to all the States with the risk rating for each 
particular UASI. All the States with the UASIs review that, and 
it comes back to headquarters for consideration.
    So it is risk-informed based on, typically, what is 
submitted from States or UASI communities.
    Chairman Thompson. Well----
    Mrs. Lesko. Mr. Thompson, can I just briefly follow up on 
that?
    Chairman Thompson. Sure.
    Mrs. Lesko. So what I think you are saying is that, you 
know, it would probably be to our benefit if it didn't happen--
and I don't know--for our State emergency disaster person to 
promote maybe Phoenix more, that area, so that the Feds know.
    Mr. Gaynor. Yes, ma'am. Again, as a State director and a 
local director, I was part of a UASI that no longer exists, so 
I am pretty familiar with the process and what----
    Mrs. Lesko. OK.
    Mr. Gaynor [continuing]. The UASI or the State or the local 
inputs to that, again, to make sure that it is all highlighted 
for better decision making at headquarters.
    Mrs. Lesko. Yes. Yes. That makes sense.
    Thank you, Mr. Chair.
    Chairman Thompson. The Chair recognizes the gentlelady from 
New Jersey, Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Chairman.
    Thank you to both of you for your testimony today.
    Just a couple of things. We just ended our appropriations 
season, and I am happy to report that, even though the 
President's budget request for 2020 in several categories--on 
UASIs, Homeland Security Grants, to Port Security Grants, to 
Transit Security Grants, Emergency Management Performance 
Grants, to Assistance to Firefighters Grants, to Staffing for 
Adequate Fire and Emergency Response Grants--was even less than 
was enacted in 2018 and 2019, the Appropriations Committee has 
seen fit to increase those things. Hopefully, you will have 
more resources to do the things that you need to do.
    I wanted to talk to you about two things. I want to ask 
about the Federal assistance for low-income individuals after a 
disaster. There have been multiple reports--and I have one 
right here that I seek unanimous consent to put into the record 
from the NPR report dated March 5, 2019.
    Chairman Thompson. Without objection.
    [The information follows:]
         Article Submitted by Honorable Bonnie Watson Coleman*
---------------------------------------------------------------------------
    * This information is also available at https://www.npr.org/2019/
03/05/688786177/how-federal-disaster-money-favors-the-rich.
---------------------------------------------------------------------------
               how federal disaster money favors the rich
March 5, 2019, 5 o'clock AM ET, by Rebecca Hersher and Robert Benincasa
    If they had known, they never would have bought the house on Bayou 
Glen Road. Sure, it was a beautiful lot, tucked in a bend of the creek, 
backyard woodsy and wild, the neighbors friendly and the street quiet. 
A little piece of nature just 20 minutes from downtown Houston. It was 
exactly what John and Heather Papadopoulos--recently married, hoping to 
start a family--were looking for in 2007. They didn't think much about 
the creek that ran along their yard, aside from appreciating the birds 
it attracted to the neighborhood.
    Across town, the Evans family was similarly indifferent to the 
wooded bayous that cut through their neighborhood. Janice Perry-Evans 
chose the house she rented because it was conveniently located near the 
local high school, which made it easy for her two boys to get to class 
and home from football practice. Her commute to the post office wasn't 
far either. Plus, at $800 per month, the rent was affordable. By 2017, 
the family had lived there for 4 years, and didn't have any plans to 
move.
    And then, in August of that year, both homes were destroyed. Both 
families had to start over from nothing. But today, one family is 
financially stable. The other is facing bankruptcy.
    Disasters are becoming more common in America. In the early and 
mid-20th century, fewer than 20 percent of U.S. counties experienced a 
disaster each year. Today, it's about 50 percent. According to the 2018 
National Climate Assessment, climate change is already driving more 
severe droughts, floods, and wildfires in the U.S. And those disasters 
are expensive. The Federal Government spends billions of dollars 
annually helping communities rebuild and prevent future damage. But an 
NPR investigation has found that across the country, white Americans 
and those with more wealth often receive more Federal dollars after a 
disaster than do minorities and those with less wealth. Federal aid 
isn't necessarily allocated to those who need it most; it's allocated 
according to cost-benefit calculations meant to minimize taxpayer risk.
    Put another way, after a disaster, rich people get richer and poor 
people get poorer. And Federal disaster spending appears to exacerbate 
that wealth inequality.
                               the flood
    Nowhere are the economic and racial inequities of disaster aid more 
apparent than in communities that have experienced one of the most 
costly and wide-spread disasters: urban flooding.
    Houston is arguably ground zero for urban flooding--a sprawling 
city built on low and marshy flatlands exposed to hurricanes blowing in 
from the Gulf of Mexico. In the past decade, there have been five major 
floods in the city, culminating in the largest amount of rain ever 
recorded from a single storm: Hurricane Harvey in August 2017.
    The Papadopoulos and Evans families were two of the hundreds of 
thousands of families who evacuated their homes during the storm.
    ``We were the first ones to evacuate out of our house, up the 
street,'' remembers John Papadopoulos. In the years before the 
hurricane, their home had gone from a refuge to a nightmare. It flooded 
in 2009, in 2015 and in 2016. By 2017, they knew what to do: Put the 
valuables up high, and get out. They went to a neighbor's house first, 
and then to a hotel.
    It was a new experience for the Evans family. ``When the water 
started coming up, we thought we were going to have to go on the 
roof,'' says Janice Perry-Evans. ``But we ended up not going on the 
roof. We ended up, me and the kids, packing up a little bit of stuff'' 
in a plastic container.
    ``We got out and we walked in that water,'' she remembers. The 
water was up to her armpits in places. Eventually, a dump truck carried 
them to a bus, and the bus dropped them at the convention center 
downtown.
    The next morning, Perry-Evans and Papadopoulos took the same first 
step to start rebuilding their lives--they turned to the Federal 
Government for help. But almost immediately, their experiences 
diverged.
    From the beginning, a lot of things went right for the Papadopoulos 
family. John's employer, Microsoft, gave him as much time off as he 
needed and more than $10,000 to help with rent and other bills that 
piled up after the flood. The Papadopouloses rented a townhouse nearby 
and, within a few months, the Federal aid they had applied for began to 
arrive.
    The Federal Emergency Management Agency gave them $30,000; because 
the family owned a home that had been destroyed in the flood, the 
Internal Revenue Service sent checks for more than $100,000 in refunded 
taxes--a perk of having a relatively high income. The Small Business 
Administration gave the family a low-interest loan.
    About a year after the storm, Papadopoulos said, his family was 
financially stable.
    The Evans family was not.
    Janice Perry-Evans had one goal after the floodwaters receded: find 
a place to stay. She didn't have any savings for a hotel or a new 
apartment, so when a co-worker offered her a room in his house, she 
took it, even though it was one room for her and her three kids and it 
was a 45-minute drive from work and school.
    Then, she started applying for help from FEMA.
    The agency gave her about $2,500, enough to cover a deposit and 
first month's rent in a new place, but Perry-Evans needed the money for 
something else. Her oldest son was hoping for a college football 
scholarship. He couldn't afford to miss school or football practice 
that fall, and the family couldn't afford for Perry-Evans to miss 
shifts as a mail carrier for the post office.
    ``I had to go to work, and I had to get these boys back and forth 
to school. So I took that [money] and I put it for a car,'' she 
explains.
    With her immediate transportation needs met, Perry-Evans went back 
to FEMA to see about getting more money for housing, but she says 
agency representatives reprimanded her for incorrectly using the money 
she had been given.
    ``Some of them were kind of rude,'' she remembers. ``Some of them 
felt sorry for me because I would be crying, [saying] `Hey, I have 
nowhere to go. I don't have no money. You guys are not helping me like 
I thought.' ''
    FEMA didn't block Perry-Evans from reapplying for housing money, 
but she says after the scolding she turned to other potential sources 
of Federal aid, unsuccessfully. Her income wasn't high enough to claim 
a significant tax refund. She says she was denied a low-interest loan 
from the Small Business Administration because her credit score was too 
low. A FEMA representative suggested she try to get housing money from 
the Department of Housing and Urban Development, but after she used her 
day off to go to an information session, she was informed that her 
income was too high to qualify.
    ``It was like every time I tried something, it was an obstacle in 
the way,'' she says.
    The entire time, Perry-Evans says, she never missed a shift at the 
post office. She even worked the week that Hurricane Harvey hit 
Houston. She often worked 6 days a week. But her paycheck just wasn't 
enough to cover all her bills, and her co-worker said it was time for 
the family to move out of the spare room.
    Six months after the flood, Perry-Evans did the only thing she felt 
she could: She signed a lease to rent a house that cost 50 percent more 
than where they used to live, for less space. The electricity didn't 
always work. For more than a year after the flood, Perry-Evans was 
still sleeping on a cot she took from the convention center.
                the rich get richer; the poor get poorer
    Perry-Evans is not alone in her struggle. ``Recovery for vulnerable 
families [looks] a lot different than it does for more affluent 
neighborhoods,'' says Kathy Payton, the director of the Fifth Ward 
Community Redevelopment Corp., a neighborhood nonprofit that works a 
few miles from where Perry-Evans lives.
    Payton grew up in Houston and has spent decades supporting the 
basic needs of her neighbors, many of whom live on fixed incomes or do 
not have a cushion of savings to fall back on after a disaster.
    ``We had loss of income because people lost their jobs. We had 
increased health issues as a result of them living in bad situations,'' 
she says, ticking off the cascade of challenges lower-income families 
have contended with since the flood. Many families struggle to 
successfully apply for money because they do not have access to a 
computer, she says, or do not have all the paperwork they need, or 
can't take time off from work to meet with a FEMA representative.
    Payton says wealthier families are more able to comply with the 
rigid application requirements. ``There shouldn't be a cookie-cutter, 
one-size-fits-all template,'' she says. ``You've got to make 
adjustments based on the vulnerabilities and the needs of the families. 
And that's not what we do.''
    Those application requirements are not explicitly designed to favor 
some citizens over others. Under the 1988 Federal disaster relief law, 
the requirements exist to protect taxpayers from fraudulent or improper 
payouts after a storm, by keeping track of who has been given money for 
what.
    But Payton says the upshot in Houston is that the more affluent 
parts of the city have recovered more quickly and deeply since the 
flood. Private insurance accounts for some of that, but Payton also 
believes residents in those areas have been more successful at getting 
Federal money.
    ``Those families who are more apt to be able to respond to that 
[funding] will do so quickly, will do so more efficiently and the funds 
will be available on a first come, first serve basis,'' she says. 
Families who cannot, she says, ``will be left behind again.''
    A new and growing body of research backs up Payton's observations. 
Studies by sociologists, as well as climate scientists, urban planners 
and economists, suggest that disasters, and the Federal aid that 
follows, disproportionately benefit wealthier Americans. The same is 
also true along racial lines, with white communities benefiting 
disproportionately.
    ``Cities are often very unequal to begin with,'' says James 
Elliott, a sociologist at Rice University. ``They're segregated and 
there are lots of income disparities, but what seems to happen after 
natural hazards hit is these things become exacerbated.''
    ``We see these same patterns of wealth inequality being exacerbated 
in communities that receive more FEMA aid,'' explains sociologist Junia 
Howell of the University of Pittsburgh. Howell and Elliott have 
published multiple studies that find a pattern in who wins and who 
loses after floods and other disasters: Rich people get richer after a 
storm, and poor people get poorer.
    ``That's particularly true along racial lines, along lines of 
education, as well as homeownership versus renting,'' explains Howell. 
And rather than mitigating the inequity, Federal aid exacerbates it, in 
part because of the biases Payton has noticed that are baked into how 
Federal money is distributed.
    NPR examined one Federal disaster program and found evidence of 
exactly that phenomenon. The program uses Federal and local money to 
purchase homes that have flooded or been affected by other natural 
disasters and permanently turn the lots into green space to reduce 
flood risk.
    The buyouts are voluntary, and the homeowner can use the money to 
move to a safer place. As climate change drives more extreme rain, 
David Maurstad of FEMA says he expects the program to grow more in the 
coming years.
    But buyouts have disproportionately gone to whiter communities. NPR 
analyzed records of about 40,000 property buyouts funded by FEMA and 
State and local governments and found that most of them were in 
neighborhoods that were more than 85 percent white and non-Hispanic. 
For context, the Nation as a whole is 62 percent white/non-Hispanic, 
and disasters affect communities of all demographics.
                          a tale of two cities
    Hurricane Harvey in Houston was a cataclysmic event. But more 
extreme rainfall is falling all over the United States, and that means 
more flooding. The trend will continue in the coming years, and so will 
the need for disaster relief programs--and programs designed to 
mitigate damage. But even when those programs work as designed, NPR has 
found that inequality persists.
    More than 1,500 miles northeast of Houston, two towns show how 
disaster relief efforts are determined and who wins and who loses in 
the calculation.
    Manville, N.J., an hour outside Manhattan, has flooded repeatedly 
since the 1970's. On a recent tour, Superintendent of Schools Robert 
Beers drove over a bridge and into a neighborhood called Lost Valley, a 
suburban enclave of Cape Cod-style homes built in a compact grid along 
the Raritan River.
    ``This area was hit the hardest,'' he says. ``And as we drive 
through you're going to be able to see a lot of vacant homes, and areas 
that were bulldozed. Some of these open, these vacant lots here, there 
were homes here.''
    Over the past two decades about 150 homeowners in Manville have 
taken disaster buyouts, and 80 more abandoned their homes. A drop in 
household incomes followed, and home values lagged behind nearby towns.
    ``After the first flood, people began thinking, `Is it time to get 
out?' '' says Eleanor Nieliwocki, who lived in Lost Valley for more 
than 30 years. ``After the second flood, not again. And the third 
flood, we've had it.'' She finalized the sale of her house to a 
Government buyout in 2015.
    And buyouts like Nieliwocki's matter to Beers. All those vacant 
lots affect how much money his schools get. Fewer homes overall mean 
less tax revenue to fund education. Last year, Manville's public school 
system found itself battling large budget shortfalls. At the same time, 
Beers says, the schools faced new demands: Since 1999's Hurricane 
Floyd, Manville's Hispanic population had risen from 5 percent to 23 
percent.
    ``Nearly 30 percent of our students speak only Spanish at home, so 
we need to fund additional positions to transition these children and 
provide them with the services they need,'' Beers said last spring. (By 
summer, after an intense lobbying effort, Beers was able to get the 
State government to increase funding for Manville's schools.)
    And even though the buyouts in Manville hurt the tax base, FEMA 
says the strategy actually saves money in the long run. The agency says 
for every dollar spent on buyouts and other hazard mitigation programs, 
Federal taxpayers save $6 in future disaster losses. The agency has 
allocated more than $15 billion on those strategies since 1989.
    ``I think our program is achieving in Manville what it's intended 
to achieve,'' says Maurstad, who oversees FEMA's buyout program. He 
says FEMA is meeting its goals if it makes a community less risky, 
saves property, and potentially saves lives.
    And he points out that while FEMA pays 75 percent of the cost to 
buy out homes in disaster-prone areas, States and localities decide 
where they want those buyouts to occur, so demographic changes aren't 
on the Federal agency's radar.
    ``I'm not aware that there's been a specific study by FEMA or 
anyone else on the demographic distribution of [the buyout] approach,'' 
says Maurstad. ``But the approach itself is not one that would 
necessarily, intentionally lead to those outcomes.''
    Reeling from repeated floods, Manville asked the Army Corps of 
Engineers to build a flood control system to protect it. In 2016, the 
Corps said no.
    Catherine Kling, an economist at Cornell University, studies the 
kind of benefit-cost analysis the Corps does to decide which property 
is worth saving. ``The whole idea of a benefit-cost analysis is 
actually very simple,'' Kling says. ``It simply seeks to answer the 
question: If we do this project, is the total value from this project 
greater than the total costs?''
    That means that protecting 10 families in $1 million houses has the 
same value as protecting 100 families in $100,000 houses.
    In Manville, the Corps counted about 500 homes and businesses in 
flood zones and said it could protect them for about $67 million. But 
for every dollar spent on the project, only 40 cents' worth of property 
would be saved. Under Federal guidelines, that's not enough.
    ``It is completely agnostic as to who receives those benefits and 
those costs,'' says Kling. And, she says, economists assume the people 
displaced and the economic activity they generate will simply move 
somewhere else.
    Still, even if the approach is designed to avoid picking winners 
and losers, it ends up doing so anyway, favoring wealthier 
neighborhoods. ``It's also going to be [choosing] more valuable 
businesses,'' Kling says. ``More valuable real estate.''
    Indeed, if there were a climate change lottery with public funding 
as the prize, you could say Bound Brook, N.J., just 4 miles from 
Manville, hit the jackpot: a sweeping, $650 million flood control 
project whose local portion was completed in 2016. Developers followed, 
investing tens of millions of dollars.
    In Bound Brook, on a very different tour around town last summer, 
Councilman Abel Gomez detailed plans for hundreds of upscale 
apartments, new restaurants, and an expanded Main Street. ``Without 
flood control,'' he said, ``you were always the next natural disaster 
before you were wiped out.''
    But some residents worry how they will afford to live there once 
the new projects are completed. Bound Brook has one of the Nation's 
largest concentrations of Costa Ricans--enough that the country's 
president visited in 2014--and a history of alleged housing 
discrimination. The Justice Department sued the town in 2004, saying 
its housing policies discriminated against Latinos, and for years its 
housing and development practices were regulated by a consent decree. 
In 2017, a local government analysis found that households in the most 
heavily Latino neighborhoods had lower incomes and spent a greater 
portion of their incomes on housing than those in the majority-white 
area.
    Some of the newer apartments are already renting for hundreds more 
than the town's median rent.
    Francisco Morales Mora, who emigrated from Costa Rica in 1994 and 
owns a restaurant downtown, says that's too much. ``The people of Bound 
Brook are poor,'' he says. ``And unless the new [apartments] are 
cheaper, people will leave.''
    Robert Greco, the project's manager for the Corps, says the flood 
control project in and around Bound Brook protects a highly dense area 
with a range of income levels. He says it isn't intended to favor the 
wealthy but acknowledges that the project is changing the area.
    ``The Borough of Bound Brook is not wealthy,'' Greco says. ``But 
guess what, now they're building and the economic vitality is picking 
up, and it's beautiful, actually.''
    Pressed on what the new, expensive development plan might mean for 
the Latino community, Gomez, the councilman, says, ``We really, really 
hope that the Latino identity that's here remains here . . . Because 
that's key to this. It sets us apart.''
    The bigger picture around the country is that some Americans will 
be more vulnerable and some will be more resilient in the face of 
climate change. And who wins and who loses appears to mirror existing 
inequalities.
    ``Hardworking Americans who are working class are going to find 
their communities stressed even more than they are now,'' says Andrew 
Light, an editor of the 2018 National Climate Assessment. ``If you're 
already a community at risk, you're going to be at more risk.''
    In Houston, the Papadopouloses have applied for a buyout and are 
likely to be offered one if they wait long enough. It may take years.
    Janice Perry-Evans and her family are still in their rental but, 
``It is really a struggle now to stay afloat,'' she says. She plans to 
file for bankruptcy.
    And in Manville, even as the Army Corps of Engineers declined to 
build a flood control project, it predicted that ``significant flooding 
can result in municipal infrastructure damage, loss of jobs, and 
closure of businesses,'' as well as ``continued potential for loss of 
life.''
NPR's Meg Anderson and Barbara Van Woerkom contributed to this story.

    Mrs. Watson Coleman. Thank you very much.
    As I said, there are multiple reports lately regarding how 
low-income communities get the short end of the stick when it 
comes to Federal recovery dollars.
    The current system is too complex for people putting their 
lives back together to navigate. Having to apply to FEMA and 
the Small Business Administration and back to FEMA, many simply 
get discouraged and drop out of the process because of the 
unnecessary complexity.
    This is not even dealing with the fact that there is a 
perception that there is a devaluing of the loss that low-
income and minority families are experiencing.
    What I would like to know is, what is FEMA doing to 
simplify this process for disaster victims and survivors?
    Mr. Gaynor.
    Mr. Gaynor. Yes, ma'am. First, I would like to say that we 
don't discriminate for disaster assistance on race, color, 
gender, political affiliation, religion----
    Mrs. Watson Coleman. I don't want to waste my time going 
there, because the record will speak for itself. So if you 
would just tell me what you are doing, what FEMA is doing, to 
simplify the process for disaster survivors, I would be 
grateful, because I have one more question.
    Mr. Gaynor. Yes, ma'am.
    So recovery is a complex issue not only for--it is a 
complex system for everyone.
    If I can give you the example of what we are trying to do 
in Puerto Rico. We are trying to do it a little bit 
differently, what we call 428 outcome-driven recovery.
    Legacy systems typically used actual costs. Actual costs 
make recovery longer, more complicated. What we are trying to 
do in Puerto Rico, as an example of 428--and we have done it 
around the country, but I think Puerto Rico is one of the 
places where we see this benefiting everyone--is fixed costs. 
Let's agree on what it costs.
    This is how business is done in America today. It 
incentivizes the local or State or Commonwealth to actually get 
to an outcome faster. If it comes in under budget, they can use 
that money for other needs that aren't connected to the actual 
project. If it goes over----
    Mrs. Watson Coleman. I think you are answering the question 
about how you establish the value, the cost associated with 
making someone whole again. I am glad to hear that you are 
using actual costs----
    Mr. Gaynor. Yes, ma'am.
    Mrs. Watson Coleman [continuing]. Associated with that now 
as opposed to--the actual cost, the real cost.
    But what I want to know about is, what are you changing in 
your process or your requirement of these survivors to get 
access to whatever it is they are entitled to to make it less 
complex?
    Because one of the consistent complaints has been that the 
whole process has been so complex, cumbersome, and it 
discourages people from pursuing their rightful needs.
    Mr. Gaynor. Yes, ma'am. So let me just correct one of the 
things that you said. So FEMA does not make anyone whole. Our 
programs, when it comes to individual assistance----
    Mrs. Watson Coleman. OK. Whatever you do, can you tell me 
how you do it more simply for people who have found the process 
so complicated and so cumbersome that it has discouraged them 
and they have not gotten whatever it is they are supposed to 
legitimately get?
    Mr. Gaynor. So I think, in general terms, we work on this 
problem every day, so when it comes to disaster assistance, 
adding more call center takers that can take more calls and be 
more responsive is one of the things we have improved over 
time.
    Mrs. Watson Coleman. OK. So I am going to ask you, if you 
would just give us--Chairman, may I ask for a list of improved 
actions that result with the interaction between FEMA and a 
person who is seeking assistance?
    Mr. Gaynor. Yes, ma'am.
    Mrs. Watson Coleman. OK.
    Last question. I want to talk to you about Puerto Rico. 
Because my impression of Puerto Rico's issues is not just that 
Puerto Rico residents didn't know what to do; it didn't look 
like you all knew what to do.
    One of the things that you used that you said failed was, 
sort-of, satellite phones. I wonder what you would do 
differently in the future.
    I also would like to know, (A), do you agree that there are 
a lot more projects that need to be done in Puerto Rico? If so, 
could you give us a list of those and a cost of those and the 
status of those?
    Last but not least, could you quickly just tell me, given 
what we all know about Puerto Rico, what was the criteria that 
the President of the United States used to say he didn't want 
to give Puerto Rico any more money?
    With that, I yield back, if you would answer my questions.
    Thank you, Mr. Chairman.
    Mr. Gaynor. Yes, ma'am. So, first, about--we are talking 
about survival communications? Is that your question, about 
Puerto Rico's survival communications?
    Mrs. Watson Coleman. [Off-mike.]
    Mr. Gaynor. Yes, ma'am. This is a problem in all major 
disasters, is communications is key, about how we respond and 
how we solicit information for the situational awareness for us 
to make better decisions.
    So we have been focusing in Puerto Rico on more survivable 
and sustainable operational communications across the 
Commonwealth. We made a major investment in making sure that 78 
of the municipalities are connected via radio. So I think we 
have done a pretty good job there. We will continue to work on 
that. We send teams periodically to Puerto Rico to make sure 
that we address those and we test them and we evaluate them.
    When it comes to projects, I am not sure what projects you 
are talking about. Public Assistance projects?
    Mrs. Watson Coleman. Particularly.
    Mr. Gaynor. I am not sure I can answer in detail all the 
projects that are going on----
    Mrs. Watson Coleman. Not now? Not at this moment? Not here?
    Mr. Gaynor. Maybe if you could help me restate the 
question, it would be a----
    Mrs. Watson Coleman. I want to know what would it take to 
restore Puerto Rico to pre-disaster. That is individually and 
infrastructure. I want to know what the status is of those 
outstanding projects, the potential cost of them, and your plan 
of action as it relates to them.
    Then the last question was, knowing that there is still 
such a disastrous situation in Puerto Rico, could you just 
explain to me the criteria the President used to say he didn't 
want to give any more money to Puerto Rico?
    I am sorry for taking so much time, Mr. Chairman. I yield 
back after I get an answer. Thank you.
    Mr. Gaynor. Yes, ma'am. So I think we are doing hundreds of 
projects in Puerto Rico. I think I would be happy to provide 
you a snapshot of what we are doing. I don't think we have 
enough time to go into all of them, and I am not sure I have 
all the details on many of them. Again, this is an 
unprecedented disaster.
    For your last question, could you just repeat that one more 
time?
    Mrs. Watson Coleman. I am curious as to the criteria that 
the President of the United States used to determine--what he 
said was that he didn't want to give Puerto Rico any more 
assistance, that they didn't deserve it or whatever it is he 
said that was negative that indicated he wasn't desirous of 
sending any more resources there.
    Mr. Gaynor. Yes, ma'am. What I----
    Mrs. Watson Coleman. I know you didn't make the statement, 
but, since you are FEMA, I am asking you if you knew the 
criteria he used.
    Mr. Gaynor. So, whether it is Puerto Rico or the other 727 
disasters that are open today, those disasters were approved by 
the President of the United States in some administration.
    So we have the authority today, based on what the President 
approved for Puerto Rico and many other disasters in 2017, 
2018, and 2019, to deliver that disaster assistance. That is 
how we are operating today, and that is how we will continue to 
operate under the authority that we have under the Stafford 
Act.
    Mrs. Watson Coleman. I appreciate being able to ask the 
question, but you certainly have not been able to answer it.
    Thank you. I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Texas, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Appreciate you being here, Mr. Gaynor. Thank you for your 
service in the Marine Corps in Iraq.
    I am going to go into something that is close to home for 
me. I have a terrific district where I have a lot of people who 
train search-and-rescue dogs to a FEMA standard. For these 
people, it is their hobby. They take their weekends and after 
work and they go and train these dogs.
    Then when there is a disaster, they take off work. They 
literally drive hundreds of miles, if not thousands, to go and 
help their fellow Texans or fellow Americans wherever they may 
be and help recover the bodies of people who perished in the 
disaster or survivors, actually find people alive.
    Something I found when I talked to this community of great 
volunteers is that they found that when they would go to 
Galveston during a hurricane and work for, you know, days on 
end without sleeping and then they would try to go into a hotel 
to go get some rest or go to a restaurant and get something to 
eat, they were refused service because they had a dog with 
them.
    Something I was able to do in the Texas legislature, 
working with Republicans and Democrats unanimously, to allow 
those dogs, those search-and-rescue dogs, to have the same 
legal status as service animals, as seeing-eye dogs. That just 
made sense, to help those volunteers.
    I was just wondering if you could speak to us today about 
the role of these search-and-rescue dogs that are trained to a 
FEMA standard and what role they play in helping find survivors 
and finding the remains of loved ones.
    Mr. Gaynor. Yes, sir. Thank you.
    So one of our crown jewels at FEMA is our urban search-and-
rescue assets, 28 Federal teams across the Nation. There are 
many other urban search-and-rescue teams that support local and 
State. But it really is our go-to force when something really 
bad happens, especially with a collapsed structures.
    We have a Nation of great volunteers that make this all 
possible. So, whether on the Federal level or the local and 
State level, volunteers really make the magic happen in a 
disaster, to include those that have dogs. Some of these dogs 
help with the recovery of victims--again, typically, structural 
collapse.
    We could not do our job as an emergency management agency 
or as an urban search-and-rescue team without these highly-
trained animals. We make big investments both in people, when 
it comes to search and rescue, and to our animals. I think 
anything that can help make it easier on our teams and our 
volunteers to get their animals to a disaster location, I am 
all for it.
    Mr. Taylor. OK. Thank you.
    Just one thing that struck me as I talk to these volunteers 
is they say that there just aren't enough search-and-rescue 
animals that are on the payroll that the Federal Government has 
or that the city of Dallas has or--you know, we just don't have 
enough, you know, on the payroll. So you have to have this 
volunteer force that then steps in and fills the gap to help in 
this situation.
    Mr. Gaynor. Yes, sir. Any help--I think that, again, 
getting volunteer dogs or dogs that are assigned to urban 
search-and-rescue teams to a disaster, I think, would be 
helpful to all of us.
    Mr. Taylor. OK. Well, I am working on some legislation to 
try to help search-and-rescue dogs get to disaster sites, to 
give them the same--a FEMA-standard dog, to go to a FEMA rescue 
site, to be able to have the same legal status as a seeing-eye 
dog. So tying into existing Federal statute and bipartisan 
support.
    So it is a very small piece of this bigger puzzle, but I 
appreciate your comments, Mr. Gaynor, and thank you for your 
service.
    Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from New York, Miss 
Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Gaynor, I sent you a letter on May 9 of this year 
requesting some information regarding an issue that is going on 
now in my district regarding substantial damage assessments.
    As you know, we are 6 years after Superstorm Sandy, and the 
town of Hempstead, within my district, continues to face 
challenges with their disaster recovery efforts. There now 
recently, the issue that they are dealing with is how to handle 
newly-surfaced preliminary damage assessment records detailing 
what homes were badly damaged after the storm and did not apply 
for any building permits.
    What that is going to require is, thousands of homes are 
going to need to receive what they call an SDA, substantial 
damage assessment. Some of them may need to be listed as a 
result of that.
    So the purpose of my letter was to point out that it 
appears that there is a lack of universal standards for the SDA 
process and how there seems to be no universal metric standard 
for all flood plain managers who perform the SDAs. I have also 
been made aware that the extent to which a homeowner may be 
able to appeal his or her SDA depends on the local 
jurisdiction.
    So my letter asked if you could explore possible solutions 
to ensuring greater consistency in the SDA process as well as 
the SDA appeals process, and I have yet to receive a response. 
I don't know if you can respond right now or if you have the 
answers now.
    Mr. Gaynor. So I am going to have to submit for the record, 
ma'am, on some of that. I mean, I don't know the details of 
this particular issue. I will check on your letter to make sure 
that we have it and we are processing it. I will have my 
recovery experts follow up with you and your staff to make sure 
that we address your concerns.
    Miss Rice. If you could----
    Mr. Gaynor. Yes, ma'am.
    Miss Rice [continuing]. Because, literally, we are 6 years 
post-Superstorm Sandy, and people are still having these issues 
arise.
    So this was dated May 9. I can give you a copy of it now to 
make sure you get it. But I would really appreciate a quicker 
response.
    Mr. Gaynor. I will have one of my staff get the letter, 
ma'am, before we are done.
    Miss Rice. Thank you very much.
    So, now, after Hurricane Irma, FEMA emptied out its 
distribution center in the Caribbean and did not have many 
supplies in stock to respond to Hurricane Maria. We were in 
Puerto Rico with a trip with the Chairman in March, and we saw 
empty shelves and water bottles that were either expired or 
very near their expiration date.
    What are you doing to ensure that there are enough supplies 
in the area to respond to multiple catastrophic storms in one 
season?
    Mr. Gaynor. Yes, ma'am. So we have had a couple of island 
challenges, not only Puerto Rico and U.S. Virgin Islands but 
also Hawaii and Alaska--not actually an island, but same kind 
of problems when it comes to getting commodities a far 
distance.
    So, when it comes to Puerto Rico, we have made a major 
investment to make sure we have more commodities on-island. So 
where we had 1 warehouse pre-landfall Irma/Maria, now we have 
6, 1 on U.S. Virgin Islands. We have 6 times the commodities on 
hand to make sure we can deal with any new disaster or threat 
to the Caribbean.
    Hawaii, we are expanding the warehouse in Hawaii. We are 
going to double the footprint there. We have a plan on the 
books to build a warehouse in Alaska.
    What we have learned is that it is much cheaper, much more 
efficient to have those commodities as close as possible. In 
some cases, if you put it too close, you may lose your 
stockpile. Transportation costs, when it comes to, you know, 
whether it is from continental United States to Puerto Rico or 
continental United States to Guam or Saipan, is expensive.
    So we have learned some valuable lessons to make sure that 
we put some warehousing on some of these remote islands and 
locations so we can respond faster. I mean, I think we realize 
that it is just good business to do this.
    Miss Rice. I would agree.
    Your written testimony states that FEMA will modernize 
housing inspections to improve the survivor experience and 
streamline the process. I mean, I certainly welcome that 
promise, because, after Superstorm Sandy, communities in my 
district were overwhelmed with the necessary but very time-
consuming task of building-by-building damage assessments.
    So can you give us any more information about what this 
modernization might look like and how you will engage States 
and localities in the effort to make improvements?
    It would help if people who live in these areas that are 
vulnerable, if they would know the process beforehand so that 
they are not playing catch-up post-storm.
    Mr. Gaynor. Yes, ma'am. So this has been a struggle for us. 
I think, anecdotally, you could have as many as 14 inspectors 
come to your home after a disaster, not only from FEMA but from 
other agencies. We are working hard on trying to downsize that 
through technology, through mapping. We have made a big 
investment in LIDAR mapping so we can do sampling across an 
impacted area to make it faster.
    Again, I would be happy to share some of the more technical 
aspects of what we are trying to do after the hearing. But we 
know it is one of our issues that we have to resolve, because, 
again, I think our goal is to make it one-stop shopping. You 
should see one person from the Federal Government to help you 
resolve your needs. It is not there yet. We know it is a 
problem. We are working toward minimizing that interaction.
    Miss Rice. Also coordinating with State and localities 
ahead of time would be helpful.
    Mr. Gaynor. Absolutely. Damage assessment is not just the 
Federal Government out there. It is really a team effort, a 
joint--they call them joint PDAs, preliminary damage 
assessments. So local officials, State officials, and Federal 
officials go out together to look at that damage and make an 
assessment and put it in the books and then moving on so we can 
deliver disaster assistance to those disaster survivors.
    Miss Rice. Well, thank you. I will follow up with you on 
that. I look forward to an answer to my letter. Thank you very 
much.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Texas, Mr. 
Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Thank you to our witnesses for being here.
    I want to start off down a line of questioning about what 
the Federal Government is best-suited to do and what is best 
done at the State level and what kind of progress we are making 
since the DRA. In Texas, we do take on a lot of those 
responsibilities.
    This is for Administrator Gaynor and Mr. Currie. What kind 
of duplicative roles have you seen between the local, State, 
and Federal levels? What have you assessed can be devolved from 
the Federal level down to the State and local to make it more 
efficient, the entire process?
    Mr. Gaynor. I think one of our challenges as a country is 
post-disaster housing. First of all, I think no matter the 
disaster or no matter the location, it is a challenge. So 
whether it is California wildfires or Puerto Rico or Lee 
County, Alabama, post-disaster housing is an issue.
    You know, we have a capability to deliver temporary post-
disaster housing solutions like travel trailers and mobile 
housing units. We will never have enough to do that.
    So what we really want to do--and I think we did it in 
Texas with Governor Abbott about the State taking on that 
housing solution with our support. I think we really need--and 
I spoke to the Governors at this fall's NGA in the District of 
Columbia about Governors having a deliberate post-disaster 
housing plan----
    Mr. Crenshaw. OK.
    Mr. Gaynor [continuing]. That we would fund but they would 
deliver to their constituents.
    I am not sure that we are ever going to be able to figure 
out exactly what a Governor or a mayor needs. I think our 
obligation is to fund it. I think the State's obligation is to 
have a plan that is on the books that we all agree on so when 
it happens----
    Mr. Crenshaw. We are on track to get there?
    Mr. Gaynor. Absolutely. Yes, sir.
    Mr. Crenshaw. OK.
    Mr. Currie, do you have anything to add?
    Mr. Currie. One point I would make--I think you were here 
when I said the Federal Government spent almost half a trillion 
dollars on disaster relief since 2005, $50 billion on 
preparedness grants.
    So, in our view, since 9/11, with all that investment and 
funding, what we would expect over time is that we have 
addressed our capability gaps and built in enough resilience to 
where the local governments can handle more and more over time. 
But what we are seeing is the opposite. We are seeing 
additional expectation of Federal assistance over time.
    Mr. Crenshaw. Right. That is a problem. It is not a problem 
we have in Texas, thank God. We have about $12 billion in the 
Economic Stabilization Fund and then another--billions added 
biannually from the Texas budget.
    The last legislative session, my friend, Texas State 
Senator Brandon Creighton, who also represents a part of my 
district, led the passage of S.B. 7, which created a flood 
infrastructure fund and provided Texas dollars to match Federal 
funds. We just passed a $2.5 billion bond in our county for 
flood mitigation.
    So how does that compare to the rest of the States? Because 
it is a problem. We can't keep going to the Federal Government 
every single time. We have to build some resiliency at home.
    Mr. Gaynor. So I am going to continue Chris's line of 
thought about grants.
    A lot of these grants since 2005, you know--the way it 
works is that you do an assessment of your threats and 
vulnerabilities, whether it is a local or a State. The Federal 
Government gives you those grants to buy down that gap. We want 
to make sure that you are actually buying down that gap. In 
theory, over time, you buy down the gap and you move on to the 
next risk that is high; again, apply those Federal dollars to 
buy that down.
    Hopefully, if you are a State or local, you have invested 
some of your local and State dollars----
    Mr. Crenshaw. Right.
    Mr. Gaynor [continuing]. In that risk to try to offload----
    Mr. Crenshaw. That is what I am getting at. You know, I 
think, as a country, we need to come to the understanding that 
a lot of this resiliency has to be built at the local level so 
that the Federal Government is coming in when it needs to come 
in, not just as the first option.
    I want to move on to--I actually want you to continue along 
the same lines that you were talking about before with 
Congresswoman Rice about the many different agencies involved 
in the process. How are we making progress to make this more 
uniform?
    I mean, in Texas, we have been waiting on HUD money 
forever. Why can't we just use FEMA for disaster relief? Why 
are there so many different agencies coming to knock on 
people's doors?
    Mr. Gaynor. Yes, sir. So I just want to tie it back to our 
strategy. Our Goal 3 is to reduce the complexity of FEMA, and 
that could apply to help reduce the complexity of the Federal 
Government in some cases.
    So when it comes to--let's stay on housing--you know, we 
try to partner with our organizations that have Federal 
disaster programs. There are 19 Federal departments that have 
disaster programs, about 95 different programs among--I think 
it is 16 Federal departments. So we have a lot of work to do to 
make sure we blend that together.
    We are trying to do this in Puerto Rico with our outcome-
driven recovery where we are just not using FEMA money to solve 
a problem, we are using all the Federal Government money to 
solve a problem together. In some cases, you only can use, 
again, based on statutes and law, you can only use that money 
for certain things. But in our outcome-driven recovery, we are 
trying to blend that all together to get a better result for 
the American taxpayer and get a better result for the residents 
of Puerto Rico.
    You know, HUD is a great partner of ours. I think one of 
the problems that we hear across the country is, you know, HUD 
makes an announcement of a grant pretty quickly after a 
disaster, but it takes some time for a local or a State to 
actually submit a plan, get that plan back, and get that money 
on the street. It could take, in some cases, up to a year.
    We work with HUD every day in trying to make sure our 
programs are complementary and that they blend together. We 
still have some work to do, but it is a challenge.
    Mr. Crenshaw. Back to the Chairman.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from California, Ms. 
Barragan.
    Ms. Barragan. Thank you.
    Mr. Gaynor, we have seen horrific wildfires in California 
in the past few years. The lucky ones lost everything, and the 
unlucky ones lost even more than that.
    As first responders are working tirelessly to save lives on 
the ground, we have a President tweeting to withhold aid from 
survivors. It just makes me sick, and I hope it makes you sick 
too.
    Can I have your commitment right now that FEMA will not 
abandon the disaster survivors in California who are still 
struggling to rebuild their lives?
    Mr. Gaynor. Yes, ma'am. You know, we are, again, heavily 
invested in California. I actually talked to Governor Newsom 
last week about wildfire preparedness and recovery. I think we 
have a good partnership. That partnership will continue.
    I think we are all after the same things when it comes to 
making sure we keep people safe. Before a disaster--I know the 
State of California has invested heavily in pre-disaster 
mitigation when it comes to wildfire. I think the Governor is 
on the right track in doing that. They have sufficient HMGP 
money, again, hazard mitigation money, to help buy down that 
risk.
    Again, no matter if it is California or it is Puerto Rico 
or it is another State, we work in partnership to make sure 
that we get the outcome that everyone deserves and wants.
    Ms. Barragan. Great. Thank you.
    I also understand that FEMA plans to implement its National 
public assistance delivery model in Puerto Rico and will 
establish a consolidated resource center, or CRC, in Puerto 
Rico for processing permanent work requests. How does this 
differ from the process that has been used to date?
    Mr. Gaynor. Yes, ma'am. It is a great question.
    So the process that we use in Puerto Rico, the 428 
alternative process, is not changing. I mean, we have committed 
to that. The Governor has committed to that from the beginning.
    So the process doesn't change, but the way we track 
recovery is we are adding in this what we are calling the new 
PA delivery model. It has been used in more than 100 different 
disasters across the Nation. Relatively new.
    You know, our goal is to improve efficiency, accuracy, 
consistency when it comes to managing all--you can imagine the 
paperwork----
    Ms. Barragan. How is that different, though, from what is 
being used now? Like, what is being implemented?
    Mr. Gaynor. I think it was probably a manual--we have 
been--you know, the new model wasn't exactly ready when we 
started recovery in Puerto Rico. I think there was an appetite 
for both FEMA and the Commonwealth to get the model in use. So 
we put it in use in May, last month.
    We have added a new fourth consolidated resource center to 
make sure that we have more consistent technical and 
administrative review on this process.
    Ms. Barragan. So it is kind of technology-based?
    Mr. Gaynor. Yes, ma'am, it is.
    Ms. Barragan. OK.
    Mr. Gaynor. I think one of the other things that we are 
trying to do is validate as you go.
    Ms. Barragan. OK.
    Mr. Gaynor. I mentioned this before, about trying to avoid 
clawback. We don't want to do that. So sometimes it takes a 
little bit longer, but I think the end result will be better 
for everybody.
    Ms. Barragan. OK.
    Mr. Gaynor, after Hurricane Maria, many disaster survivors 
were initially denied for FEMA aid because the agency did not 
understand the housing system on the island. Now, many were so 
discouraged by the process that they simply gave up.
    What has FEMA done in terms of training or otherwise to 
ensure that differences in local laws don't mistakenly stop 
individuals from receiving aid?
    Mr. Gaynor. Are we talking about the temporary sheltering 
assistance?
    Ms. Barragan. It is generally speaking. I have been to 
Puerto Rico twice. We have heard people there basically saying, 
hey, I applied for aid, this is taking a long time, or we have 
gotten denied, and people are giving up.
    So, for me, it is trying to find out is FEMA doing anything 
in terms of its training to ensure that any differences--maybe 
they are not understanding of housing locally there----
    Mr. Gaynor. Yes, ma'am.
    Ms. Barragan [continuing]. So it doesn't prevent people 
from----
    Mr. Gaynor. So we have made an investment in case 
management in Puerto Rico. We invested about $80 million across 
all municipalities to make sure that we address--and I think 
there are about 21,000 case management cases on file right now.
    But we have invested heavily on that to make sure that we 
address any concerns a survivor may have, you know, whether 
they didn't have all the documentation in the beginning or 
there is some other issue with their application. We understand 
that this can be a problem sometimes, especially after a major 
disaster, that you don't have your hands on your records.
    So we have case management professionals across Puerto Rico 
right now handling all these cases. If there are any particular 
that you would like to address, I would be happy to get with 
you and your staff after to----
    Ms. Barragan. Great.
    Mr. Gaynor, I only have 10 seconds left. Do you believe in 
climate change?
    Mr. Gaynor. I believe that the Emergency Management Agency 
is ready to deal with any disaster, no matter the impact. That 
is our focus.
    Ms. Barragan. Are you considering climate change--maybe at 
some other time you can explain how FEMA integrates the 
consideration of climate change and extreme weather into its 
policies and programs.
    We have had hearings here on the Hill--we have had the 
military come out and talk about how climate change is a, and 
should be, considered a National security crisis. I want to 
make sure that FEMA is integrating on the consideration of 
climate change in what it is doing with its policies and 
programs.
    I am out of time, but if you could maybe respond in writing 
or at a later time, that would be great.
    Mr. Gaynor. Yes, ma'am.
    Ms. Barragan. I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Texas, Mr. McCaul, 
for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    I want to thank the witnesses.
    I was on the ground when Harvey struck. It was horrific. 
But I must say, I commend FEMA for the good work you did, pre-
positioning assets, getting advanced emergency declaration. We 
saved a lot of lives, you know, probably 20,000 lives, in that 
effort, and it was commendable. It was a joint effort--my State 
operations center, the National Guard, to the Coast Guard, to 
FEMA. I would give it an A-plus.
    I think a lot of the frustration in my State and others 
is--and I will admit, it is not really under your 
jurisdiction--has been the recovery. You have the short-term 
housing.
    But a year ago, I remember working with my leadership to 
get a $60 billion package passed by Congress. We did it in 
fairly short order after this disaster.
    We just passed another declaration disaster, as you know, 
and Senator Cornyn and myself put a provision to expedite this 
money that has been held up at HUD for a year, $4 billion to my 
State.
    Recognizing that is not completely within your land of 
jurisdiction, but, you know, how can we take a more whole-of-
Government approach--they are a partner, I think, in this 
effort. You are short-term; they are long-term.
    What can we do differently to stop this kind of--this is 
what drives people crazy, is when Congress acts, particularly 
Members who got this done, and then a year later it is still 
being held up in the process.
    Mr. Gaynor. Yes, sir. I don't want to speak for my 
counterparts at HUD. What I can tell you is that we have a 
close partnership with HUD on many different matters.
    I can't disagree that it probably takes too long. So 
whether you are from Texas or North Carolina or you are from 
Puerto Rico, you know, as an elected leader, you want to be 
able to deliver all the resources that the Federal Government 
can muster in the shortest amount of time. I think that is our 
goal.
    You know, obviously, we have work to do. Like I stated 
before, 16 other Federal agencies with, you know, in excess of 
90 different Federal disaster programs that you need to blend, 
it is a major undertaking. It is a major undertaking not only 
for a big State like Texas, but you can imagine, it is a major 
undertaking for small States that don't have that built-in 
bandwidth to manage----
    Mr. McCaul. I agree. You know, Texas is ready. I think 
Puerto Rico is caught in a different situation.
    Mr. Currie. Sir, can I say something real quick about the--
--
    Mr. McCaul. I have limited time, but go ahead.
    Mr. Currie. OK.
    On the HUD, the CDBG issue, we just issued a report this 
year, and we had a matter for Congress, that Congress needs to 
permanently authorize a program such as CDBG, because it is not 
permanently authorized.
    So every time it is appropriated funds in the 
supplementals, which it has been over 10 years, basically the 
program is created from scratch. There is a regulatory process. 
You know how long that takes. So you have to spend a year or 2 
creating the program each time to begin figuring out how you 
are going to have to use the funds.
    Mr. McCaul. I think that is an excellent recommendation. I 
was going to go to you for maybe solutions that the Chairman 
and Ranking Member can look at to make it more whole-of-
Government rather than siloed off with all these agencies.
    The last one--I have a little time--is the Army Corps. In 
1940's, they identified Barker and Addicks. They built 
reservoirs. They identified Cyprus Creek, and they were going 
to build a levy wall or maybe a reservoir, and they never did 
that. So what happened was that it basically got a watershed 
event, where it went down from Cypress to Barker, to Addicks, 
Buffalo Bayou, downtown Houston. Just a complete disaster that 
could have been prevented with proper flood mitigation 
projects.
    This thing is still being held up. It takes years to study 
before they can even build. Again, it is the same frustration. 
My constituents say, what is going to happen as we go into 
hurricane season? Are we going to have this watershed event 
again?
    So I know, again, the Army Corps is not under your--but the 
whole-of-Government approach. Maybe the GAO can look at ways we 
can fix this so it doesn't take so long.
    Mr. Currie. Yes. Well, we have, actually. That scenario is 
a perfect example about what is so difficult about mitigation 
and resilience dollars. It is so difficult, in the present day, 
to give the funding you need to prevent future damage. It is 
just human nature.
    But there are ways--like, for example, FEMA now has the 
ability to coordinate its funding with Army Corps funding to 
build levies. It used to be that that funding only had to be 
provided to Army Corps, and so what happened was is those--
there were thousands of projects across the country that were 
never fully funded. So the scenario you mentioned, those are 
all over the country. There are levy projects that have never 
been funded.
    Mr. McCaul. Well, this one is funded. I look forward to 
following, maybe, up with the two of you and Army Corps about 
how we can move the process a little faster, in addition to 
HUD.
    I thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Texas, Mr. Green.
    Mr. Green of Texas. Thank you, Mr. Chairman.
    I thank Mr. Cleaver for allowing me to exchange places with 
him.
    I would also like to thank the witnesses for appearing.
    Let me move rather quickly and ask or maybe add to Mr. 
McCaul's for edification purposes. We have a CDBG-DR bill; Mrs. 
Wagner and I have sponsored it. It actually originated with 
her. We are trying to get that done now. We would be honored to 
have your support. We will make sure that you get a copy of it.
    Because what you said is eminently correct; we do reinvent 
the wheel each time. We have institutional knowledge that has 
been lost, and sometimes it can be more difficult to reinvent 
than others. So thank you for the admonition.
    Just a quick question about shelter in place. When we hear 
these words, ``shelter in place,'' there are a good many people 
who have homes that are not suitable as a place to shelter.
    The question that I have has to do with prequalifying 
community centers, schools, and churches for shelters, such 
that people will, in a community, know where the nearest asset 
is. If we are doing it, great. I need more intelligence on how 
to get into the loop. If we are not doing it, I would like to 
be a part of getting it done.
    I will yield to you, Mr. Gaynor.
    Mr. Gaynor. Yes, sir. So I am going to put my local 
emergency management hat on. I was the local emergency manager 
in the city of Providence for 7 years.
    So sheltering is truly a local responsibility, for the most 
part. I can tell you how we did it in our community, is that 
we----
    Mr. Green of Texas. May I just intercede and ask--I assumed 
that that would be your answer. Let me just ask this question 
now.
    You have greater expertise than most local folk. As a 
result of the expertise that you have and the resources that 
you have, would legislation which allows you to work with 
locals to prequalify venues such that we don't have to, at the 
time of the incident, with all of the things that are 
happening, try to get a shelter and then get notice to people 
as to where the shelter is, would that be helpful?
    Mr. Gaynor. There may be other things that are out there 
today, sir. So I will just use what I used as a local emergency 
manager. The Red Cross has a survey team that goes out and 
certifies shelters for hurricanes. So I used that resource as a 
local, and it is available across the country.
    They have a survey sheet, they go out, you do it together, 
and you certify their shelter. If it meets the criteria on the 
shelter, it becomes an official asset of the Red Cross at the 
National level and at the local level.
    So I think it is out there. You can always get technical 
assistance from State-sheltering experts and the Federal 
Government for sheltering. I just think it is probably--we need 
to make better connections between State and local and the Feds 
on some of these issues.
    If there is a sheltering issue in your community, I would 
be happy to meet with you or your staff to see if we can, you 
know, make those connections now before we actually need to use 
that shelter in a disaster.
    Mr. Green of Texas. Here is why I am interested in working 
with you on the project. I have had churches who have 
volunteered their facilities and had damages, but they wanted 
to be of help, but getting them the necessary repairs can 
sometimes be a great challenge.
    So my assumption is that if I have the entity that is going 
to work with us after the fact, then maybe I will be prepared 
before. Are you following me?
    Mr. Gaynor. Yes, sir. Again, I would be happy to offer any 
technical assistance from the Federal Government and be happy 
to make those connections at the State and local level to get 
to your goal.
    Mr. Green of Texas. You do get requests, I assume, from 
people who have had property damage who provided them as 
shelters, this property? You do get requests from people asking 
for some help after they have made the property available?
    Mr. Gaynor. Probably, sir. I mean, I can't point out any, 
but I am sure that there are many requests for disaster 
assistance from all sorts, both public and private, for 
assistance.
    Mr. Green of Texas. OK. Well, I can tell you, you do in 
Houston, because we have a good many churches who have done 
this.
    Sir, let me ask you a quick question. Do you audit best 
practices, lessons learned? Do you audit these things?
    Mr. Currie. Absolutely.
    Mr. Green of Texas. Do you have a list of the lessons 
learned after Harvey that can be made available to me? Lessons 
learned.
    Mr. Currie. So we have a report that we issued last 
September that chronicles the response situation in Texas, 
among the other States, and what we saw as some of the good 
things that happened and some of the lessons learned.
    Also, FEMA has a comprehensive after-action report that is 
publicly available that talks about that as well.
    Mr. Green of Texas. OK. I would like to access those 
things, and I will have someone contact you.
    I appreciate--this really is an effort on my part to help 
people who really can't help themselves when these emergencies 
occur, and they have homes but they are not suitable for 
shelter.
    Thank you, Mr. Chairman.
    Thank you, Mr. Cleaver.
    I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Mr. Gaynor, thank you for being here. I appreciate the fact 
that you are well-informed.
    You know, my colleague, a few minutes ago, Miss Rice, 
raised a question about, you know, the changing environment, 
the weather issues.
    You know, yesterday, we had a number of past EPA 
administrators, Republican and Democratic, who talked about the 
dismantling of EPA.
    My issue is, I know, I mean, Cabinet members have to dance 
around the statements that the President makes that are not 
true, like the ones our Chairman asked you earlier. So I don't 
care. I just want you to--I mean, I know you are, you know, 
informed and bright--so that you run EPA in a manner with the 
understanding that we are experiencing climate change.
    I just left some world leaders meeting in the Majority 
leader's office, and they can't understand why the most 
powerful and intellectually substantial Nation is denying what 
the whole world is acknowledging.
    That is an editorial comment, and hopefully you can respond 
to that in what you do.
    The Chairman also asked about your staffing. How many 
people do you have in Congressional affairs?
    Mr. Gaynor. I couldn't tell you, sir.
    Mr. Cleaver. But it is 10? Fifteen? Twenty? I mean----
    Mr. Gaynor. It is probably 10.
    Mr. Cleaver. OK. The reason I am asking is, I represent 
Kansas City, Missouri, which is the largest city in our State, 
and so my Congressional district represents the largest city. 
When they redistricted the State, they took a portion of Kansas 
City and then put me in the rural areas, which I am 
representing the best I can.
    We have been devastated by tariffs and by flooding, as you 
probably understand. But my issue is, you know, people have 
lost their crops, I mean, their soybeans and corn. They have 
just been devastated.
    So I am out meeting with my farmers with the Governor, with 
our Governor, and they raise the questions to me that they 
raise every time a disaster hits, about the 8.9 threshold 
before they can get a FEMA emergency declaration. So, you know, 
there is just confusion. The Governor is saying, you know, I 
can't get solid information before SEMA, which is our State 
emergency system, to put it in action, because we are getting 
conflicting information.
    So I then sent a letter to you. I have been in Government a 
long time. You can't read everything, and I don't expect you 
to. I have the letter here. If you read this letter and 
memorized what is in it, you need to be on some of these game 
shows to win a lot of money.
    But what I do want is for you to convince me that you are 
going to supply us with enough staff to respond at least to the 
committee.
    The reason I am saying that, I have 50 farmers sitting in 
front of me and the Governor, my friend the Governor, and I 
said, ``Well, I will find out.'' So I sent a letter on April 
16. Then I had another meeting with my farmers. ``Well, 
Congressman, what did they say? What did they say?'' So I have 
to embarrassingly say, ``Well, I don't have an answer yet.''
    Now, even after the letter was sent, we made phone calls.
    So something needs to be put in place, Mr. Secretary, to--
this can't happen. Because, I mean, my thought, if I am going 
to get embarrassed, then I am going to embarrass Mr. Gaynor, 
but that is incongruent with who I am. So I just want you to 
fix it.
    Mr. Gaynor. Yes, sir. I hear your concerns.
    So the conduit, I think, for all these requests is through 
our Congressional affairs, the conduit. But we have thousands 
of talented staff that answer some of these very specific 
questions.
    I have not seen your letter, but I make sure I go look for 
it.
    So it gets staff to the agency to make sure that we are as 
complete and transparent about what your issue is. Sometimes 
they are easy questions; sometimes they are harder questions. I 
think we strive to make sure that we are very responsive to 
Congress to make sure that we hear your concerns and demands.
    But I will follow up on your letter. Again, we have 
thousands of hard-working experts within the agency to try to--
--
    Mr. Cleaver. I understand. I hate to cut you off, but my 
time is running out.
    When I was mayor of Kansas City, I said to the staff--I had 
6,000 staffers--``When a member of City Council sends you a 
communication, I want it turned around in 10 days.'' I mean, 
you know, if you don't turn it around in 10 days, we have a 
problem. I am just throwing that out.
    Mr. Gaynor. I hear you, sir.
    Chairman Thompson. The gentleman's time has expired.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Chairman Thompson. For the record, Mr. Gaynor, three 
Members have indicated that they have written you letters and 
have yet to get a response. All three Members are Members of 
this committee. I would hope you would go back and review how 
Congressional correspondence is handled in your operation.
    Mr. Gaynor. Sir, I hear you loud and clear.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Louisiana, Mr. 
Richmond.
    Mr. Richmond. Let me ask you a question. What is COR3's 
contract? What are the terms of their contract? Are they paid 
in cost-plus?
    Mr. Gaynor. No, sir, they are not a contractor. They are an 
element of--they are part of the Commonwealth's government. 
They are Puerto Rican employees for the Government. They are 
not a contractor. It is the Government's team that is in charge 
of recovery. They are completely part of the Puerto Rican 
Government.
    Mr. Richmond. OK.
    Now, what contractors do you have--now, by the way, I am 
from New Orleans. I have been through Katrina, I have been 
through Rita, I have been through Isaac, I have been through 
Cindy. So my experience is that you all usually have inspectors 
and other people for quality control. So who is the quality 
control in Puerto Rico?
    Mr. Gaynor. Specifically for?
    Mr. Richmond. The Government project worksheets and doing 
the inspections. Is it all FEMA employees, or have you 
contracted out some?
    Mr. Gaynor. Oh, I think the--so I think the first level of 
making sure that, you know, payments are legitimate, all the 
paperwork is there, is the government of Puerto Rico.
    Mr. Richmond. Right.
    Mr. Gaynor. So we can start at the bottom with the local 
municipality who received money. They have an obligation to 
make sure that all the paperwork is correct. They submit it to 
COR3 for review. We have a program that validates that 
paperwork to make sure, again, it is all correct.
    You know, we had Puerto Rico under what we call manual 
controls, where we really went through all the paperwork. We 
released them of that because they have an outstanding fiscal 
control plan now.
    We do sampling of some of their submissions. We will 
continue to sample that as we go, make sure that it stays 
within tolerance and that we are not paying for anything that 
we don't get.
    So it really is a process from the local through the 
Commonwealth----
    Mr. Richmond. But my question is, on the FEMA side, is it 
all done through employees, or have you contracted with third-
party administrators to do some of that work?
    Mr. Gaynor. I am going to say it is all FEMA employees. I 
don't think we contract that out. I will double-check on that, 
but I am generally confident that it is all FEMA employees.
    Mr. Richmond. Let me ask you another question. Does FEMA 
still have the policy, according to the Stafford Act, that you 
all don't spend money on permanent housing and permanent 
repairs?
    Mr. Gaynor. No, we do permanent--I mean, it depends----
    Mr. Richmond. For Public Assistance, individual Public 
Assistance.
    Mr. Gaynor. Well, individual Public Assistance is--there is 
some repair funding inside of that, but permanent repairs come 
under PA.
    But we do do permanent repairs in some cases and 
restoration. HUD actually just recently approved about $1.8 
billion for permanent work on housing that is destroyed. So, 
again, it is a team effort on who does what.
    Mr. Richmond. Well, let me give you the experience and what 
happens on the ground. So, when the storm happens, FEMA comes 
in. You all now have--and I will give you credit for developing 
the STEP program, which is the shelter-in-place program. But 
part of the hindrance with the shelter-in-place program is that 
you will not do permanent repairs because you worry about 
duplication of benefits and other things.
    So let me just give you the most egregious example I have 
ever seen in my life. In a trailer park, we spent, the Federal 
Government, $90,000 to buy a trailer, move a trailer to a 
trailer park, because we couldn't pay for permanent housing for 
the person in the trailer, when if we gave them $75,000, they 
would have bought a trailer, and they would have been out of 
our hair. They would have moved on with their future. We spent 
$90,000 to get it there. We paid to remove it. Then we have to 
give the family Public Assistance to help.
    This is not necessarily just a FEMA problem; it is a 
Stafford Act problem. So what I am asking you, as the 
administrator, is to help us help you. But what I need from you 
is honest answers about not being able to invest in permanent 
housing.
    So is that still a problem in rapid recovery?
    Mr. Gaynor. So I think it is a process. I think one of the 
things that happens right after disasters is we want to make 
sure that disaster survivors have a warm, safe, and dry place 
to go. So we do that through individual assistance. You can get 
temporary sheltering in hotels, or you can get money for 
temporary repairs. In Puerto Rico, we had----
    Mr. Richmond. But, see, you just said it. ``We can put you 
in a hotel. We can pay for temporary repairs.'' You are missing 
my whole point. Why just pay for temporary repairs? Because we 
are spending the money twice.
    So when you do shelter in place, you put up a 2x2 square of 
Sheetrock behind an outlet so that you can put the outlet cover 
on so that people can have electricity. So then when we pay for 
the permanent repairs, you have to go back in, take Sheetrock 
out, take out the temporary bathroom unit, take out the 
temporary refrigerator unit.
    Why, in the beginning, can't we make an assessment of how 
to spend taxpayer money the best? What I want to do is partner 
with you so we can take all the foolishness out of the Stafford 
Act to allow you to be able to be more efficient.
    I am not saying it is your problem. What I am saying is it 
is a problem, but in order for us to fix it, you have to, No. 
1, be honest about it, and, No. 2, articulate it so that we 
know we are not spending money, time and time again, just to go 
back and rip it out.
    So, you know, blue roofs are great, but a real roof is 
better.
    Mr. Gaynor. Again, I understand it. I would be happy to 
work with you on your staff on maybe some ideas, where we can 
streamline.
    This is a challenge, no doubt, right? So you bring up 
points that we have heard before, and we need to do some work 
to improve how we deliver that post-disaster housing. I would 
be happy to partner with you and your staff on how we can make 
that improvement or change the Stafford Act to reflect a more 
common-sense----
    Mr. Richmond. Well, unfortunately, we have a lot of 
experience with it, and we will absolutely take you up on how 
to improve it. Thank you.
    Mr. Gaynor. Thank you, sir.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from New York, Ms. 
Clarke.
    Ms. Clarke. I thank you very much, Mr. Chairman, and I 
thank our Ranking Member, for holding this hearing today.
    We are discussing FEMA's readiness for future disasters, 
and I represent central Brooklyn, New York. I have first-hand--
I have seen first-hand the importance of effective disaster 
response efforts when Superstorm Sandy devastated my district. 
Lives were lost and lives were upended, homes and critical 
infrastructure, including subway tunnels, flooded, and the 
recovery process continues to this day. That's why I know FEMA 
cannot be an afterthought at DHS.
    The President may want to make immigration enforcement the 
Department's top priority, but the work FEMA does can mean the 
difference between life and death when a storm strikes.
    This important mission is why it is essential that FEMA 
remain apolitical. With the threat of climate change leading to 
rising sea levels and higher ocean temperatures. Superstorm 
Sandy will not be the last natural disaster to hit Brooklyn. 
Yet, instead of acknowledging this reality, FEMA's 2018 through 
2022 strategic plan removed mentions of climate change, 
including prior iterations of the strategic plan.
    How do we confront a threat as serious as climate change 
when you refuse to recognize its existence? I have a couple of 
questions for you, Administrator Gaynor.
    As I mentioned, the strategic plan removed mentions of 
climate change, including--and prior iterations of the 
strategic plan. Do you believe that climate change is real and 
caused by human greenhouse gas emissions?
    Mr. Gaynor. Ma'am, I am not a scientist, but what I do know 
is that FEMA is ready to respond to any disaster within the 
United States, no matter of its cause. I mean, that is what we 
focus on every day. That is what we try to do every day to an 
excellent level. I will leave it at that.
    Ms. Clarke. OK. It would be good if you consulted with 
scientists, since you are not one, because it is becoming 
evident. What we can do now is prepare in advance for hurricane 
season. Some of the work that we are talking about today are 
things that the--that FEMA should be working on as we speak, 
because hurricane season is just around the corner.
    Mr. Gaynor. Yes, ma'am. I want to give Congress credit for 
passing the DRRA back in October. I think one of the things we 
can make a major difference is in predisaster mitigation. We 
are trying to reduce the risk before any disaster. I think that 
is really our goal as FEMA and the emergency management 
profession.
    Ms. Clarke. So we both agree that, inevitably, there is 
going to be disaster.
    Mr. Gaynor. There is going to be disasters, yes, ma'am.
    Ms. Clarke. Absolutely.
    So after Maria hit Puerto Rico and the U.S. Virgin Islands, 
President Trump tweeted that the Dems want to give them more, 
taking dollars away from our farmers and so many others. 
Apparently, he forgot that Puerto Ricans are U.S. citizens.
    What was the response within FEMA to this? I mean, are you 
in any conversation with the administration? You have got work 
to do on the ground. To get a diversion of dollars or to have 
false choices, I--can't meet the needs of Americans, right?
    Mr. Gaynor. So, ma'am, we have, today, 727 open disasters 
dating as far back as the year 2000. All those disasters from--
--
    Ms. Clarke. So it is getting compounded, then. What you are 
saying to me is that the challenges that we face with respect 
to these natural disasters hitting are becoming compounded. 
Because I know that in Brooklyn, you know, Superstorm Sandy, 
people are still recovering from that. So you are seeing a 
compounding of disaster relief or recovery efforts.
    Mr. Gaynor. Well, I mean, I think, you know, the record is 
the record. I mean, disasters have happened for thousands, 
millions of years. They will continue to happen.
    Ms. Clarke. Yes. But we have recovered from those a 
thousand years ago. We are talking about modern day.
    Mr. Gaynor. Yes. So, again, we are recovering and--you 
know, over 700 disasters today, to include Puerto Rico and 
other places.
    You know, again, I think part of what we want to do is make 
sure that we invest in predisaster mitigation before it 
happens, because we know from all the disasters that we have 
gone through, that we will pay any amount of money 
postdisaster.
    Ms. Clarke. An internal FEMA report last summer discussed a 
number of the shortcomings of the Maria response efforts, 
including the lack of supplies on Puerto Rico before the storm, 
unqualified staff, and challenges with delivering emergency 
supplies. But can we feel confident that these same problems 
would not occur if another storm were to hit the island this 
summer?
    Mr. Gaynor. If I can just pick on the commodities part of 
your question. Today, we have 6 more--6 times more commodities 
on Puerto Rico and the U.S. Virgin Islands than we did pre-
landfall of Irma and Maria.
    Ms. Clarke. So you feel the confident that the same 
problems would not reoccur if another storm were to hit this 
summer?
    Mr. Gaynor. I feel confident that we are as ready as we can 
be. We try to be more ready every day.
    Ms. Clarke. But the same problems would not occur.
    Mr. Gaynor. I believe the same problems would not occur.
    Ms. Clarke. OK.
    Mr. Gaynor. Although no two disasters are the same.
    Ms. Clarke. Well, hurricanes hitting islands, they tend to 
have the same outcomes.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Florida, Mrs. 
Demings, for 5 minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman. I would love 
for you to say from Florida again.
    My question, of course, is to Mr. Gaynor. You know, I heard 
you say that for a thousand years, I mean, hurricanes will hit, 
and, certainly, I am from Florida, and I know that. I grew up 
in Florida.
    While maybe God controls hurricanes and when they hit, you 
are to control our responses to them and help people recover as 
quickly as they can. Let's make that a better process and a 
seamless process. We all need to be concerned about that. I 
don't think you would be in the position that you are in if you 
were not.
    As Members of Congress, we just want answers so we can 
thoroughly and faithfully represent the people in our various 
districts. That does cross all political lines.
    My question for you, Mr. Gaynor, today will focus on FEMA's 
cooperation with utilities following disasters. You know, I 
have some painful memories of Charley, Frances, Jeanne, Irma, 
and Michael in Florida. You know, if you don't know it, you 
heard, the devastation that they caused and the number of 
people that were impacted.
    In 2018, as you have already talked about, that Congress 
sought to streamline FEMA's reimbursements to ensure that 
utilities were fairly and expeditiously compensated for power 
restoration. Many States, as you know, do things differently. 
However, many utilities in my home State of Florida still 
report delays due to repeated audits and consistent cost 
packaging methodology and other delays.
    So for the record, Mr. Gaynor, could you please clarify, 
when are funds obligated to a pass-through entity? Are funds 
disbursed to a subrecipient insulated from recall without an 
audit?
    Mr. Gaynor. So let me just go back on a couple of comments 
that you made. So recovery is a FEMA--you know, we own some of 
that, but really is a process that takes local, State, and 
Federal----
    Mrs. Demings. How well I know. I do know that, yes.
    Mr. Gaynor [continuing]. To recover, so it is just not FEMA 
recovering.
    Mrs. Demings. Right. But everybody--FEMA certainly plays a 
major role in that recovery process.
    Mr. Gaynor. We do.
    Mrs. Demings. Is that correct?
    Mr. Gaynor. We do. We support----
    Ms. Clarke. OK. Would you please answer the question that I 
asked you, only because my time is extremely limited and I need 
to hear your answer to the question that I asked.
    Mr. Gaynor. I think I am trying to answer it.
    Mrs. Demings. OK. Please go ahead.
    Mr. Gaynor. In recovery, we are trying to support the local 
elected officials' recovery plan. So whether it is in Florida 
or a county in Florida or it is a State, we are supporting that 
recovery plan. It is not a Federal recovery plan. You are 
absolutely right, we have a major role in that, in funding 
recovery, to make sure that we all, you know, recover as 
quickly and as efficiently as we can.
    The other part of your question about utilities. Can you 
just----
    Mrs. Demings. When are funds obligated to a pass-through 
entity? Are funds disbursed to a subrecipient insulated from 
recall without an audit?
    Mr. Gaynor. No. I think all funds are subject to audit, no 
matter what level and to what entity that receives them. I 
think that is just part of Federal statute.
    So the way it works is that we don't--the Federal 
Government does not get in any direct relationship with anyone 
other than the grantee, in this case, whether it is the State 
or a local or a county. All the business dealings with who you 
hire or contractors that are doing work for you, between the 
contractor and the local entity that hires them.
    We run a program that is based on reimbursement. So if 
there is an issue about a certain contractor or a certain 
project, that is between--we will make it simple--the State and 
whoever they are doing business with at the local level.
    Mrs. Demings. OK. Let me ask you this. What is FEMA doing 
to ensure that States have adequate assurance that, barring 
fraud or misconduct, FEMA or OIG will not recall reimbursements 
in the way that FEMA initially packaged or approved them?
    Mr. Gaynor. I am not--I have to go back on what our 
authority is on that, but I am going to say that whether it is 
the OIG or the GAO or another Government entity that is looking 
at how money was spent, I think they are going to look at 
whatever they want to look at to make sure that there is----
    Mrs. Demings. How do you believe, personally, Mr. Gaynor, 
based on your expertise, that we can streamline the process 
so----
    Mr. Gaynor. Well, I think--and the only issues----
    Mrs. Demings [continuing]. Those local and State government 
officials and entities that you have talked about can restore, 
bring restoration to people that are suffering? How do you 
think we can streamline the process?
    Mr. Gaynor. So I think we are trying to do that both in 
Harvey, Irma, and Maria with validate as you go. So typically, 
in a recovery, you know, in a traditional way, a legacy way, we 
would wait till the end of recovery before we start validating 
paperwork. That could be years in the making. So trying to go 
back and find a piece of paper from 5 or 6 years ago typically 
leads from de-obligations, a clawback of that money. That is 
not good business practice. We realize that.
    So we have a program, validate as you go, we are using it 
in Florida, to make sure we just do it in quarters, right? So 
we are going to validate every quarter. We are going to make 
sure it is completely audit proof, and we are going to move on. 
That is how we are doing it today.
    Mrs. Demings. OK. So that is--I am sorry, Mr. Chairman, I 
am out of time.
    Chairman Thompson. Are you satisfied?
    Mrs. Demings. Well, if I could just--one more, please.
    That is something that we are doing. Thank you.
    Mr. Gaynor. Yes, ma'am.
    Mrs. Demings. What additional ways do you believe, based on 
your expertise and knowledge and experience with the process, 
do you believe that we can utilize--you can utilize to 
streamline the process even further to make it more efficient?
    Mr. Gaynor. If we take a step back, I think recovery, no 
matter where it is applied, is complex. I think, again, we 
recognize that in our third goal of our strategic plan that 
we----
    Mrs. Demings. But jurisdiction shouldn't be bogged down 
because of paperwork redundancy. We ought to make the process 
more easier, not more complicated and difficult. Would you 
agree with that?
    Mr. Gaynor. So I would--again, you know, as emergency 
manager in a local and State, I want to make it easy on myself 
as possible. But I don't want to subject myself to an audit 
that results in a clawback where you have to go tell your mayor 
or your Governor that you are losing $20 million. So there is--
--
    Mrs. Demings. I am sorry. When I was saying easier, I was 
actually talking about the people who are suffering from----
    Chairman Thompson. The gentlelady's time has expired.
    Mrs. Demings [continuing]. Damage from a hurricane.
    Thank you so much, Mr. Chairman, for your endurance.
    Chairman Thompson. The Chair recognizes the gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    To Mr. Currie, one of the things that the GAO found was a 
lack of capacity with FEMA. Would you just restate that, 
please?
    Mr. Currie. Sure. What 2017 showed, because of the 
sequential disasters, is that they lacked enough staff with the 
right skills and resources to cover all those disasters.
    Ms. Jackson Lee. Obviously, many of us face hurricanes 
every season. My district was pointedly hit, devastatingly hit 
with Hurricane Harvey. To date, we are still recovering. You 
can't go through neighborhoods that are not trying to nail up 
and nail down and as well getting ready for hurricane season of 
2019; 2018, we like to say we missed the bullet.
    My question to you is, do you also think that FEMA lacks 
the expansive resources that is represented by now the 
seemingly increasing and very diverse, meaning regionally 
diverse, you are either in hurricanes, tornadoes, flooding, 
hurricanes, or tornadoes turned to flooding, do you think there 
is a question of resources?
    Mr. Currie. Absolutely I think there is a question of 
resources. I think that--I think we are just hoping and praying 
that, frankly, there is not, you know, another couple 
catastrophics this year on top of what Mr. Gaynor said was 
managing 700 or more open disasters right now.
    Ms. Jackson Lee. Well, first of all, thank you for your 
detailed work. We would do wise to follow your roadmap that you 
have given us.
    One of the other questions I wanted to pose, and I will 
pose to Mr. Gaynor, but I have always found when I am on two 
phones in the command center, the dichotomy between the State, 
the way they have it, having to ask the Federal Government and 
FEMA to come or to do something, local officials completely 
baffled. I remember getting a call from a mayor who was not 
even in my jurisdiction who was fighting with the State because 
he wanted to use barges because his whole public housing has 
gone under water. He couldn't get permission from the State 
that then was trying to deal with FEMA.
    So do you think--I think the question on GAO, the 
streamlining, the sort-of allowing the jump start maybe of a 
local official being able to trigger what is needed and the 
affirmation of the State, streamlining it where people are on 
the ground suffering, drowning, if you will, don't have any 
housing, and you have to wait through this bureaucracy in the 
middle of an emergency.
    Do you think we need to do better than that?
    Mr. Currie. I totally understand the scenario you are 
talking about, and I can see where that would be a challenge.
    I have to say, to FEMA's credit, when you look at their 
preparedness and response areas, they are engrained with the 
State and the local communities, and they are in lock step with 
them. I mean, I travel around. I go to these disaster locations 
numerous times. I hear it from State and locals that they are 
there when they need them, and they usually get what they need.
    I think what you are talking about, though, would require a 
change in the existing structure, which is that needs come from 
the lowest level and work their way up to the process. FEMA, as 
Mr. Gaynor said, has to react to the formal request from the 
State before it can actually activate the Federal resources.
    Ms. Jackson Lee. I know they were both being entrapped by 
that, and there are good people on the State level, but it 
creates an enormous problem.
    Let me ask Mr. Gaynor. First of all, let me thank all of 
the many FEMA employees that I have worked with. Let me site 
Mr. Jason Nelson, who I think has been at FEMA before FEMA 
started, and he has been a giant in many different disasters. 
Many others have been stupendous. Thank you for your service.
    But let me frame for you an approach that I think the 
community is asking for. No. 1, the idea of creating the 
opportunity for FEMA to pre-educate States and local 
governments on what to ask for. One of the problems is the 
slowness in getting back to you is that what you usually say--
when I say you, FEMA--what do you need. So to be able to help 
educate them predisasters, would that be helpful?
    Mr. Gaynor. Yes, ma'am. We have a pretty robust training 
capacity within FEMA.
    Ms. Jackson Lee. But we could do more.
    Mr. Gaynor. We could always do more.
    Ms. Jackson Lee. I have quick questions, so that is a good 
answer that you gave.
    The other thing is, that I found in Hurricane Harvey, there 
is a time when you come in immediately to deal with the people, 
you know, drowning, people in shelters. Then there is a long 
period of time. What happens with that is FEMA has a time when 
they are no longer there. People use the word FEMA, and they 
find a sense of comfort.
    So think of this in this manner, if we were able to help 
you do, first, a rescue appoint, where you have people coming 
in, and then give you the ability to have a long-term recovery 
where you make an ultimate decision as to when it is 
appropriate to leave. That is different from what you have now. 
How could you work with that?
    Mr. Gaynor. So, ma'am, I think I am fortunate to have been 
a local emergency manager and a State emergency manager and now 
at the Federal level. So, I mean, I have kind of seen it from 
all angles.
    This business of emergency management is a partnership from 
the lowest level, whether you are in a one-man office in the 
middle of South Dakota or you are in a big office like Texas 
Emergency Management working for Nim Kidd, it is a partnership 
on all levels. We rely--as the State director, I relied on my 
local emergency management capacity to make sure that they had 
capacity at the local level.
    Ms. Jackson Lee. My time is ending. I think the question 
that I am just trying to finish on----
    Chairman Thompson. They have called votes.
    Ms. Jackson Lee. Right.
    So let me get his last question.
    What I am trying to say, if we had a component where FEMA 
was on the ground for a longer period of time under the 
umbrella of recovery, could that be helpful in the idea of 
disasters?
    Mr. Gaynor. It could be. I hate to say no, and I don't 
really want to say yes, because every disaster is unique. I 
would be happy to work, I think, with your staff to get to like 
some of the specifics that you are trying to get at to maybe--
--
    Ms. Jackson Lee. For those of us who have been in disasters 
believe it would be helpful. I thank the Chairman. We are 
adding money in this particular initiative. But you need to be 
able to admit that people are looking for FEMA 6 months down 
the road, and you are not there.
    I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from New Jersey, Mr. 
Payne.
    Mr. Payne. I will be very brief, Mr. Chairman.
    We don't have very much time. We have to go vote. So I will 
just--really just ask this one quick question.
    Mr. Gaynor, in my capacity as Chairman of the Emergency 
Preparedness Subcommittee, you know, I have been advised that 
FEMA is unwilling to provide a hearing witness after receiving 
almost 2 months' notice for two of my subcommittee hearings. 
Are you aware of that?
    Mr. Gaynor. No, sir. Can you be more specific on----
    Mr. Payne. On two occasions, I have had subcommittee 
hearings of the Emergency Preparedness, Response, and Recovery 
Committee, which you come under that purview, and have not been 
able to get a witness to come from FEMA. That is a problem.
    Mr. Gaynor. Sir, this is the first I have heard of it. I 
will connect with your office to make sure that is rectified 
immediately.
    Mr. Payne. OK. I will yield back, sir.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Mississippi.
    Mr. Guest. Yes, sir, Mr. Chairman. At this time, I would 
ask unanimous consent to enter into the record a chart 
illustrating the various commodity stocks within Puerto Rico as 
provided by FEMA. This is in response to some questioning that 
Miss Rice asked Acting Secretary Gaynor.
    Chairman Thompson. Without objection.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Thompson. I have similar insertions into the 
record. A letter from Oxfam, an article on The Politics of 
Poverty, as well as a letter from Childcare Aware of America 
testimony.
    Without objections.
    [The information follows:]
   Letter From OXFAM Submitted For the Record by Chairman Bennie G. 
                                Thompson
                                     June 12, 2019.
The Honorable Bennie G. Thompson,
Chairman, Committee on Homeland Security, U.S. House of 
        Representatives, Washington, DC 20515.
    Chairman Thompson and Members of the committee: Thank you for the 
opportunity to submit this letter as Testimony for the Record for 
purposes of your upcoming hearing on ``Assessing FEMA's Readiness for 
Future Disasters.''
I. Oxfam America response in Puerto Rico
    Oxfam America is non-partisan organization, part of a confederation 
of 20 independent charitable organizations focusing on the alleviation 
of global poverty, led by Oxfam International. Founded in 1942, Oxfam 
is a strong independent voice for effective foreign assistance around 
the world. Oxfam America's emergency humanitarian assistance and 
development work is primarily focused internationally, but in the 
aftermath of Hurricane Maria the situation was so dire that we quickly 
launched an emergency assistance program in Puerto Rico aimed at 
addressing critical gaps in highly vulnerable communities. We have been 
working on the island, initially focused on emergency response and now 
on recovery including the shocking realities faced by Puerto Rican 
families due to high levels of poverty and inequality.
    During the emergency response phase, Oxfam America worked with 
local partners to attend to immediate needs (see attached leaflet on 
Oxfam America's work in Puerto Rico). As detailed in the leaflet, we 
distributed water filters, provided public health education and held 
workshops to train on low-cost methods for water treatment and rapid 
water testing, provided security through the distribution of solar 
thousands of solar lights and supported Casa Pueblo's efforts to bring 
wide-spread alternative energy. Also, we led a research project on the 
gendered impact of lack of water and WASH (water, sanitation, and 
hygiene) on women in rural Puerto Rico, funded partners that provided 
legal aid to families for their claims and appeals with the Federal 
Emergency Management Agency (FEMA), and commissioned a groundbreaking 
report, ``Women and their voices: Strategies for survival and common 
strength after Hurricanes Irma and Maria.''
    As part of our response to the emergency, it has been a priority 
for Oxfam to empower local actors, and that includes making sure their 
voices are heard. We were among the first organizations to bring the 
voices of Puerto Ricans directly to Capitol Hill, where we illustrated 
the full impacts of the storm, and advocated for swift and equitable 
recovery funding. We participated in various coalitions, and hosted 
numerous delegations in Washington, DC which featured local leaders 
from Puerto Rico who made their case directly to Members of Congress, 
Congressional staffers, and high-level FEMA and HUD officials. We are 
continuing that work now, determined to help Puerto Rico tackle the 
underlying conditions of poverty, inequality, and vulnerability that 
have been exposed after Hurricane Maria and find long-term solutions.
II. Oxfam America's observations and recommendations
    During all these efforts, one of our main findings has been the 
inadequacy of the Federal Government. response to the emergency and 
recovery process. For this reason, we are very grateful for your 
continued commitment to investigating the events, the adequacy of FEMA 
actions, and to take affirmatives steps so that this does not repeat 
itself in the future. In the next paragraphs we share our observations 
on the Federal Government response to the emergency in Puerto Rico. 
Thank you for considering these observations and suggestions. We look 
forward to our continued collaboration as we work together toward 
identifying effective solutions with the people of Puerto Rico.
    When Hurricane Maria tore through Puerto Rico on September 20, 
2017, it did more than rip off roofs and topple power lines: It 
destabilized every aspect of life for more than 3 million residents. As 
the new hurricane season began in June 1, and despite the wide-scale 
repairs and rebuilding, the water and power infrastructure continue to 
be fragile and vulnerable to even light winds, service is frequently 
intermittent and most people live afraid of the threat of future 
storms. Moreover, the Puerto Rico government reports that 30,000 houses 
still have temporary blue tarps as roofs, and direct accounts from our 
partners on the island attest to the slowness of the recovery process, 
especially with respect to the most vulnerable communities.
    Nayda Babonis, an attorney and community leader in one of 8 hard-
scrabble barrios along a central canal in San Juan, talked to us about 
the legacy of Hurricane Maria on communities across Puerto Rico (please 
see attached article for the full interview). To this day, Babonis 
explains that people experience--and feel--insecurity in many aspects 
of their lives. She also tells us that, after FEMA denied more than 
half of all individual claims for assistance, people have been left to 
pick up pieces of material from the street--wood or aluminum--and try 
to repair their roofs or structures on their own. It is obvious, as she 
states, that ``any big wind would just rip off those repaired pieces''.
    Therefore, almost 2 years after the 2017 hurricanes, the recovery 
process is extremely slow, with only $1.5 billion of the CDBG-DR money 
obligated, and only $80,000 actually spent in this phase of the 
recovery. It is incredible to hear from our partners that even now, 
people are still appealing FEMA's high number of denials based on the 
``ownership not verified'' situation that they have worked so hard to 
solve. This slow recovery process, due in large part to the bottlenecks 
in bureaucracy and the inaction of Federal authorities, is inexcusable 
and is causing harm to hundreds of thousands of the most vulnerable 
persons on the island.
A. Backlogs and bottlenecks
    In the Federal Government, concerns over misuse of Federal funds 
has resulted in onerous planning and disclosure requirements in Puerto 
Rico that are not required for other States. This effect can also be 
seen at a local level in Puerto Rico, where the same concerns have 
produced a hyper-centralized monitoring and accounting systems where 
decisions are made through a single chain of command, creating huge 
backlogs and funding bottlenecks. Clear example of this is the 
duplication of processes and lack of communication between FEMA and the 
COR3 office. Specifically, there have been reports of double reporting 
requirements from municipalities to FEMA, the COR3 and even to the 
Fiscal Oversight and Management Board (FOMB).
    Also, there have been delays in reimbursement by FEMA to Puerto 
Rico municipalities for emergency-related work. We are hearing this is 
a continued problem. For example, we have heard that the municipality 
of Villalba has to date received about 90 percent of reimbursement for 
debris pick, and only about 43 percent of reimbursement for other 
emergency-related work. Furthermore, the centralized government system 
excludes communities from program design, does not take advantage of 
the local historical/institutional knowledge on recovery processes, 
local responsibilities on water management and the incorporation of 
local actors in order to insure effective mitigation for resilient 
reconstruction.
    Therefore, there is an immediate need to shift focus to 
accountability and transparency mechanisms instead on monitoring and 
accounting systems. The Federal Government must require public 
engagement throughout the process of Federal spending through the 
diverse grants provided by Federal agencies and insure continuous 
feedback loop on whether programs are meeting community needs and 
objectives. This cannot be achieved with the hyper-centralization 
created through the creation of COR3 in Puerto Rico, and the Federal 
Government should take affirmative steps to require civic society 
engagement through the creation of an entity that would empower 
stakeholders, oversee process and counterbalance the drawbacks of 
government centralization.
    The necessity to do this type of work-group was realized in the 
aftermath of Super Storm Sandy, when the Federal Government created the 
``Hurricane Sandy Rebuilding Task Force'' that worked together with the 
offices created by New York and New Jersey for the recovery and 
rebuilding through a managed participatory approach.\1\ Puerto Rico 
local actors, municipalities, non-profits, community leaders, and other 
important organizations have the capacity and knowledge to steer this 
recovery process in a more effective and agile way.
---------------------------------------------------------------------------
    \1\ Simon McDonnell, Pooya Ghorbani, Courtney Wolf, Maria Jessa 
Cruz, David M. Burgy, Swati Desai, Daniel Berkovits, Renata 
Silberblatt, ``A Managed-Participatory Approach to Community, The 
Nelson A. Rockefeller Institute of Government, May, 2016. HURRICANE 
SANDY REBUILDING STRATEGY, Stronger Communities, A Resilient Region 
Presented to the President of the United States, https://www.hud.gov/
sites/documents/HSREBUILDINGSTRAT- EGY.PDF.
---------------------------------------------------------------------------
B. Lack of local participation in Federal contract spending
    Another important issue affecting real recovery in Puerto Rico is 
the lack of local participation in Federal contract spending. At this 
point, 90 percent of Federal contract spending for disaster relief and 
recovery have been awarded to firms in the mainland. Local businesses, 
organizations, and municipal governments are not being able to meet 
reimbursement requirements, nor do they have large lines of credit 
accessible. These contracting requirements, therefore, impede the 
effective implementation of priority contract spending to local actors.
    FEMA requires that priority be given to local contractors and to 
local production, supply, or distribution chains. Nevertheless, since 
local businesses and organizations cannot comply with the requirements, 
the priority in only producing for the people and the economy of Puerto 
Rico a high quantity of low-paying jobs. The same thing is happening 
with HUD's Section 3 requirement that training and job opportunities be 
made available to low-income resident. As a result, Federal monies are 
not working to boost local economies and they are retained by companies 
that do not possess real local knowledge needed for effective solutions 
or resilient development. By not harnessing local capital (knowledge, 
resources, and capacities) Puerto Rico will not be able to really 
recover and attain the resiliency needed to face future emergencies 
that can happen in the island.
    There can be different options and creative fixes for this dilemma. 
We propose that the Federal Government support and promote options like 
the creation of Community Development Finance Institutions (CDFI's), 
create trust organizations that provide lines of credit and 
accompaniment to local businesses and organizations, and of course 
revise stringent requirements as they might not be necessary in the 
disaster recovery context. The whole purpose of Federal spending in 
disaster recovery is to permit localities to rebuild homes, 
infrastructure and their economies in a resilient manner which can 
withstand future disasters. The contracts should just be based in the 
capacity of local businesses and organizations to do the job required, 
instead of requiring liquidity, while at the same time promoting 
capacity and development oflocal economic growth.
C. Holding FEMA accountable for obstructionism
    It is reported by FEMA that around 60 percent of persons who 
applied for individual assistance in Puerto Rico were rejected, and 
that 75 percent of those who appealed those rejections received another 
denial from the agency. It is no coincidence that almost 2 years after 
the hurricane there are estimates that account to 30,000 homes still 
having blue tarps as roofs. We also receive reports from our partners 
of the desperation caused by the lack of resources to be able to fix 
destroyed roofs and walls, while the hurricane season just began.
    Many of these denials by FEMA could have been avoided. A very 
important quantity of them were due to FEMA's refusal to recognize 
local landownership laws and practices. Even after advocates worked 
with FEMA to create a tool to help survivors overcome these barriers, 
FEMA has failed to notify survivors. FEMA also refused to disclose 
information about these survivors so that local advocates can access 
them.
    Congress must demand that FEMA work with community groups to 
promptly identify and facilitate reapplications. Groups and 
organizations have already done this work with their limited resources, 
and with an effective collaboration of FEMA it might be possible to 
help a higher proportion of the population. Looking onwards, it is 
imperative to pass the Major Housing Victims of Major Disaster Act 
(introduced last session by Rep. Espaillat and Sen. Warren), which 
would codify the use of alternative affidavits of ownership and amplify 
the types of documents that will permit survivors to prove their 
claims.
    Will people ever feel secure again? Mental health issues and the 
increase in suicide cases in Puerto Rico are a clear reflection and 
result of the urgency of all the situations outlined in this letter. 
Oxfam America will keep working with you and our partners in the ground 
in Puerto Rico to help their voices be heard and effective solutions to 
be identified and applied. We are able and ready to work hand-in-hand 
with the committee on executing the above-mentioned proposals. Thank 
you for the work you are doing and for the space of collaboration you 
have provided to us in order to make sure these challenges get solved 
and are not repeated again. U.S. institutions must do so much more to 
ensure that the most vulnerable receive the assistance and protection 
they need.
            Sincerely,
                                        Adi Martinez-Roman,
                 Senior Policy Analyst--Puerto Rico, Oxfam America.
                                 ______
                                 
    Article Submitted For the Record by Chairman Bennie G. Thompson*
---------------------------------------------------------------------------
    * The information is also available at https://
politicsofpoverty.oxfamamerica.org/2019/05/still-rebuilding-after-
hurricane-maria-puerto-ricans-dread-the-start-of-a-new-hurricane-
season/.
---------------------------------------------------------------------------
 Still rebuilding after Hurricane Maria, Puerto Ricans dread the start 
                       of a new hurricane season
May 31, 2019, Posted by Mary Babic
    When Hurricane Maria tore through Puerto Rico on September 20, 
2017, it did more than rip off roofs and topple power lines: It 
destabilized every aspect of life for more than three million 
residents. As the new hurricane season begins on June 1, we all want to 
know: Where are the billions in Federal money that can help rebuild and 
heal the island?
    When Nayda Bobonis talks about the legacy of Hurricane Maria on 
communities across Puerto Rico, the word ``security'' pops up a lot. To 
this day, says Bobonis (an attorney and community leader in one of 
eight hard-scrabble barrios along a central canal in San Juan), people 
experience--and feel--insecurity in many aspects of their lives. And as 
the hurricane season officially begins on June 1, the sense of 
foreboding hangs over the island like a dark cloud.
    When will the lights go out? ``The infrastructure is not prepared 
at all,'' she says, of the still-fragile power grid. After Maria 
knocked out power in September 2017, the lights came back on very 
slowly across the island--in some places, it took months. ``We still 
have blackouts all the time. Just a week ago, we had one that lasted 5 
hours or so.''
    And when the power goes, the water goes. And the air conditioning, 
refrigerator, and internet. And the lights--which, she says, creates 
the ``perfect situation'' for crime.
    Will houses ever be made whole? The Governor of Puerto Rico 
estimates that 30,000 houses still have blue tarps for roofs. After 
FEMA denied more than half of all individual claims for assistance, 
Bobonis says, people would pick up pieces of material from the street--
wood or aluminum--and try to repair their roofs or structures on their 
own. ``Any big wind would just rip off those repaired pieces,'' she 
notes.
    Will business ever thrive again, and offer job opportunities? While 
the economy on the island had been struggling for some time, the 
hurricane dealt a deadly blow to many businesses. ``So many businesses 
stood silent for weeks without power, eventually they couldn't make it; 
they never opened again.'' Now, many of the abandoned structures are 
open to criminal activities. Bobonis notes that Federal recovery 
dollars that fund jobs should put locals to work. ``A lot of companies 
came from the mainland to do the work of fixing things. We have people 
who are prepared and can do the job.''
    Will people ever feel secure again? Bobonis cites the impact that 
the disasters had on people. In her community, the canal flooded and 
the water in some houses was 6 feet high, and dragged in huge amounts 
of mud that overwhelmed and killed people. ``We still have so many 
mental health issues,'' she notes. ``Suicide rates have gone up, people 
are struggling with anxiety.''
                 waiting on recovery dollars to rebuild
    Bobonis notes that nearly 2 years after Maria, the island is still 
waiting on billions of dollars that have been allocated, but not 
delivered. ``We have to do things the government hasn't done, but we 
need money. It's so important that funds come to the people who need 
them.''
    Many experts and organizations worry that when the money does come, 
it won't go to the right places. Oxfam and others are advocating on 
Capitol Hill in the upcoming week about this issue (among others): 
Solicit local voices, empower local people and communities. This is the 
only path to equitable recovery.
    ``Everything the government does, there's the danger that it gets 
lost in translation,'' says Bobonis. ``We're worried that the funding 
won't go to the communities that need help the most. Communities know 
best what people need: we want the money to repair structures, and to 
build community centers, and to mitigate risks.''
    One of the most acute threats to many communities is the remapping 
of flood zones--which compels the government to move people (rather 
than mitigate risks); and then opens that land (often on the coast) to 
outside developers. ``So many of us have spent our lives in this 
community, we can't imagine moving. Our roots are in one place, that 
can't change from 1 day to another. But the government wants the easy 
way; we want them to help us stay, and mitigate risks.''
                    and waiting, and waiting . . . 
    In fact, billions of dollars have been allocated to help Puerto 
Rico rebuild: over $20 billion from HUD and the Army Corps of Engineers 
has been approved, and is sitting in coffers.
    So why isn't it being delivered to the island?
    The bottom line appears to be what we've known all along: The Trump 
administration considers Puerto Ricans to be second-class citizens. 
When the President threw rolls of paper towels at a crowd who'd just 
gone through the devastation of Hurricane Maria, he showed what he 
really thought: Puerto Ricans don't count as much as citizens of the 
mainland--and it's up to them to clean up their mess.
    And he's been doubling down on that perspective since.
    He's repeated the numbers in this tweet several times--even though 
it's false on many levels. First, the amount of aid committed totals 
$41 billion (not $91 billion); and so far, Puerto Rico has received 
only $11 billion in emergency funds. Second, the President has proposed 
taking from the money committed and using it for other projects (such 
as the wall on the southern border). And finally, almost none of the 
$21 billion in funds that have been committed through HUD has actually 
reached the island.
    While Puerto Rico is still working hard to recover, the truth is 
that it could have been much worse. The communities on the island have 
shown extraordinary resilience, hard work, and care for each other. The 
people have done so much to support each other through the long months 
without power and water, and through the recent months waiting on the 
recovery money.
    It's time for the government to support these communities with the 
money and respect they deserve.
    Next week, Oxfam will be hosting a delegation of local leaders from 
Puerto Rico on Capitol Hill. They will bring their concerns from the 
island directly to agencies and Members of Congress, and will urge them 
to release the funds, and to empower local communities to handle them 
and make best use of them.
                                 ______
                                 
Statement of Ami Gadhia, Chief of Policy, Research, and Programs, Child 
                         Care Aware of America
                             June 12, 2019
    Dear Chairman Thompson, Ranking Member Rogers, and Members of the 
committee: Child Care Aware of America (CCAoA) appreciates the 
opportunity to submit testimony on the importance of assessing the 
readiness of the Federal Emergency Management Agency's (FEMA) in future 
disasters, especially with regards to protecting children and 
reunifying them with their parents and caregivers.
    Founded in 1987, CCAoA advocates for child care policies that 
improve the lives of children and families, that lead research that 
advances the child care and early learning field, that leverage 
technology to help families make informed decisions about child care, 
and that provide professional development for child care providers. 
CCAoA is the only National nonprofit organization that focuses 
exclusively on child care.
    Our mission is to advance the affordability, accessibility, and 
quality of child care environments and to support the positive 
development and learning of all children in child care. This work is 
done in partnership with our members, which include representatives of 
the child care resource and referral (CCR&R) networks. There are CCR&Rs 
in every State in the United States.
    CCR&Rs are part of a Nation-wide system with touchpoints at the 
local, State, and National levels. These agencies support families by 
helping them navigate complicated child care systems and by conducting 
initiatives that increase the quality, affordability, and accessibility 
of child care. They provide guidance--by phone, in person, and/or via 
the internet--tailored to meet the unique needs of each individual 
family. CCR&R agencies are also the primary source of data about child 
care and use their comprehensive databases to track and monitor trends, 
including the changes in cost, quality, and supply of care available in 
States and local communities.
    In addition, CCR&Rs coordinate with other professionals involved in 
supporting low-income families, and we work together to help lift them 
out of poverty and put their children on a path to success in life. 
This includes supporting Federal health, nutrition and education 
programs that serve children from birth to 18, as well as their 
parents.
    For years, CCAoA has been committed to ensuring the child care 
sector has the support it needs, including during man-made and natural 
disasters. Our staff recognizes the critical role child care providers 
play in the resiliency of children, families, and communities and they 
remain engaged with partners to assist before, during, and after 
disasters strike.
    The work of our emergency preparedness team includes:
Preparedness
  <bullet> Empowering and training CCR&Rs and other organizations so 
        they are able to help providers develop and implement emergency 
        preparedness plans.
Response
  <bullet> Via our website, providing and maintaining critical and 
        relevant information providers need during a crisis.
  <bullet> Assessing providers' operating status, scope of damage, and 
        specific needs through direct outreach and surveys.
  <bullet> Providing detailed maps of child care programs impacted by 
        disasters that first responders and emergency managers can use 
        to aid their efforts.
Recovery
  <bullet> Coordinating with partners to send essential resources to 
        providers and families (e.g., diapers, replacement of classroom 
        furnishings, etc.).
  <bullet> Developing informational webinars, articles, and other 
        resources to assist providers and families.
  <bullet> Coordinating with CCR&Rs to help families find temporary 
        care.
    In the aftermath of Hurricane Katrina, the Nation learned how 
unprepared we were at the Federal, State, and local levels of 
government in addressing and responding to the needs of children. As a 
result, in 2007, Congress established the National Commission on 
Children and Disasters, which produced a comprehensive book of 
recommendations in 2010. These recommendations included improved mental 
health services, pediatric and child welfare needs, and disaster 
management planning, response, and reunification for child care 
settings.
    The reauthorization of the Child Care and Development Block Grant 
(CCDBG) Act of 2014, which passed with overwhelming bipartisan support, 
mandated that States and territories develop comprehensive child care 
development plans to address the need of children before, during, and 
after a major disaster or an emergency. CCAoA continues to provide 
guidance to CCR&Rs, State leaders, and providers on this requirement.
    In addition to legislative initiatives by Congress, in 2009, FEMA 
established a ``Children's Working Group'' to partner with Federal 
stakeholders, pediatric experts, and non-governmental organizations to 
ensure that the needs of children were included in all disaster 
planning at the Federal level. CCAoA has been involved with this 
working group over the last several years, and we greatly appreciate 
that both Congress and the Trump administration continue to support 
this work.
    CCAoA maintains frequent communication with the Children's Working 
Group and routinely partners with them in public stakeholder events, 
technical assistance for FEMA's children and disasters webpage, and 
facilitating meetings and webinars.
    However, while there has been significant progress over the last 
decade, much work remains to safeguard child care facilities when 
disasters strike. In just the last few years, the Nation has seen an 
alarming number of devastating hurricanes, wildfires, tornadoes, and 
historic floods. For example, just last month, a 24-hour child care 
center in Jefferson City, Missouri took a direct hit from a tornado. 
The center sustained massive damage, including to the infant/toddler 
room. Of the 4 young children scheduled to be there, only one arrived. 
Fortunately, the child care worker and the child that were present that 
evening were able to shelter in place and notify and reassure the 
parent that her child was safe and well after the tornado had passed.
    As a result of the disaster, 78 children who were enrolled with the 
24-hour program were now without care as the center has been condemned.
    We remain grateful for FEMA's leadership in addressing the needs of 
children and families, and we hope Congress will continue to provide 
the support the agency needs to meet this challenge.
    With that in mind, Child Care Aware of America makes the following 
recommendations to improve the Federal Government's work to protect 
children in disasters:
  <bullet> Pass the Homeland Security for Children Act (H.R. 2932).--
        This bill, which was recently reintroduced last month by 
        Congressman Donald Payne (D-NJ), would authorize FEMA to 
        incorporate the needs of children into all preparation, 
        mitigation, response, and recovery agencies. This includes the 
        appointment of a technical expert who will consult with 
        representatives outside of FEMA, including child care and early 
        education partners.
  <bullet> Ensure FEMA Has Sustained Resources.--this includes the 
        fiscal year 2020 budget, as well as timely passage of disaster 
        supplemental spending bills when needed.
    In addition, we also recommend that FEMA:
  <bullet> Work with the Administration on Children and Families 
        (ACF).--The agency should work with ACF to support its efforts 
        to ensure all 50 States comply with the 2014 disaster 
        preparedness requirement. As of now, 17 States remain non-
        compliant.
  <bullet> Coordinate with Other Working Groups.--Earlier this month, 
        the Department of Education announced the establishment of a 5-
        person ``Disaster Recovery Unit'' to address the need in K-12 
        settings. We support and applaud the Department for launching 
        this initiative and encourage FEMA, as well as the Department 
        of Health and Human Services, to work closely with this group 
        and consider including child care and early childhood settings 
        in the new working group. CCAoA also recommends that at least 
        one member of the 5-person `` Disaster Recovery Unit'' team has 
        a background in child care/early childhood disaster 
        preparedness issues.
    When a disaster strikes, it's critical for both the child and 
family to return to a normal routine as soon as possible, and that's 
why child care is a priority in the aftermath and recovery needs of a 
community. Child care is a critical part of children's social-emotional 
development from the very beginning; parents rely on safe, quality, 
affordable, and accessible child to go to work and provide financial 
support for their families. The benefits from access to quality, 
affordable, accessible child care are critical to the health of our 
communities and our economy.
    In closing, CCAoA recognizes the progress made on ensuring the 
safety of children when a disaster strikes, but urges the committee to 
continue to work together to better incorporate the needs of child care 
facilities and providers, and the children and families they serve, in 
your work.
    Thank you for the opportunity to submit testimony.

    Chairman Thompson. One question--well, two. Mr. Currie, if 
we were to have a repeat of the 2017 hurricane season this 
year, would FEMA be prepared to respond, in your opinion, based 
on your report?
    Mr. Currie. I think it would be prepared to respond. I 
think that we would likely still face some of the similar work 
force challenges and shortages that we faced in 2017.
    Chairman Thompson. So one of my earlier questions talked 
about work force, and we are really concerned if we do have 
that repeat. I want to be on record to say that we see it as a 
potential problem, and we hope, Mr. Administrator, that you 
address that accordingly.
    Mr. Gaynor. Yes, sir.
    Chairman Thompson. Information. The President said, after 
Hurricane Maria, that there were 6 to 18 deaths.
    What is your official death count for Hurricane Maria?
    Mr. Gaynor. Yes, sir. First of all, you know, one death is 
too many in any disaster. So, you know, one of the missions of 
emergency management is to protect life. We try to do that 
every day, and we try to do that by being proactive to make 
sure people understand risk.
    You know, we are not the source of mortality data at FEMA, 
although we are users. Again, I would like to thank Congress 
for passing DRRA. In one of those sections, DRRA 1244, we were 
directed to conduct a mortality and morbidity study, and we 
have done that, through the National Academy of Medicine. That 
study is on-going. I think we look forward to the results of 
that so we can be better informed, better prepared for the next 
disaster.
    Chairman Thompson. So what is your count? Are you saying 
that you don't know how many people died in Hurricane Maria in 
Puerto Rico?
    Mr. Gaynor. Yes, sir. Typically----
    Chairman Thompson. Yes or no?
    Mr. Gaynor. Sir, I am just going to tell you, we don't 
count deaths. But typically, it is local and State county 
health departments that are responsible for morbidity and 
mortality data.
    Chairman Thompson. Look, we are charged to try to help. If 
I told you that FEMA has paid for 800 burials----
    Mr. Gaynor. Yes, sir, we have.
    Chairman Thompson. So does that mean they died based on 
Hurricane Maria?
    Mr. Gaynor. Typically, our program supports disaster 
survivors and those who have deceased with our funeral program. 
I am not disputing that we provided burial entitlements to 
almost 900 Puerto Ricans.
    Chairman Thompson. Mr. Currie, if FEMA paid for 800 burials 
based on the disaster declaration for Hurricane Maria, would 
that be considered an official death count?
    Mr. Currie. Well, no, sir, not--those two things wouldn't 
naturally correlate, because there is all sorts of--I couldn't 
get into the details about why they pay certain things. They 
also pay for gravesites that were damaged.
    But Mr. Gaynor is right. The State and local government 
determines their official death count. In the case of Puerto 
Rico, they determined--they conducted a study. Recently, GW did 
the study, and they revised their official death count over 
2,700.
    So we are doing on-going work looking at both how Puerto 
Rico did that, but also Texas and Florida, and what changes 
were made so hopefully we never face this challenge in 
identifying this again.
    Chairman Thompson. So we know it is at least 2,700?
    Mr. Currie. That is Puerto Rico's official--new official 
death count, according to the GW study.
    Chairman Thompson. Thank you.
    The Chair recognizes the Ranking Member.
    Mr. Guest. Yes, sir, Mr. Chairman. Just a point of 
clarification.
    In response to some questions asked by Mr. Payne, outside 
of this hearing, has FEMA been invited to participate in other 
hearings before this committee, to your knowledge?
    Chairman Thompson. You are saying to me?
    Mr. Guest. Yes, sir. Have they been invited to 
participate----
    Chairman Thompson. Well, their subcommittee Chair indicated 
that he has offered the request for FEMA to have witnesses, so 
I have no reason to doubt him.
    Mr. Guest. To your knowledge, did FEMA fail to appear at 
those hearings?
    Chairman Thompson. Well, the process is subcommittee Chairs 
invite the witnesses of their choosing.
    Mr. Guest. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The Members of the committee may 
have additional questions for the witnesses, and we ask that 
you respond expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:28 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

     Questions From Chairman Bennie G. Thompson for Peter T. Gaynor
    Question 1. The committee has heard from residents of Vieques who 
detailed the urgent need for reconstruction of the island's only 
hospital. To date, we have heard that FEMA and Puerto Rico are still 
struggling to come up with an agreed-upon cost estimate for the 
hospital. Can you provide a status update?
    Answer. In May 2019 the Federal Emergency Management Administration 
(FEMA) verbally advised the Government of Puerto Rico's Central Office 
for Recovery, and Reconstruction, (COR3) and the Municipality of 
Vieques (subrecipient) that FEMA had preliminarily determined that the 
Vieques Diagnostic and Treatment Center (Centro de Diagnostico y 
Tratamiento [CDT]) was eligible for replacement. Following the 
validation of the repair and replacement cost estimates by the 
Independent Expert Panel (IEP),\1\ FEMA formally advised COR3 and the 
Municipality of Vieques in a letter dated July 9, 2019 that the 
validated estimated repair cost estimate exceeds 50 percent of the 
validated estimated replacement cost of CDT. Therefore, the CDT is 
eligible for replacement pursuant to FEMA's ``50 Percent Rule''. This 
decision was documented in an Eligibility Determination Memorandum that 
was included with FEMA's July 9 letter.
---------------------------------------------------------------------------
    \1\ A review of cost estimates is required for projects with cost 
estimates of $5 million or more; when the parties (FEMA, COR3, and the 
subrecipient) cannot reach agreement on the cost estimate; and when the 
replacement cost estimate used in calculating whether a facility is 
eligible for replacement exceeds $5 million.
---------------------------------------------------------------------------
    Project formulation includes first identifying and agreeing upon 
the eligible damage description and dimensions (DDD), then developing 
and agreeing upon the eligible scope of work (SOW), including hazard 
mitigation proposals (HMPs), and finally, developing and agreeing upon 
the cost estimates. Until the parties (in other words, FEMA, COR3, and 
the Municipality) agree on the DDD, the SOW, HMPs and cost estimates 
cannot be developed.
    FEMA provided COR3 and the Municipality with the DDD on June 27, 
2019. On August 14, 2019, the Municipality of Vieques approved the DDD. 
If, however, the parties could not resolve their differences and reach 
agreement on the DDD, FEMA would issue a Determination Memo and the 
Municipality may submit an appeal in accordance with 44 CFR  06.206.
    FEMA is currently developing the scope of work and fixed-cost 
estimate for the replacement facility based upon the approved DDD. The 
Recipient or Subrecipient may appeal any FEMA determination related to 
an application for, or the provision of, assistance under the PA 
Program. However, large projects cost estimates that require review by 
the IEP must abide by the IEP findings as those findings are binding.
    Question 2a. A Politico article from December stated that only 62 
percent of FEMA staff was deemed qualified for their job. In a briefing 
for committee staff in May, FEMA said 61 percent of its staff was 
deemed qualified for their job. Has the percentage of FEMA staff deemed 
qualified for their job gone down in the first half of 2019?
    Question 2b. How does FEMA plan to meet its training goals?
    Answer. FEMA continues to successfully grow the incident management 
workforce that deploys to help survivors before, during, and after 
disasters. In the face of historic disaster requirements since 2016, 
FEMA's pace of hiring has increased to keep up with the demand.
    Every FEMA employee meets the basic qualification standards of the 
position for which they were hired. In regard to the qualification 
rates cited for FEMA's incident management cadres, the designation of 
``Qualified'' refers to rigorous training, experience, and field-based 
performance; combined to complete their assigned Position Task Book 
(PTB).
    As of January 7, 2019, FEMA had an incident management force 
strength of 12,595 personnel, of which 7,826 (62 percent) have been 
designated under the FEMA Qualification System as ``Qualified,'' 
meaning these staff have successfully met the combination of classroom 
training and demonstrated disaster performance requirements to achieve 
this designation.
    Roughly 6 months later, on July 8, 2019, FEMA had a net increase of 
925 additional incident management staff, resulting in a force strength 
of 13,520. This growth is a result of FEMA's on-going and aggressive 
efforts to find, hire, train, and keep talented staff to support 
survivors before, during, and after disasters. During this same period, 
FEMA had designated an additional 490 staff within the incident 
management workforce, resulting in 8,316 (61 percent) personnel with an 
FQS designation as ``Qualified.''
    FEMA has many on-going initiatives that are focused on developing 
the Qualified Workforce. FEMA has refined all the Position Task Books 
(PTBs) to reflect tasks required to be successful in the field, 
allowing for more accurate and efficient coaching and evaluating. FEMA 
has expanded its Coach and Evaluator program to improve performance-
based coaching and the evaluation of specific knowledge, skills, and 
abilities. The agency provides cadres the opportunity to demonstrate 
performance through coach evaluators who can deploy and assist with 
employee progression, increasing classroom training opportunities, and 
increase job-specific training opportunities outside of disaster 
deployments through the Mission Rehearsal Training (MRT). MRTs are 
designed to ensure individual deployment readiness in order to respond 
to disasters in a competent and effective manner.
    FEMA developed the instructor qualification program to provide 
consistency in the training, proficiency, and qualification of Incident 
Workforce Instructors who deliver formal educational programs and 
learning activities. This program is critical to FEMA's ability to 
standardize the training of the incident workforce. Finally, FEMA is 
performing FQS curriculum revisions for all current FQS-required 
courses. These revised courses will build experiential learning 
opportunities into training through a broader array of training 
modalities.
    FEMA continues to expand the availability of incident management 
training at both of its resident training facilities. In fiscal year 
2017, 153 classes were completed for 2,851 students at FEMA's two 
primary training facilities. A 56 percent increase in resident training 
classes were completed in fiscal year 2018 including 239 classes for 
4,488 students. To date, 137 classes have been completed during fiscal 
year 2019 for 2,547 students with 92 classes remaining for the year and 
319 classes projected for fiscal year 2020.
    Question 3. FEMA's After-Action Report on the 2017 Hurricane Season 
acknowledged it needed to update key documents to address natural 
disasters occurring outside the continental United States. When will we 
receive the updated Outside Continental United States Hurricane 
Response Plan, the Puerto Rico Earthquake and Tsunami Operations Plan, 
and the U.S. Virgin Islands Earthquake and Tsunami Operational Plan?
    Answer. FEMA Region II is currently updating the Caribbean All-
Hazards Plan, prioritizing the Puerto Rico and U.S. Virgin Islands 
(USVI) Hurricane portions for completion by 2020, at which point the 
earthquake and tsunami portions of this plan will be addressed. There 
are currently no planning gaps; an updated all-hazards catastrophic 
plan was operational in 2018.
    Current and upcoming outside the continental U.S. hurricane 
response plans include:
  <bullet> Caribbean Hurricane Plans, Current and Upcoming:
    <bullet> The FEMA Region II Hurricane Response Plan was completed 
            in July 2011
    <bullet> The FEMA Region II Hurricane Annex for Puerto Rico and 
            USVI was completed in June 2014
    <bullet> The Joint Operational Catastrophic Incident Plan of Puerto 
            Rico (Operational Draft) was completed in June 2018
    <bullet> The FEMA Region II Puerto Rico Hurricane Plan (Pre-
            Decision Draft) is currently in progress; expected 
            completion is by 2020.
  <bullet> Pacific Typhoon Plans, Current and Upcoming:
    <bullet> The FEMA Region IX Commonwealth of the Northern Mariana 
            Islands (CNMI) Plan (2018 CNMI Catastrophic Typhoon Plan) 
            Annex to the Region 9 All-Hazards Plan was completed in 
            February 2018
    <bullet> The FEMA Region 9 Guam Typhoon Operations Plan (OPLAN) was 
            completed in August 2010
    <bullet> The FEMA Region 9 Guam Catastrophic Typhoon Plan Annex to 
            the Region 9 All-Hazards Plan was completed in February 
            2018
    <bullet> The FEMA Region 9 Hawaii Catastrophic Hurricane Annex/FEMA 
            Region 9 Hawaii Catastrophic Annex was completed in July 
            2015; new planning effort expected to initiate with 
            expected completion in 2021.
    Caribbean Earthquake and Tsunami Operations Plans:
  <bullet> Puerto Rico:
    <bullet> The Region II Puerto Rico Catastrophic Earthquake Annex 
            was completed in June 2012
    <bullet> The Region II Puerto Rico Catastrophic Tsunami Annex was 
            completed in June 2012.
  <bullet> U.S. Virgin Islands:
    <bullet> The Region II USVI Earthquake Operations Plan was 
            completed in May 2012
    <bullet> The Region II USVI Tsunami Operations Plan was completed 
            in May 2012.
    Question 4a. FEMA recently reorganized its Resilience Office, with 
a mission to build a culture of preparedness. Among other things, this 
office focuses on integrating mitigation into disaster recovery 
activities. Please describe the type of work has FEMA's Resilience 
Office completed in Puerto Rico since Hurricane Maria.
    Question 4b. Does the Office plan to have an increased presence in 
the territory as recovery efforts progress?
    Answer.
            federal insurance and mitigation administration
Mitigation
    Long-term sustainability and resilience for Puerto Rico requires 
significant Federal intra-agency and interagency partnerships. An 
example of such a partnership is the prioritizing of the Hazard 
Mitigation Grant Program (HMGP) toward protecting the Federal 
investment in public infrastructure. FEMA's Public Assistance and 
Mitigation programs are working closely together to target mitigation 
funding under both HMGP (404) and 406 mitigation to protect critical 
sectors or lifelines. This close coordination is necessary to support 
Puerto Rico's efforts toward building long-term resilience. FEMA is 
also working to leverage the use of disaster resilient Building Code 
standards and enforcement as part of Puerto Rico's long-term recovery 
efforts.
    Summary of Mitigation Actions in Puerto Rico:
  <bullet> DR-4336-PR (Irma) and DR-4339-PR (Maria)
    <bullet> Ceiling $3.00 billion/Fed Share Obl. $28.18 million/
            Available $2.99 billion (94 percent)
    <bullet> HMGP for Codes & Stds--2 Projects/Fed Share Obligated $12 
            billion
    <bullet> Advance Assistance--5 Projects/Fed Share Obligated $7.75 
            million
    <bullet> Management Costs--4 Mgmt. Cost projects/Fed Share 
            Obligated $1.61 million
    <bullet> Planning Related Activities--4 projects/Fed Share 
            Obligated $6.40 million
    <bullet> HMA Obligations for all DR's to date approximately $28.18 
            million.
    The NFIP's Floodplain Management staff have been continually 
working in support of the Puerto Rico Planning Board (NFIP State 
Coordinating Agency) and individual municipalities that enforce 
floodplain management regulations.
    Specific assistance has included:
  <bullet> Supporting the enforcement of the ``substantial damage'' 
        requirement in local floodplain management regulations. If 
        local officials determine that a structure in the floodplain 
        has been substantially damaged--meaning the cost to repair the 
        home is equal to or greater than 50 percent of its market value 
        before the flood damage--the structure must be elevated (or 
        relocated) to address the most current flood elevation 
        requirements. To assist local officials in these 
        determinations, FEMA:
    <bullet> Supported training of conducting substantial damage 
            assessments to local hires.
    <bullet> Supported field assessment of approximately 31,000 
            structures island-wide.
  <bullet> Supporting efforts to close the insurance gap.
    <bullet> In 2018, conducted an NFIP outreach operation that reached 
            more than 400 insurance agents and all 78 municipalities.
    <bullet> In 2019, launched an NFIP campaign on the island 
            conducting a live NFIP orientation that reached 
            approximately 60 insurance agents.
    <bullet> The Policy-in-Force count in August 2017 was 5,287. 
            Currently, the policy count is 11,315, of which 
            approximately 2,800 are Group Flood Insurance Policies.
    *Note: A Group Flood Insurance Policy (GFIP) is a policy covering 
all individuals named by a State as recipients under section 408 of the 
Stafford Act (42 U.S.C. 5174) of an Individuals and Households Program 
(IHP) award for flood damage as a result of major disaster declaration 
by the President. The amount of coverage is equivalent to the maximum 
grant amount established and the term of the GFIP is for 36 months and 
begins 60 days after the date of the disaster declaration.
    As part of the effort to reduce future expenses from floods, FEMA 
automatically purchases the GFIP certificates on behalf of certain 
disaster survivors who are required to obtain and maintain flood 
insurance after receiving certain Federal disaster assistance.
    The GFIP ensures that eligible disaster survivors have plenty of 
time to obtain an individual flood insurance policy that meets their 
needs and complies with mandatory flood insurance purchase 
requirements. Most importantly, flood insurance provides survivors with 
a safety net to recover from future flooding.
  <bullet> Supported the Commonwealth in adoption of the Advisory Base 
        Flood Elevations (ABFEs) in April 2018. ABFEs are maps that 
        provide a better picture of current flood risk than the 
        existing Flood Insurance Rate Maps (FIRMs). Adopting these 
        updated maps ensure that local officials are using the most 
        recent data to affect a more resilient recovery.
  <bullet> Providing on-going training to local officials, surveyors, 
        and design professionals on the NFIP's floodplain management 
        requirements.
  <bullet> Assisting the State in updating the regulations for 
        development in flood-prone areas by providing technical 
        assistance and review of the State/local Model Flood Damage 
        Prevention Ordinance (Regulation 13).
  <bullet> Assisting the Commonwealth through personnel changes by 
        providing technical assistance to incoming staff on the 
        fundamental responsibilities of a State NFIP coordinating 
        agency.
  <bullet> Supporting FEMA's Public Assistance program in review of 
        project siting, map reviews, and to ensure consistency with 
        local floodplain management requirements.
    Additionally, the Resilience organization has been engaged in 
building capability and capacity in Puerto Rico:
  <bullet> Supported COR3's Letter of Intent (LOI) Workshops in July 
        and provided technical assistance regarding eligibility 
        information and program subject-matter expertise. LOI workshops 
        are joint meetings where FEMA and Puerto Rico provide general 
        information on the HMGP and municipalities can seek feedback on 
        proposed risk reduction efforts for their respective 
        communities. As LOIs are submitted to COR3, FEMA conducts 
        initial reviews and provides initial eligibility 
        recommendations to COR3.
  <bullet> Support COR3 in identifying potential projects by leveraging 
        existing documents and reports related to mitigation and 
        recovery for Puerto Rico, including:
    <bullet> Local Hazard Mitigation Plans
    <bullet> Courses of Action (COAs) from the Governor's Recovery 
            Plan: Transformation and Innovation in the Wake of 
            Devastation
    <bullet> FEMA Mitigation Assessment Team Report: Hurricanes Irma 
            and Maria in Puerto Rico
    <bullet> FEMA Recovery Advisories
    <bullet> 404 opportunities as identified by 406 mitigation 
            specialists.
  <bullet> Support the State Hazard Mitigation Officer (SHMO) through 
        the HMGP application process and provide technical assistance 
        to identify, prioritize, and develop potential projects.
  <bullet> Coordinated potential support of COR3 for HMGP application 
        reviews using State staff from NJ and/or NY.
  <bullet> Working to build the capacity of the new SHMO and other COR3 
        staff through training, mentoring, and subject-matter expertise 
        support.
  <bullet> Provided a number of formal trainings on HMGP application 
        development and Benefit-Cost Analysis.
  <bullet> Funded Advance Assistance, Management Costs, and Planning 
        Related Activities projects to assist with HGMP application 
        development in PR.
  <bullet> Since Hurricanes Maria and Irma, FEMA has conducted 15 
        training courses in Puerto Rico to increase mitigation 
        capabilities. A total of 355 students comprised of Federal, 
        Territorial, and local governments have attended. The courses 
        include the BCA Entry Level training, HMA: Developing Quality 
        Applications, and HMA: Application Review and Evaluation.
    FEMA will continue to have a robust presence in Puerto Rico for the 
foreseeable future. In particular, this presence includes sufficient 
staffing to administer the Public Assistance and Hazard Mitigation 
Assistance (HMA) grant programs. These programs are integral to long-
term recovery efforts on the island and will serve to enhance the 
overall resilience of the built environment.
Risk Management
    FEMA began supporting the FEMA Joint Field/Recovery Office and the 
PRPB in March 2018 to develop, refine, and implement a comprehensive 
outreach strategy to share information about newly-developed Advisory 
Base Flood Elevation (ABFE) data and products released after Hurricane 
Maria to help Puerto Rico build back in a more resilient way. At FEMA, 
our flood mapping program team developed riverine and coastal advisory 
flood hazard data, including long-term erosion map change products and 
assisted the Government of Puerto Rico with adopting that advisory data 
into the territory-wide floodplain management standard for all new and 
substantially improved construction. These ABFE maps, which were signed 
into law and adopted by Puerto Rico provide the best available data are 
being used for all new construction and substantial improvement 
projects on the island, and for projects using Federal funds.
  <bullet> Puerto Rico Building Code support.--FEMA provided 
        facilitation and subject-matter expertise in support of the 
        Commonwealth's effort to update its building code and 
        incorporate recommended hazard-resistant amendments. The 
        updated building code for Puerto Rico has been developed by the 
        Commonwealth (OGPE) and reviewed by the PR College of 
        Engineers, PR AIA Chapter, other construction industry 
        professionals and the public; Final updated PR Building Code is 
        expected to be approved within the next few weeks and it is 
        already in effect for Federally-funded projects; Commonwealth's 
        building code will be based on the 2018 I Codes and include 
        some enhancements including more robust requirements for 
        corrosion and will include wind speed maps that take into 
        account the steep topography of the island.
    FEMA has supported the Commonwealth's Building Code adoption and 
enforcement efforts through direct training, technical assistance, and 
contractual support. Also, FEMA Mitigation approved a $79 million 
building code enforcement capability and capacity-building project for 
the Commonwealth. This project will result in more uniform building 
code enforcement throughout the Commonwealth and build long-term code 
enforcement capability. 20+ building science courses have been 
delivered across Puerto Rico and 15+ building science stakeholder 
presentations given. Approximately 1,000 individuals have been trained 
to date including engineers, architects, Commonwealth officials, 
recovery personnel, and the public. Courses delivered include 
Fundamentals of Building Science, Coastal Construction, Substantial 
Damage Estimating, Hazard Resistant Provisions of the I Codes, 
Fundamentals of Wind Retrofits, Using the New Microzoning Wind Maps. 
FEMA Building Science training and SME support is continuing.
    <bullet> Prescriptive Designs.--FEMA and Commonwealth are 
            encouraging permitted development by simplifying process 
            and reducing costs for the public by developing residential 
            design details that comply with the hazard provisions of 
            the latest building codes and standards through details for 
            3 common PR residential dwelling configurations. The plans 
            are scheduled to be completed in December 2019 and will be 
            available from the Commonwealth-permitting department.
    Other Building Science Support in PR.--FEMA is developing a Best 
Available Refuge Area (BARA) Guidance and Job Aids for PR (completion 
this summer) which the Commonwealth will use to assess existing schools 
for BARAs. Field visits are on-going to test the guidance and 
coordinate with stakeholders. FEMA is also developing Guidelines for 
Wind Vulnerability Assessments of Critical Facilities (completion this 
summer), this guidance is being developed to be applicable in Puerto 
Rico and Nation-wide.
    <bullet> FEMA engages with a wide range of stakeholders across the 
            island, primarily via workshops and public meetings. The 
            bilingual, collaborative outreach effort was implemented to 
            communicate new and updated flood hazard data to diverse 
            audiences across the island. Target audiences and 
            stakeholders included municipal and Commonwealth/State 
            government agencies, as well as engineers, builders, 
            surveyors, planners, emergency managers, realtors, property 
            owners, and residents of the Commonwealth's 78 
            municipalities. The Puerto Rico-based outreach team is 
            scheduled to continue to provide on-site bilingual support 
            to the PRPB until January 2019. A significant portion of 
            the outreach was conducted through more than 30 in-person 
            workshops and stakeholder meetings throughout the island, 
            with audiences ranging from 3 to 200 people per session, 
            supplemented with web-based resources, and e-mail and 
            telephone support. These outreach efforts fostered and 
            strengthened relationships among Federal, State, and local 
            stakeholders; relationships which are a critical component 
            of future mitigation, preparedness, response, and recovery 
            efforts. The team has provided translation support related 
            to ABFE outreach and Building Code Committee activities and 
            is also supporting outreach related to communicating 
            Substantial Damage Estimate (SDE) information.
    <bullet> FEMA National Dam Safety Program deployed to 4339DR-PR to 
            accompany the Geotechnical Extreme Events Reconnaissance 
            Association (GEER) team from 10/29-11/4 to complete a 
            reconnaissance on impacted dams and other infrastructure 
            from Hurricane Maria. The GEER team provided the results of 
            their findings in a report that can be found at http://
            www.geerassociation.org/index.php/component/geer_reports/
            ?view=geerre- ports&layout=build&id=84.
Federal Insurance
    Our primary objectives were to:
  <bullet> Reach insurance agents and residents who are vulnerable to 
        flooding
  <bullet> Create awareness around the NFIP and contents-only coverage
  <bullet> Deliver a paid media and outreach campaign from March to May 
        2019.
    We engaged residents in a variety of ways and enlisted the 
technical support from staff in Region II:
  <bullet> Participated in 46 speakers bureau events, attended 85 
        community outreach events, engaged with municipalities and had 
        face-to-face meetings with Government officials.
  <bullet> Placed radio ads on 4 stations across the island leading to 
        more than 8 million potential listeners.
  <bullet> Placed digital billboards in 15 high-traffic outdoor 
        locations. We delivered a postcard to more than 40,000 
        residents who will be impacted by the pending map update.
  <bullet> Utilized a Spanish-language spokesperson to disseminate an 
        Audio News Release to 5 radio stations, reaching more than 
        8,000 potential listeners.
  <bullet> Hosted 2 webinars for agents and held 2 in-person agent 
        training workshops. More than 50 participants attended both the 
        webinars and in-person trainings.
    Based on informal polling during that time period, we know more 
than 100 policies were written and we logged more than 83 total page 
visits to the English and Spanish consumer landing pages at our new 
website launched specifically for the campaign, Floodsmart.gov/Puerto 
Rico.
        office environmental planning and historic preservation
    FEMA's Office of Environmental Planning and Historic Preservation 
(OEHP) has been actively engaged in supporting FEMA Region II 
resourcing and environmental compliance strategy for Puerto Rico and 
USVI. The OEHP's Heritage Emergency National Task Force collaborated 
with the Smithsonian Cultural Rescue Initiative and 42 other partner 
agencies to provide Heritage Emergency and Response Training to over 50 
cultural institution stewards throughout Puerto Rico as well as train-
the-trainer disaster planning workshops to enable local cultural 
leaders to provide further preparedness to other cultural institutions.
    OEHP efforts included deploying more than 100 Headquarters staff 
and EHP cadre staff to support Unified Federal Review activities, 
Heritage Emergency Task Force efforts, and Environmental Advisory, 
Project Formulation, and Compliance Review mission essential tasks. 
OEHP also provided staff to lead the Natural and Cultural Resources 
Recovery support Sector in Puerto Rico. OEHP leadership director and 
deputy director from HQ have been actively engaged and deployed in 
supporting the mentoring and coaching strategy for local hires, in 
developing the environmental compliance review strategy and in 
integrating EHP compliance into resilient recovery.
    FEMA Resilience is working closely with Region II to coordinate 
Resilience functions within the Caribbean Area Division office and the 
on-going recovery operation in Puerto Rico. Mitigation and preparedness 
are both integrated into recovery planning through the Region II 
office.
    Question 5. At a May 9 joint subcommittee hearing, FEMA's associate 
administrator for mission support, Brian Kamoie, indicated that to 
maintain consistency in transparency practices, the Department had 
plans to revisit its National Interest Action (NIA) code-closing 
procedures. Could you please update the committee on the status of the 
2017 hurricane season NIA Codes?
    Answer. Currently, only the Maria NIA Code is active until 
September 15, 2019. The extension was granted on June 14, 2019.
    The National Interest Action (NIA) codes are managed by the U.S. 
General Service Administration (GSA) and extending an NIA value end 
date is appropriate when two or more agencies have a current or 
anticipated need for tracking a significant number of contract actions 
and do not have a reasonable alternate method of identifying and 
internally tracking those emergency acquisitions. In 2017, DHS 
determined that there were no facts to support an NIA extension for 
Harvey and Irma as NIA codes are intended to track the immediate 
disaster response and recovery contract actions rather than long-term 
rebuilding/reconstruction.
    Other key notes:
    GSA established criteria for ``end-dating'' NIAs includes:
    a. Agencies have permitted procurement thresholds to return to 
their pre-disaster levels.
    b. The related National mobilization or military operation has 
ended.
    c. Remaining or predicted contracting activity applicable to the 
NIA has become routine and, by applying sound judgment and management 
expertise, it is prudent to no longer track contract actions using a 
system-wide NIA value.
    d. The number of applicable contract actions is so small that 
contracting activities have adequate alternate methods other than a 
system-wide NIA value to identify those procurements.
    Question 6. In March, the Department of Homeland Security Office of 
the Inspector General released findings that FEMA had unnecessarily 
provided a contractor with personally identifiable information and 
sensitive personally identifiable information for 2.3 million disaster 
survivors. On June 11, FEMA advised committee staff that, FEMA still 
had not notified the 2.3 million disaster survivors that their 
information was involved in a privacy incident, but that FEMA was 
planning to offer remedial measures. Would you please explain exactly 
what the remedial measures are and when they will be executed?
    Answer. The Department of Homeland Security (DHS) deployed a joint 
assessment team (JAT) to the contractor's corporate and data center 
locations on two occasions, from December 7-21, 2018; and from February 
12-23, 2019. They conducted several assessments on the contractor's 
network and servers to review policy and compliance measures, validate 
the sanitization and removal of overshared survivor personally 
identifying information (PII), and conducted an in-depth technology 
security review. The JAT did not observe any evidence of compromise of 
survivor data based on observations and data which included 30 days of 
logs and a 10-day on-site assessment and the review of collected 
artifacts. The JAT did identify 11 vulnerabilities that conveyed 
moderate risk to survivor data, but FEMA continues to work with the 
contractor to remediate these issues and ensure that FEMA data is 
protected.
    To prevent future incidents like this one, FEMA is currently 
conducting an Information Sharing Assessment Initiative to review and 
address any potential vulnerabilities in current data-sharing 
processes. We also modified the contract with the vendor to include 
appropriate HSAR clauses to ensure that the contractor is held to 
appropriate DHS privacy and security requirements. FEMA requires all 
contractor staff and Federal employees who handle or access FEMA 
information to complete DHS privacy awareness training. The contractor 
confirmed completion of this training on March 11, 2019. FEMA contracts 
with the vendor include NIST SP 800-171 compliance and enforce the use 
of the Homeland Security Acquisition Manual Appendix G (Checklist for 
Sensitive Information).
    We will notify affected survivors of this incident via U.S. Mail, 
and provide general information on its public webpage. The individual 
notifications will outline steps individuals may take as a best 
practice to ensure their PII is safeguarded. FEMA will also be offering 
credit monitoring services to those impacted, as detailed in the 
notification correspondence.
    Question 7a. FEMA's information technology (IT) system has been 
criticized for being highly complex and consisting of many disparate 
parts and labor-intensive manual processes. In consideration of the 
lack of ease associated with FEMA's IT system, FEMA has attempted to 
streamline it grants facilitation through the Grants Management 
Modernization (GMM) program. According to a recent GAO report (GAO-19-
164), FEMA's GMM program schedule and cost estimates are 
``unrealistic'' and ``unreliable.'' Do you believe FEMA is on schedule 
with its 2020 implementation time frame? If no, has FEMA updated the 
GMM schedule and when is full implementation expected?
    Question 7b. According to the same GAO report (GAO-19-164), FEMA's 
initial cost estimate for GMM, $251 million, no longer reflects the 
current approach for the program. Has FEMA revised this cost estimate? 
If yes, what is the current cost estimate to fully implement GMM?
    Answer. The Grants Management Modernization (GMM) Program was 
recently aligned under the FEMA Grant Programs Directorate (GPD) in May 
2019. Under new program leadership, the first priority was to review 
the current development and delivery schedule to validate its 
implementation timeline. GMM is currently doing that analysis and 
evaluation of its development velocity and release process to inform a 
better time frame for Full Operating Capability (FOC). GMM anticipates 
the analysis to be finalized by October 2019 and will have more insight 
to FOC shortly after. A thorough re-baseline of GMM's life-cycle cost 
estimate was approved by the Department in March 2019. The new updated 
life-cycle cost to fully implement GMM is $390 million.
    Question 8a. In April, the committee was advised that FEMA has 
deployed staff to assist with the situation on the Southern Border. How 
many staff is FEMA currently utilizing to assist other DHS components 
on the Southern Border?
    Does this represent a peak, ramp up, or ramp down in terms of the 
staffing numbers?
    Question 8b. Please break down the numbers by how many are from 
FEMA headquarters, FEMA regions, and temporary workers.
    Answer. FEMA currently has 7 volunteers deployed (as of July 10, 
2019). At the peak, we had 11 volunteers in early June. The level of 
deployed volunteers has been relatively constant.
  <bullet> Volunteers from Headquarters.--7.
  <bullet> Volunteers from Regions.--0.
  <bullet> Volunteers Who are Temporary Workers.--3.
     Questions From Honorable James R. Langevin for Peter T. Gaynor
    Question 1a. The National Council on Disability recently released a 
report entitled ``Preserving Our Freedom: Ending Institutionalization 
of People with Disabilities During and After Disasters.'' One of the 
key findings in the report states: ``People with disabilities do not 
have equal access to emergency and disaster-related programs and 
services, leading to deterioration of health and safety, and loss of 
independence. This occurs despite the fact that Federal funds are 
required to be spent in compliance with the equal access requirements 
of the Rehabilitation Act of 1973, 29 U.S.C.  701 et seq and the 
Americans With Disabilities Act of 1990 as amended, 42 USC  12102.''
    What steps is FEMA taking to ensure that in the future people with 
disabilities have equal access to emergency and disaster-related 
programs? What steps will FEMA take to ensure Federal disaster funds 
are spent in a way that encourages independence for people with 
disabilities?
    Specifically:
    What audit mechanisms does FEMA currently have in place to ensure 
grantees of Federal disaster funds comply with the Rehabilitation Act 
of 1973 and/or the Americans with Disabilities Act?
    Question 1b. What materials related to the Rehabilitation Act of 
1973, American with Disabilities Act, or other Federal disability 
policy are provided to auditors? Please provide a copy of any such 
guidance.
    Question 1c. Is the agency aware of any instances where Federal 
funds were spent in violation of the Rehabilitation Act of 1973, the 
Americans with Disabilities Act, or other Federal disability policy?
    Answer. FEMA has civil rights compliance regulations which 
implement Title VI of the Civil Rights Act of 1964 and apply to civil 
rights investigations and compliance reviews in connection with 
Federally-assisted activities and compliance with the Rehabilitation 
Act of 1973). Specifically, 44 Code of Federal Regulations Part 7, 
provides that FEMA ``shall from time to time review the practices of 
recipients to determine whether they are complying with this 
regulation.'' 44 CFR  7.11. Similarly, FEMA has the authority to 
investigate civil rights complaints related to violations of the 
Rehabilitation Act in Federally-assisted activities. FEMA is building 
capacity to conduct compliance reviews of recipients of FEMA funds, as 
appropriate, with greater frequency.
    All recipients of FEMA assistance sign assurances that require they 
comply with Federal civil rights laws and regulations. Guidance on how 
members of the public can file a civil rights complaint and how the 
complaint investigation process works is now provided through FEMA's 
Civil Rights Notice and press releases during disaster operations. 
Recipients are also required to complete a Civil Rights Evaluation Tool 
designed to further notify them of their civil rights requirements and 
seek relevant information to demonstrate their understanding of this 
commitment.
    I am not aware of an instance where Federal funds were spent in 
violation of the Rehabilitation Act of 1973, within the limited context 
of this request. However, an investigation by the Department of 
Homeland Security, Office of Civil Rights and Civil Liberties (CRCL) 
found that FEMA violated Section 504 of the Rehabilitation Act of 1973 
(Section 504) when it failed to provide a reasonable accommodation for 
a disaster survivor with a disability to have a third-party present 
during a post-disaster home-inspection. FEMA had previously denied the 
survivor's application for $500 in personal property assistance. As a 
remedy for its violation of Section 504, CRCL ordered FEMA to approve 
the applicant's $500 request. Additionally, FEMA is aware of 
allegations made in media reports that State and local recipients of 
Federal funds may have failed to adequately accommodate persons with 
disabilities. Where such reports include enough specific information, 
investigations are conducted. Such reports are routinely reviewed by 
FEMA's Office of Equal Rights, and DHS CRCL. The U.S. Department of 
Justice has coordinating authority with respect to implementation of 
the Rehabilitation Act across the Federal Government.
    Question 2a. The U.S. Government Accountability Office recently 
released a report entitled ``FEMA Action Needed to Better Support 
Individuals Who Are Older or Have Disabilities.'' The report found that 
FEMA's registration process does not provide a clear opportunity for 
individuals to self-identify a disability or request an accommodation 
in the wake of a disaster. FEMA officials acknowledged the disability-
related registration questions are unclear, consistently 
misinterpreted, and do not solicit accommodation requests or 
effectively collect information on an individual's disability and 
related needs. GAO recommended that FEMA implement new registration-
intake questions to improve the agency's ability to identify and 
address survivors' disability-related needs. FEMA concurred with the 
recommendation. What steps has FEMA taken to develop new disability-
related registration intake questions?
    Specifically:
    What actions have been taken by FEMA's Individuals and Households 
Program, the Office of Disability Integration and Coordination, and/or 
the Office of Equal Rights to address the disability-related 
registration intake questions? Please provide any studies, data, or 
analyses related to proposed changes of the disability-related 
registration intake questions.
    Question 2b. Have any working groups been formed internally at FEMA 
and/or with external partners to address the registration intake 
questions? If so, please provide a list of the members of the working 
group.
    Answer. On May 2, 2019, FEMA implemented changes to Question 24 on 
the Registration Intake form to a question that directly asks 
respondents if they have a disability and provides clear examples:
    Disaster-Related Losses--
    Previous Question: ``Did you, your co-applicant, or any dependents 
have help or support doing things like walking, seeing, hearing, or 
taking care of yourself before the disaster and have you lost that help 
or support because of the disaster?''
    Changed to: ``Do you or anyone in your household use any type of 
mobility or assistive device such as a wheelchair, walker, cane, 
hearing aid, service animal, personal care attendant, or other similar 
medically related devices or services that assist with disabilities or 
activities of daily living?''
    If Applicant Selects ``Yes'', Then--
    Previous Question: ``You have checked ``Yes'' that you or a 
household member has a disability that was affected by the disaster. 
Please choose any of the general categories that apply.''
    Changed to: ``You stated that you or a household member had a 
disability or uses a device to assist with activities of daily living 
or utilizes services to assist with daily living. Please choose from 
the following:''
    This wording was developed through collaboration within FEMA. The 
revision was part of a routinely scheduled renewal of the registration 
intake script submitted to the Office of Management and Budget (OMB) 
for review and approval. The collection (1660-0002) is currently 
pending OMB approval.
    Since this interim measure has been put in place, the number of 
applicants responding ``Yes'' to Question 24 has increased over four-
fold, from an average of 3.4 percent (for IA-declared disasters between 
September 2018 and May 1, 2019) to an average of 14.8 percent for the 
last 5 IA-declared disasters (FEMA-4438-DR-OK, FEMA-4440-DR-SD, FEMA-
4441-DR-AR, FEMA-4447-DR-OH, and FEMA-4451-DR-MO) declared after the 
change was made to the question on May 2, 2019.
    The new percentages approximate the American Community Survey (U.S. 
Census Bureau) disability statistics of each State, giving confidence 
that the wording change has significantly improved FEMA's ability to 
identify and, therefore, address survivors' disability-related needs.
    Additionally, we are in the process of seeking OMB approval to 
include a new question at the beginning of the Registration Intake 
process to ascertain if applicants need a reasonable accommodation to 
access FEMA programs.
    FEMA has established a working group comprised of key internal 
agency stakeholders to develop an approach incorporating this 
reasonable accommodation question in the Registration Intake.
    Question 3a. FEMA began implementing a new approach to disability 
integration in June 2018. What successes and challenges has the agency 
encountered when implementing the new approach? How is FEMA measuring 
success of the new approach?
    Specifically:
    Has the agency established and disseminated a set of objectives for 
FEMA's new disability integration approach? Why or why not? If so, 
please provide copies of the objectives and the list of employees who 
received copies.
    Answer. The FEMA Office of Disability Integration and Coordination 
(ODIC) has engaged with the FEMA Continuous Improvement Program to 
develop performance metrics and evaluate implementation of the agency's 
approach to disability integration.
    As part of this effort, FEMA conducted a survey of key stakeholders 
within the agency that included the Disability Integration cadre, the 
Field Leadership cadre, and other key staff to evaluate the agency's 
implementation of disability integration's strategy. A total of 104 
responses were collected with feedback regarding improvements to the 
program such as cross-training within ODIC and other cadres (such as 
Public Assistance and Individual Assistance), stronger demographic 
data, whole-community awareness of ODIC and FEMA's programs, and 
requests for training and job aids.
    FEMA then held several workshops to review the findings of the 
survey and to outline an action plan to address implementation 
challenges identified. The results of the survey are included as 
Attachment A*. The action plan will be completed by August 2, 2019.
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Expectations and performance requirements of the disability 
integration model have been established and have been socialized to the 
deployable Disability Integration Cadre. The full deployable Disability 
Integration cadre staff and Regional Disability Integration Specialists 
have received these expectations in writing and through an all-hands 
meeting held in June 2019. In addition, ODIC has communicated pending 
changes to the Disability Integration cadre's position objectives, 
position descriptions, position task books, and the roles and 
responsibilities of the Disability Integration Advisor and Disability 
Integration Specialist titles. Mission Rehearsal Training (MRT) has 
been created to disseminate to all Disability Integration cadre staff 
and Regional Disability Integration Specialists to train and gain 
feedback on the model. Position task books have been updated and will 
be re-issued during the MRT to efficiently set performance standards 
and expectations to all staff within ODIC. The presentation used at the 
all-hands meeting is included as Attachment B.*
    Question 3b. Has FEMA heard concerns from the disability community, 
including any nonprofit or grassroots organizations focused on people 
with disabilities, on its new approach? What were the concerns? Did 
FEMA change its course of action based on the concerns? Why or why not?
    Answer. FEMA has received feedback from the disability community 
over concerns with the deployment model and its impact directly on 
survivors with disabilities. The deployment model seeks to address 
these concerns by strengthening readiness to include survivors with 
disabilities. ODIC seeks an agency-wide increase in program access 
through deployment of Disability Integration Advisors to support, 
advise and empower key leaders of all program areas to implement 
policies and practices that are inclusive of the whole community. We 
collaborate with external partners including organizations that 
represent the interests of people with disabilities to shape the 
agency's approach to serving people with disabilities in all phases of 
emergency management. As examples of this engagement, FEMA held 2 
Partner Strategy Sessions with State, local, and territorial partners 
as well as private-sector and NGO partners that represent the interests 
of people with disabilities in Fall 2018. The concerns raised in these 
sessions were incorporated directly into ODIC's strategic planning 
process to formulate its 2019-2022 Strategic Plan. The final report out 
from the Partner Strategy Sessions is included as Attachment C;* the 
Strategic Plan is included as Attachment D.* Some solutions for better 
collaboration with the disability partners include cross-training 
between FEMA and the disability communities at large, joining/forming 
coalitions of both NGO and individuals, and on-going communication 
efforts.
    Question 3c. Has FEMA communicated to Regional Administrators and 
Regional Disability specialists a written plan for implementing its new 
disability integration staffing approach? Please provide copies of any 
draft and any finalized guidance.
    Answer. FEMA initiated a working group to make recommendations to 
establish written procedures for how Regions should involve ODIC, 
clarifying the agency's approach to disability integration, and 
evaluating disability integration staff performance. The outcomes of 
this working group will be the standardization of the roles and 
responsibilities of the Regional Disability Integration Specialist 
(RDIS) position across the 10 Regions, recommendations for reporting 
standardization across the Regions and ODIC, staffing recommendations 
for the disability integration mission in the Regions and the 
development of standardized performance objectives for all disability 
integration specialists. Table 1 summarizes interim milestones and 
estimated completion dates for implementation of these recommendations.

                                 TABLE 1
------------------------------------------------------------------------
            Interim Milestones               Estimated Completion Dates
------------------------------------------------------------------------
1. Initiate a working group comprised of    Completed.
 Regional and HQ staff to make
 recommendations to the FEMA Chief of
 Staff on RDIS standardization.
2. Deliver recommendations to the FEMA      Completed.
 Deputy Chief of Staff.
3. Develop and socialize written            December 31, 2019.
 procedures consistent with the
 recommendations to the Chief of Staff to
 all Regional Administrators.
------------------------------------------------------------------------

    Question 3d. Has FEMA updated E/L 0197: ``Integrating Access and 
Functional Needs into Emergency Planning''? Please provide copies of 
any draft and any finalized guidance.
    Answer. Working in coordination with FEMA's Emergency Management 
Institute (EMI), ODIC has performed a market analysis, completed an 
updated Uniform Training Needs Assessment (UTNA), and has begun the 
process of procuring a contract to redesign the training course E/L 
0197--Integrating People with Disabilities into Emergency Planning. The 
new course will be delivered as a multi-day, instructor-led, exercise-
based course that will allow State, local, Tribal, territorial, and 
public and private-sector partners to test their emergency operations 
plans in a no-fault environment and learn strategies to incorporate the 
needs of people with disabilities into these plans. Work on the new 
course will commence in August 2019. The anticipated period of 
performance for this work is 1 year. Table 2 summarizes interim 
milestones and estimated completion dates for implementation of the new 
course.

                                 TABLE 2
------------------------------------------------------------------------
            Interim Milestones               Estimated Completion Dates
------------------------------------------------------------------------
1. Work with EMI and ODIC to develop a      Completed.
 Unified Training Needs Assessment for the
 revision of E/L 0197.
2. Issue an RFQ for contractor support....  Completed.
3. Select a contractor....................  July 2019.
4. Initiate work..........................  August 2019.
5. Complete redesign and launch course....  August 2020.
------------------------------------------------------------------------

     Questions From Honorable Lauren Underwood for Peter T. Gaynor
    Question 1. Please explain the process by which FEMA works with the 
Department of Agriculture to ensure that farmers are given the 
appropriate assistance when their crops are affected by water damage.
    Answer. As crop and business losses are not covered under the 
Robert T. Stafford Disaster Relief and Emergency Assistance Act, FEMA 
relies on its partners in the U.S. Department of Agriculture (USDA) and 
the U.S. Small Business Administration (SBA) to provide assistance in 
such cases. FEMA defers to the USDA and SBA respectively to provide 
information on their disaster assistance programs.
    Question 2. The Disaster Recovery Reform Act of 2018 directs FEMA 
to coordinate with State and local governments and utility companies to 
map out policies and best practices to prioritize restoring power to 
health-care facilities following disasters. Please provide an update on 
FEMA's progress in complying with this law.
    Answer. FEMA, led by the National Integration Center (NIC) and the 
National Training and Education Division (NTED), has worked with the 
U.S. Department of Health and Human Services and other partners to 
survey existing programs, policies and guidance across the interagency 
to determine what guidance and training already exists that can be 
leveraged in support of this provision. The NIC is finalizing the 
development of the guidance that will focus heavily on a compendium of 
existing resources that support State, local, Tribal, and territorial 
partners, first responders, and utility companies.
    The guidance will include existing training options for the 
aforementioned partners. The 2018-2019 Government shutdown delayed the 
development of the guidance. FEMA anticipates releasing the guidance, 
thus fulfilling the legal requirements of the provision, by August 
2019.
    Question 3a. Public health considerations are a vital part of 
disaster response. Floodwaters, for example, don't just go away right 
after a flood. Communities can remain underwater for days or weeks, 
causing further risks.
    What resources or coordination efforts does FEMA make available to 
mothers and children following natural disasters, especially if the 
local and State agencies are unable to provide assistance?
    Question 3b. Please provide additional information on the public 
health consequences of standing water after a flood including 
information on whether children are particularly vulnerable to these 
consequences.
    Answer. Consistent with the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act, (Stafford Act), when a State, territorial, or 
Tribal government determines an incident has exceeded their capability 
to respond to a disaster, the Governor or Tribal Chief Executive may 
request an emergency or major disaster declaration from the President 
through FEMA.
    For FEMA to provide supplemental Federal assistance, the President 
must declare that an emergency or major disaster exists. The 
declaration will establish the areas, incident period, type of 
incident, types of assistance and Federal cost share that applies. The 
Individual Assistance Program and Policy Guide (IAPPG) consolidates 
summaries and overarching information for all Individual Assistance 
(IA) programs and activities, covering the Individuals and Households 
Program, Mass Care and Emergency Assistance Programs, Community 
Services grants and Federal awards, and the activities of the Voluntary 
Agency Coordination Section (which works with voluntary agencies, non-
governmental partners, faith-based organizations, voluntary agencies 
active in disasters (VOAD), and other Federal, State, territorial, and 
local resources that would be assisting mothers, children, and other 
survivors). FEMA External Affairs also disseminates resource 
information for parents/guardians and does so in coordination with 
Federal partners and other external stakeholders.
    Voluntary agencies, whose missions include serving families, 
mothers, children, and communities in disaster or otherwise would 
provide the bulk wrap-around services in partnership with local and 
State resources. If the State, local, Tribal, or territorial government 
(SLTT) is unable to provide assistance, most of this work would 
continue to be supported by local nonprofits and community-based 
organizations as they are the ``safety net'' to any community. While 
most of these organizations do not have formal contracts or agreements 
with SLTTs, the coordination of these voluntary efforts may occur 
within a Long-Term Recovery Group that FEMA Voluntary Agency Liaisons 
support.
    Regarding public health consequences of standing water after 
disasters, FEMA defers to the U.S. Department of Health and Human 
Services.
       Questions From Honorable Michael Guest for Peter T. Gaynor
    Question 1a. As mentioned in the hearing last Wednesday, the State 
of Mississippi has had a challenging year with natural disasters. Since 
December 2018, Governor Bryant has issued 5 states of emergency and 
just recently requested the third Federal major disaster declaration. 
As a result of these natural disasters and persistent rainfall, the 
South Delta region of Mississippi has experienced significant flooding, 
which has been compared to the Great Flood of 1927. More than 500,000 
acres in this region are flooded, and projections are forecasting the 
water level to reach 98 feet by the end of June. For this reason, 
thousands of individuals in the area are restricted from their day-to-
day activities. State officials have recently noted that this situation 
has evolved into a public health and safety issue, citing the stagnated 
water, infiltration of water/sewer systems, access to transportation, 
and several more problems. Mississippi officials are seeking innovative 
solutions to address this crisis. One such proposal supported by the 
Mississippi Emergency Management Agency (MEMA) would be for FEMA to 
direct the U.S. Army Corps of Engineers to install temporary water 
pumps to remove floodwaters, like previously used in recovery efforts 
following Hurricanes Katrina and Sandy.
    What is the process for reviewing and approving the use of 
temporary water pumps?
    Answer. The process starts when an impacted State requests and is 
approved for Federal assistance under a Stafford Act Major Disaster or 
Emergency Declaration. Following a declaration, a State may request 
direct Federal assistance to support their on-going response efforts, 
including emergency protective measures. Under this well-established 
process, FEMA either mobilizes its own capabilities or mission assigns 
other Federal agencies for capabilities to support the impacted State. 
Under the National Response Framework (NRF), the U.S. Army Corps of 
Engineers (USACE) is the coordinating agency for Emergency Support 
Function (ESF)-3. If FEMA received a request for dewatering assistance 
from Mississippi, it would turn to USACE as ESF-3 to identify any 
potential solutions USACE or ESF-3 support agencies could provide, and 
if any capabilities existed which could support the request, FEMA would 
issue a mission assignment to ESF-3 to mobilize that support.
    Separately, USACE can provide certain capabilities and functions 
under their own authority. FEMA defers to USACE for details on their 
agency-specific authorities for responding to floods.
    Question 1b. What would be an expected time line for such a 
decision?
    Answer. The time lines for delivering Federal capabilities to 
support unwatering operations would include the requested delivery date 
by the requesting State, the speed at which ESF-3 could mobilize and 
transport the required capabilities to the impacted area, and the time 
required for the identified solution to be completed based on the size 
and scope of the mission. Ultimately, the requesting State must submit 
a request for Federal assistance before FEMA could issue a mission 
assignment to ESF-3 for support. Once the request is made and approved, 
FEMA and ESF-3 will work diligently to deliver the required support as 
quickly as possible.
    Question 1c. Does FEMA have any other recommendations for effective 
response and recovery to addressing this crisis?
    Answer. If the area is declared under the Stafford Act, FEMA 
recommends that the State emergency management agency work through the 
Federal Coordinating Officer. At that point, they can discuss potential 
Federal solutions available through ESF-3 that may be available to 
support dewatering efforts.
    FEMA also recommends that State, local, Tribal, and territorial 
(SLTT) communities continually review and revise response and recovery 
plans. Additionally, using mitigation techniques, SLTT partners often 
reduce the effect and risk of incidents that require response and 
recovery efforts.

                                 [all]
</pre></body></html>
